Appendix

Table of Contents
Order denying emergency motion for injunctive relief pending appeal, Ryan
Klaassen, et al. v. Trustees of Indiana University, No. 21-2326 (7th Cir.) . . 1a
Order denying motion for an injunction pending appeal, Ryan Klaassen, et al. v. Trustees
of Indiana University, No. 1:21-CV-238 DRL-SLC (N.D. Ind.) . . . . . . . . . . . 5a
Opinion and Order, Ryan Klaassen, et al. v. Trustees of Indiana University,
No. 1:21-CV-238 DRL-SLC (N.D. Ind.). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8a
U.S. Const. amend XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 109a
Verified Complaint for Declaratory and Injunctive Relief, Ryan Klaassen, et al. v.
Trustees of Indiana University, No. 1:21-CV-238 (N.D. Ind.). . . . . . . . . . . . . . . . 111a
Emergency Motion for an Injunction Pending Appeal Relief, Ryan Klaassen, et al. v.
Trustees of Indiana University, No. 21-2326 (7th Cir.) . . . . . . . . . . . . . . . . . . . . 166a
Reply in Support of Emergency Motion for an Injunction Pending Appeal Relief,
Ryan Klaassen, et al. v. Trustees of Indiana University, No. 21-2326 (7th Cir.) . 197a

Case: 21-2326

Document: 13

Filed: 08/02/2021

Pages: 4

In the

United States Court of Appeals
For the Seventh Circuit
GGGGGGGGGGGGGGGGGGGGK

&AK87H898<K






B'ABK

&BK
!%K





  

 BK

&AK
GGGGGGGGGGGGGGGGGGGGK
 ((( (  (((((
(((  $(( (#(
#(% & & !"(('(
 $#(

GGGGGGGGGGGGGGGGGGGGK

 8B8687K
GGGGGGGGGGGGGGGGGGGGK
&)K

BKBK%K

B'

' AK


B' ' AK+)+ %K%/+K*$*+)BK##K*+,H
%+*K +K % %K % -)* +0K $,*+K K - %+K  %*+K
 H7?K ,%#**K +0K )K /$'+K &)K )#  &,*K &)K $ #K
)*&%*AK/$'+K*+,%+*K$,*+K.)K$*"*K%KK+*+K&)K
+K **K+. KK."AK +K*+,%+*K&%+%K %K+ *K*, +K
++K +*K &% + &%*K &K 5%%K - &#+K +K ,K )&**K
#,*K&K+K&%*+ +,+ &%F*K&,)+%+K$%$%+AKK *H
+) +K &,)+K % K '# %+ 4*FK )(,*+K &)K K ')# $ %)0K

Appendix 1a

Case: 21-2326

8K

Document: 13

Filed: 08/02/2021

Pages: 4

&AK87H898<K

%!,%+ &%BK 8687K AAK  *+AK  K 799966K DAAK %AK ,#0K 7>BK
8687EBK%K+0K*"K,*K+&K **,K%K %!,%+ &%K'% %K''#AK
 -%K'!%' "BK7?=KAAK77KD7?6;EBK. K
&#*K++KK*++K$0K)(, )K##K$$)*K&K+K',# K+&KK
- %+K  %*+K *$##'&/BK +)K %F+K K K &%*+ +,+ &%#K
')&#$K. +K- %+ &%K %*+KH&H8AK# %+ 4*K*H
*)+K++K+K)+ &%#H* *K*+%)K,*K %'K&*K%&+K
&4)K %&,K ')&++ &%K &)K + )K %+)*+*K %K ++K &,)+*K
*&,#K%&+KK*K)%+ #K+&K+K * &%*K&K',# K& *K
*KK.*BK,+KK&,)+K&K''#*K$,*+K''#0K+K#.K*H
+# *K0K+K,')$K&,)+AK
# %+ 4*K %-&"K*,*+%+ -K,K')&**AK%)' &
'!%' BK;87KAAK=68BK=86I88KD7??=EBK%K&+)K H
* &%*BK*,K%K),$%+K'%*K&%K+K/ *+%K&KK,%H
$%+#K) +K %) %K %K+K$) %K##K+) + &%AK+K&
BK. K*,*+ %KK) $ %#K&%- + &%K&)K),* %K+&K
K- %+BK*&.*K++K'# %+ 4*K#"K*,KK) +AK&K+K
&%+))0BK - %+ &%K )(, )$%+*BK # "K &+)K ',# H#+K
$*,)*BK-K%K&$$&%K %K+ *K%+ &%AK
%K+ *K*K *K* )K+%KK&)K+K% -)* +0BK&)K
+.&K)*&%*AK
 )*+BK K *,*+ %K K - %+ &%K )(, )$%+K ++K
#"K/'+ &%*K&)K,#+*AKK7?=KAAK+K96AK,+K % %K
% -)* +0K *K /'+ &%*K &)K ')*&%*K .&K #)K - %H
+ &%K %&$'+ #K. +K+ )K)#  &,*K# *K%K')*&%*K&)K
.&$K - %+ &%K *K $ ##0K &%+) % +AK K ')&H
#$*K++K$0K) *K.%KK*++K),**K+&K$"K&$$&H
+ &%*K +)&)K )K %&+K ')*%+K %K + *K *AK %BK * /K &K
+K +K'# %+ 4*K-K# $K+K)#  &,*K/'+ &%BK%K
K*-%+K *K#  #K&)K +AK*K'# %+ 4*K!,*+K%K+&K.)K

Appendix 2a

Case: 21-2326

&AK87H898<K

Document: 13

Filed: 08/02/2021

Pages: 4

9K

$*"*K%KK+*+BK)(, )$%+*K++K)K%&+K&%*+ +,+ &%H
##0K')&#$+ AKDK +K'# %+ 4K&*K%&+K(,# 0K&)K%K
/$'+ &%BK. K *K.0K.K-KK!,*+  #K&%+)&-)*0AEK
&%BK % %K&*K%&+K)(, )K-)0K,#+K$$)K&K
+K',# K+&KK- %+BK*K **,*5*K K %KAK
 %+ &%K *K %*+KK&% + &%K&K5% %K % %K% H
-)* +0AK&'#K.&K&K%&+K.%+K+&KK- %+K$0K&K#*H
.)AK %0K,% -)* + *K)(, )K- %+ &%K %*+KH
&H8BK,+K$%0K&+)*K&K%&+AK# %+ 4*K-K$'#K,H
+ &%#K&''&)+,% + *AK
K ,% -)* +0K $0K  K .+K *K %**)0K +&K "'K
&+)K*+,%+*K*K %KK&%)+K*5 %AK#+K/$*K%K
- %+ &%*K %*+K&+)K ***KD$*#*BK$,$'*BK),##BK
 '+) BK++%,*BK')+,** *BK-) ##BK$% % + *BK %3,%1BK
%K $&)EK )K &$$&%K )(, )$%+*K &K  )K ,+ &%AK
 %+ &%K')&++*K%&+K&%#0K+K- %+K')*&%*K,+K#*&K
+&*K .&K &$K %K &%++K . +K +$BK %K +K K ,% -)* +0K
#&*K&%++K *K %- +#AK
K**,$K. +K'# %+ 4*K++K+0K-KK) +K %K& #0K
%+) +0AK0K#*&K-KK) +K+&K&#K')&')+0AK+K+0K&)K
+ )K')%+*K$,*+K*,))%)K')&')+0K+&K5%K % %K% H
-)* +0AK%)),+*K$,*+K')+K. +K+K#*+K@77B666KK0)K
D %H*++K+, + &%EBK-%K+&,K % %K&,#K%&+K*,$$) #0K
&%2*+K++K*,$K)&$K##K)* %+*K&K&##KAK
+)K &% + &%*K &K %)&##$%+K )K %&)$#K %K ')&')AK
K )*+K$%$%+K$%*K++KK*++K%%&+K+##K%0&%K
.+K+&K)K&)K.) +BK,+KK*++K,% -)* +0K$0K$%K++K
*+,%+*K)K+ %*K+0K'))K%&+K+&K)K%K.) +K+ %*K
+0K'))K%&+K+&K.) +AKK*+,%+K$,*+K)K.+KK')&**&)K
** %*BK -%K K +K *+,%+K $*K +K &&"*K )+ #BK %K

Appendix 3a

Case: 21-2326

:K

Document: 13

Filed: 08/02/2021

Pages: 4

&AK87H898<K

$,*+K.) +K/$*K&)K**0*K*K)(, )AKBKAABK'
!%' ' ' ' ' $##BK 7;K A9K <>6BK <>=K D=+K  )AK
7??:ECK ' !%'BK ?7;K A9K 96>K D:+K  )AK 867?ECK ' !%'
'' 'BK>8=KA8K<>:KD77+K )AK7?>=EAKK
*+,%+K +&#K +&K %#01K +K )&#K &K %  # *$K %K &*+&-*"0F*K
' K,+K.&K*,$ +*K%K**0K&,+K &F*K$&+ -H
+ &%*K %K K. ##K3,%"AK
K&% + &%*K&K )K,+ &%K$0K %#,K*,))%)H
%K ')&')+0K %K &##&. %K %*+),+ &%*K &,+K .+K +&K )K
%K .) +BK +K *K )K +&K *K K )+)K ')&#$K . +K $ #K
&% + &%*K++K#'K##K*+,%+*K)$ %K*K.%K#)% %AK
K,% -)* +0K. ##K-K+)&,#K&')+ %K.%KK*+,%+K
)*K++K-)0&%K#*K$0KK*') %K **AK.K'&H
'#K.%+K+&K)+,)%K+&K)$&+K,+ &%J%K.K&K%&+K+ %"K
++K+K&%*+ +,+ &%K&)*K+K *+%H#)% %K'')&K&%K
K,% -)* +0K++K# -*K- %+ &%KD&)K$*"*K%K)(,%+K
+*+ %K &K +K ,%- %+EK . ##K $"K %H')*&%K &')+ &%*K
*K%&,AK
K$&+ &%K&)K%K %!,%+ &%K'% %K''#K *K% AK

Appendix 4a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 40 filed 07/21/21 page 1 of 3

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
FORT WAYNE DIVISION
RYAN KLAASSEN et al.,
Plaintiffs,
v.

CAUSE NO. 1:21-CV-238 DRL-SLC

THE TRUSTEES OF INDIANA
UNIVERSITY,
Defendant.
ORDER
The students move to enjoin Indiana University from enforcing its vaccination
policy pending their appeal. See Fed. R. Civ. P. 62(d). The court reviews this motion under
generally the same analysis governing the preliminary injunction motion. Hilton v.
Braunskill, 481 U.S. 770, 776 (1987); Cavel Int’l, Inc. v. Madigan, 500 F.3d 544, 547-48 (7th
Cir. 2007); see, e.g., Korte v. Sebelius, 528 F. Appx. 583, 585-86 (7th Cir. 2012).
If the court only had another five days for its preliminary injunction ruling, it
would have been shorter. Fair to say the court needn’t elaborate on a 101-page opinion.
The students never made a strong showing that they were likely to succeed on their
constitutional claim’s merits. As it turns out, they only made a soft showing.
In this motion, the students posit strict scrutiny by theorizing an expansion of Roe
v. Wade, 410 U.S. 113 (1973). The court declines to view that theory of error as strong. It
stands in contrast to the Constitution, and longstanding precedent from the United States
Supreme Court. See Washington v. Glucksberg, 521 U.S. 702, 720-21 (1997); Zucht v. King,
260 U.S. 174, 176-77 (1922); Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11, 24-25

Appendix 5a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 40 filed 07/21/21 page 2 of 3

(1905); see also Gonzales v. Carhart, 550 U.S. 124, 163 (2007); Cruzan v. Director, Missouri
Dept. of Health 497 U.S. 261, 279 (1990); Washington v. Harper, 494 U.S. 210, 221-22 (1990).
For any number of reasons articulated in the court’s prior opinion, the students
lack irreparable harm or an inadequate remedy at law. Indeed, they have many choices
available to them that avoid any irreparable harm they perceive in the vaccine policy.
Only in the sense of a constitutional violation have they advanced these requirements,
albeit again dimly on this record.
The balance of harms and public interest remain undisturbed and now likewise
oppose any stay pending appeal. The court addressed these issues in full in its prior
opinion. In this motion, the students say their constitutional claim is strong, but it isn’t.
That low likelihood of success requires from the students a greater showing of the balance
of harms. See Turnell v. CentiMark Corp., 796 F.3d 656, 662 (7th Cir. 2015).
For that, the students say the COVID-19 risks have significantly declined, a large
measure of the university’s population has been vaccinated, and their decision won’t
harm the university or others. COVID-19 risks are lower than at the pandemic’s height
because of vaccinations; but viral risks prove ever potent, particularly to those who have
awaited or foregone vaccination as variants circle and the pandemic persists. In actuality,
at least at last count, many thousands of students remained to be vaccinated at the
university. And staying the policy pending appeal risks more harm than not.
Add to what the court said Sunday the additional concern today that a stay
introduces greater confusion, not less, as to a student’s obligation mere weeks before the
fall semester begins in August 2021, particularly given the need to receive the vaccine (if

2

Appendix 6a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 40 filed 07/21/21 page 3 of 3

not exempted) and then to wait two weeks after the last dose for it to take hold. And it
risks, on this record, the public’s and university’s greater interest in health and safety.
Six of eight students have exemptions already. A seventh student qualifies if she
would just ask. Almost to a one then, the students need only worry about masking, social
distancing, and surveillance testing from here. Any real harm to them is thus quite slight
while this case proceeds on appeal.
Only one student has an unexemptible choice; and, given the low likelihood of
success, she hasn’t shown her interest to outweigh the safety of some 90,000 students,
40,000 faculty and staff, or multiple campus communities. For these reasons, and those
given by the court before, the interests align firmly against a stay of this policy pending
appeal. The circumstances since Sunday haven’t turned materially to the better.
The court DENIES the motion for an injunction pending appeal (ECF 37).
SO
R
OR
DE ED.
July 21, 2021

s/ Damon R. Leichty
Judge, United States District Court

3

Appendix 7a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 1 of 101

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
RYAN KLAASSEN et al.,
Plaintiffs,
v.

CAUSE NO. 1:21-CV-238 DRL

THE TRUSTEES OF INDIANA
UNIVERSITY,
Defendant.
OPINION & ORDER
Under guiding principles of federalism, our Constitution preserves the power of
the States, within constitutional limits, to adopt laws to provide for public health and
safety. Twice the United States Supreme Court has upheld state authority to compel
reasonable vaccinations. The States don’t have arbitrary power, but they have discretion
to act reasonably in protecting the public’s health.
Students at Indiana University have a significant liberty protected by the
Constitution—refusing unwanted medical treatment based on bodily autonomy. The
F ourteenth Amendment says no state may “deprive any person of life, liberty, or
property, without due process of law.” U.S. Const. amend. XIV § 1. Given this due process
protection of liberty, longstanding constitutional law prevents a public university—an
arm of the State—from mandating a vaccine for its students unless it has rationally
pursued a legitimate interest in public health for its campus community.
This case presents that question: whether Indiana University has acted
constitutionally in mandating the COVID-19 vaccine for its students, as announced on

Appendix 8a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 2 of 101

May 21, 2021. Albeit, and this should not be overlooked, this case does so only in the
context of a preliminary injunction motion, not for a final decision on the merits.
Indiana University’s policy has real implications. Students may be deprived of
attending the university without being vaccinated or qualifying for an exemption. Still
they have real options—taking the vaccine, applying for a religious exemption, applying
for a medical exemption, applying for a medical deferral, taking a semester off, or
attending another university or online. The policy applies for the fall 2021 semester only.
Eight students sued Indiana University because of its vaccination mandate and
because of the extra requirements of masking, testing, and social distancing that apply to
those who receive an exemption. They ask the court to enter a preliminary injunction—
an extraordinary remedy that requires a strong showing that they will likely succeed on
the merits of their claims, that they will sustain irreparable harm, and that the balance of
harms and the public interest favor such a remedy.
The court now denies their motion. The Constitution and longstanding precedent
should endure. Recognizing the students’ significant liberty to refuse unwanted medical
treatment, the F ourteenth Amendment permits Indiana University to pursue a
reasonable and due process of vaccination in the legitimate interest of public health for
its students, faculty, and staff. Today, on this preliminary record, the university has done
so for its campus communities. The students haven’t established a likelihood of success
on the merits of their Fourteenth Amendment claim or the many requirements that must
precede the extraordinary remedy of a preliminary injunction.

2

Appendix 9a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 3 of 101

FACTS
A.

Parties.

Indiana University is a world-renowned public research university, with seven
campuses, two regional centers, and three medical centers across the State of Indiana,
providing education to over 90,000 undergraduate and graduate students and
employment for over 40,000 employees [Ex. 116 ¶ 4]. The university, with its flagship
campus in Bloomington, Indiana home to over 40,000 students, continually ranks as one
of the top 100 universities in the country, and one of the top 150 universities in the world.
The eight students here have varied backgrounds. Jaime Carini (age 39) is a
graduate student pursuing two doctorates in music, with but her examinations and
dissertation to complete [Ex. 121 at 10, 19-20, 23]. She has received an exemption from the
university’s vaccination requirement already [id. 57-58].
Ashlee Morris (age 26) is an incoming first year law student at the McKinney
School of Law who has worked hard for six years to get there to pursue her J.D. [Ex. 123
at 10, 66-67]. She too has received a religious exemption from the university’s vaccination
requirement [id. 44]. She testifies that she will not attend the law school if she must wear
a mask or undergo surveillance testing [id. 66-67].
Seth Crowder (age unknown) is pursuing his MBA at the Kelley School of Business
[Ex. 124 at 13]. He too has received a religious exemption from the university’s
vaccination requirement already [id. 9, 20-21]. He has not decided if he will return to
school if he must wear a mask or undergo surveillance testing this fall semester [id. 42].

3

Appendix 10a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 4 of 101

Macey Policka (age 22) is a senior at Indiana University studying English
(medieval studies) [Ex. 125 at 8-9]. She also has received a religious exemption from the
university’s vaccination requirement [id. 22]. She plans to return to Indiana University
regardless of the outcome of this case [id. 36-37]
Ryan Klaassen (age 19) is an incoming sophomore at Indiana University studying
biochemistry [Ex. 120 at 5, 15-17]. He has received a religious exemption to the
university’s vaccination requirement [id. 33]. He says he hasn’t decided if he will return
to Indiana University if the injunction is not granted. [id. 41-43].
Daniel Baumgartner (age 18) is an incoming freshman at Indiana University who
plans to study business [Ex. 122 at 8, 12-13]. He has received a religious exemption to the
university’s vaccination requirement [id. 8]. He has not decided if he will go to Indiana
University this fall if he must wear a mask or undergo surveillance testing [id. 41].
Margaret Roth (age unknown) is an incoming freshman at Indiana University and
has already registered for classes [Ex. 126 at 9, 20]. She has a religious objection to the
vaccine but has not requested an exemption, though she would qualify, because she
prefers not to wear a mask or undergo testing [id. 45-47]. She says she will most likely not
attend Indiana University if the injunction isn’t granted [id. 9].
Natalie Sperazza (age unknown) is an incoming sophomore who will be taking
five classes this fall [Ex. 127 at 11]. She has not applied for an exemption and believes she
wouldn’t qualify [id. 15-16]. She says she will not attend Indiana University this fall if the
policy remains in place [id. 42]. She appears to be the only student without an exemption
or basis for an exemption.
4

Appendix 11a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 5 of 101

B.

COVID-19.

COVID-19 is an infectious disease caused by the novel coronavirus. It primarily
spreads through respiratory droplets, viral particles suspended in the air, and touching
mucosal membranes with contaminated hands [Ex. 115 ¶ 6].1 The initial presentation of
an infection ranges from no symptoms at all (asymptomatic) to severe illness and death;
and even after recovery, various long-term health problems may linger [id. ¶ 8].2
Individuals with longstanding systemic health inequities or preexisting or
immunocompromising conditions, and elderly individuals prove at greater risk of severe
illness or hospitalization following an infection [id. ¶ 9].3 Children and young adults are
less likely to experience serious illness or death from infection [Ex. 115 ¶ 10; Ex. 117 ¶ 21].
Though data from the Centers for Disease Control and Prevention (CDC) suggest that
more young adults are becoming infected with the virus than other age groups [Ex. 115
¶ 16],4 these individuals are less likely to require hospitalization or die [id. ¶ 10].5

See also Ctrs. for Disease Control & Prevention (CDC), Scientific Brief: SARS-CoV2 Transmission,
https://www.cdc.gov/coronavirus/2019-ncov/science/science-briefs/sars-cov-2-transmission.html.
1

See also CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/people-with-medical-conditions.html (last visited July 18, 2021); Neal M. Dixit et al.,
Post-Acute COVID-19 Syndrome and the Cardiovascular System: What is Known?, 5 Am. Heart. J. Plus. 100025
(May 2021), https://www.ncbi.nlm.nih.gov/pmc/articles/PMC8223036/.
2

See also CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/people-with-medical-conditions.html (last visited July 18, 2021).
3

Of the total reported cases, those reported from the 18-29 age group account for 22.5 percent of all
infections—the highest proportion of any age group—despite accounting for only 16.4 percent of the
United States population. See CDC, Demographic Trends of COVID-19 Cases and Deaths in the U.S. Reported to
CDC, https://covid.cdc.gov/covid-data-tracker/#demographics (last visited July 18, 2021).
4

5 See also CDC, Risk for COVID-19 Infection, Hospitalization and Death by Age (Updated June 24, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/covid-data/investigations-discovery/hospitalizationdeath-by-age.html (last visited July 18, 2021) (individuals aged 30-49 twice as likely to be hospitalized,
individuals 50-64 four times as likely to be hospitalized, individuals aged 30-39 four times as likely to die,
individuals 40-49 ten times as likely to die, individuals 50-64 thirty-five times as likely to die). The most

5

Appendix 12a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 6 of 101

Worldwide COVID-19 has infected almost 189 million people and caused 4 million
deaths, with these numbers still changing daily.6 In the United States, the novel
coronavirus has infected over 33.5 million citizens, losing to death over 600,000 [Ex. 115
¶ 15]. Since March 6, 2020, Indiana has had over 750,000 confirmed COVID-19 cases and
over 13,000 deaths [id. ¶ 14]. The COVID winter of 2020-2021 was particularly rough,
until vaccines became options first in December 2020 and then in the early months of
2021.
As vaccination now increases, data gathered by the CDC point toward the waning
of new COVID infections across the country—down from a peak of 312,325 new cases
reported on January 8, 2021, with a seven-day average positive test rate of 13.85 percent,
to 39,719 new cases reported on July 16, 2021, with a seven-day average positive test rate
of 5.01 percent.7 The rate of new cases today is akin, if not greater, to the rate of new cases
reported during the peak of the pandemic’s first wave in the spring 2020, through the
relative rate of positive tests thankfully remains much lower.8
Our nation has come a long way since the darker days of 2020 that tested many
people, though some uncertainty persists even now in this 2021 summer. The current

recent CDC figures suggest that only 0.04 percent of cases from this age group result in death, and this
group represents only 0.5 percent of all COVID deaths. CDC, Demographic Trends of COVID-19 Cases and
Deaths in the U.S. Reported to CDC, https://covid.cdc.gov/covid-data-tracker/#demographics (last visited
July 18, 2021) (6,174,415 individuals aged 18-29 contracted the virus, and 2,732 individuals died).
See CDC, Global Cumulative Cases of COVID-19 Reported (July 18, 2021), https://covid.cdc.gov/covid-datatracker/#global-counts-rates (citing World Health Organization (WHO), WHO Coronavirus (COVID-19)
Dashboard (July 16, 2021), https://covid19.who.int/).
7 CDC, COVID Data Tracker, https://covid.cdc.gov/covid-data-tracker/#trends_dailytrendscases (last
visited July 18, 2021).
6

8 Id. (35,080 new cases reported on April 9, 2020, with a seven-day average positive test rate of 20.43
percent).

6

Appendix 13a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 7 of 101

seven-day moving averages of new COVID-19 cases has increased by 69.3 percent in the
past week alone; the positive test rate has increased by 40.7 percent; and new hospital
admissions have increased by 35.8 percent.9 Recalling the bell curves we all have become
accustomed to seeing, the trend still proves sharply down from the worse days of
COVID-19, but virulent and highly transmissible variants of this coronavirus present new
challenges [Ex. 115 ¶ 36]. As of July 3, 2021, the CDC estimates that 57.6 percent of new
cases come from the Delta variant.10 New COVID-19 cases often originate in unvaccinated
individuals [Ex. 115 ¶ 38-39].
In Indiana, 561 new cases were reported on July 15, 2021; and the most recent data
suggest a seven-day average positive test rate of 4.3 percent for unique individuals from
July 3, 2021 to July 9, 2021, lower than the national average.11 Of all positive cases, 18.4
percent, the highest proportion of all age populations, comes from young adults aged 2029.11 In Indiana, approximately 67.3 percent of all cases came from the Delta variant.12
Our country and our state have vastly improved, but challenges remain.
C.

Indiana University Board of Trustees.

The Indiana General Assembly endows the Indiana University Board of Trustees
with the responsibility to fulfill its powers and duties under the law. Ind. Code § 21-27-

CDC, COVID Data Tracker Weekly Review (July 16, 2021) https://www.cdc.gov/coronavirus/2019ncov/covid-data/covidview/index.html.
9

Id.; see also CDC, COVID Data Tracker, https://covid.cdc.gov/covid-data-tracker/#variant-proportions
(last visited July 18, 2021).
10

Indiana State Department of Health, COVID Dashboard, https://www.coronavirus.in.gov/2393.htm (last
visited July 18, 2021).
11

Indiana State Department of Health, COVID Dashboard, https://www.coronavirus.in.gov/2393.htm (last
visited July 18, 2021).
12

7

Appendix 14a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 8 of 101

2-1. The Trustees may pass all bylaws necessary to put into effect its powers. Ind. Code.
§ 21-27-4-3. The Trustees may set conditions and standards for admission that are in the
“best interests of the state and the state educational institution.” Ind. Code § 21-40-3-1(b).
Among these powers, the Trustees may govern “the conduct of the state
educational institution’s students, faculty, and employees, wherever the conduct might
occur, to prevent unlawful or objectionable acts that . . . violate the reasonable rules and
standards of the [university] designed to protect the academic community from . . . a
serious threat to person or property of the academic community.” Ind. Code § 21-39-23(b). The university remains answerable to the legislature, particularly its funding.
D.

State Law on Vaccines.

Indiana requires all public university students to be vaccinated for diphtheria,
tetanus, measles, mumps, rubella, and meningococcal disease before attending school.
Ind. Code § 21-40-5-2. All but one of these vaccinations have been required since 1993.
Outside these state-mandated vaccines, Indiana University has had a policy for managing
infectious and communicable diseases since at least 2015 designed to take “reasonable
measures to ensure the safety of members of the university community during global and
local infectious disease events” [Ex. 229]. Students must report vaccination status, save
for religious and medical exemptions, including any “contraindication to a vaccine” [id.].
This reporting occurs according to state law and recommendations from the CDC’s
Advisory Committee on Immunization Practices. See Ind. Code. § 21-40-5-2.
Since this pandemic’s advent, many states have considered bills that would
prohibit either vaccine “mandates” or vaccine “passports.” For instance, just last week
8

Appendix 15a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 9 of 101

the State of Ohio passed a law banning public vaccine mandates. See 2021 Bill Text OH
H.B. 244, Sec. 3792.04(B)(1) (signed July 14, 2021). Other states have more reservedly
passed laws that would prohibit just having to show proof of COVID-19 vaccination—
hence the term COVID-19 passport. Indiana’s General Assembly recently enacted law
that prohibits a vaccine passport, not a vaccine requirement.13 Ind. Code § 16-39-11-5.
E.

Vaccine Guidance for Institutions of Higher Education.

Governmental agencies and collegiate associations have with one chorus
promoted vaccination to address the COVID-19 pandemic, though they typically have
remained silent on whether universities should mandate a vaccine. Today more than 500
colleges and universities have mandated vaccination, though many are private
institutions of higher learning, not public universities.14
The CDC recommends that institutions of higher learning (IHEs) “can return to
full capacity in-person learning, without requiring or recommending masking or physical
distancing” only when “all students, faculty, and staff are fully vaccinated prior to the
start of the semester.”15 The Indiana State Department of Health aligns with the CDC.16
This statute applies to “the state or a local unit.” Ind. Code § 16-39-11-5(a). The students withdrew their
claim under this law because the statute omits a private right of action, leaving enforcement to the Indiana
State Department of Health. See, e.g., Ind. Code § 16-19-3-18. For sake of clarity, the court never reaches the
point whether this anti-passport law applies to a public university or not.

13

See Andy Thomason & Brian O’Leary, Here’s a List of Colleges That Will Require Students or Employees to Be
Vaccinated Against Covid-19, The Chronicle of Higher Education (July 15, 2021),
https://www.chronicle.com/blogs/live-coronavirus-updates/heres-a-list-of-colleges-that-will-requirestudents-to-be-vaccinated-against-covid-19?cid2=gen_login_refresh (“The Chronicle has so far identified
583 such campuses.”).
14

CDC, Guidance for Institutions of Higher Education (IHEs) (June 4, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/community/colleges-universities/considerations.html.

15

ISDH, Public Resources: Back to
https://www.coronavirus.in.gov/2400.htm.

16

School

Resources

(Universities)

(July

18,

2021),

9

Appendix 16a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 10 of 101

Likewise citing the CDC, the United States Department of Education has said “IHEs
where everyone is fully vaccinated can return to full capacity in-person learning without
requiring or recommending masking, physical distancing, or screening testing.”17 The
American College Health Association has recommended that institutions require
COVID-19 vaccinations for all on-campus students for the fall semester.18
F.

Indiana University’s Vaccine Mandate.

Acting under state authority, see Ind. Code § 21-38-3-4, and with the vision of
promoting public health and restoring the educational and social environment of the
university’s campuses, President Michael McRobbie created a university restart
committee during the spring of 2021 to make recommendations to the Board of Trustees
for the fall semester [Ex. 104 at 5; Ex. 116 ¶ 22]. The restart committee’s charge was to
advise and recommend requirements necessary to resume “normal face-to-face”
operations [Ex. 116 ¶ 22].
Indiana University’s Executive Vice President for University Clinical Affairs and
the School of Medicine’s Dean spearheaded the restart committee [id. ¶ 23]. It included
fifteen members with expertise in public health, epidemiology, virology, data modeling
and monitoring, risk mitigation, health equity, health sciences, and law [id.; Ex. 300 at 4-

U.S. Dept. of Educ., ED COVID-19 Handbook, Volume 3: Strategies for Safe Operation and Addressing the
Impact of COVID-19 on Higher Education Students, Faculty, and Staff 9 (June 2021),
https://www2.ed.gov/documents/coronavirus/reopening-3.pdf.

17

Am. College Health Ass’n, American College Health Association Recommends COVID-19 Vaccination
Requirements for All On-Campus College Students in Fall 2021 (April 29, 2021),
https://www.acha.org/ACHA/About/ACHA_News/ACHA_Recommends_COVID19_Vaccination_Requirements_for_Fall_2021.aspx.
18

10

Appendix 17a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 11 of 101

5]. The committee consisted of seven MDs, some with additional degrees in public health
or other PhDs, and others with graduate degrees in public health, risk mitigation, law,
and ethics [Ex. 300 at 5].
The restart committee met regularly to review the university’s campus population
and experiences from the 2020-2021 year, as well as “guidelines from the CDC, IU Health,
the ISDH, the Indiana Governor’s Office, and the Central Indiana Corporate Partnership,
among others,” “scientific literature and data, including COVID-19 case and
hospitalization rates for Indiana,” and “input from other Indiana and out-of-state IHEs”
[Ex. 116 ¶¶ 24-26]. The data considered by the restart committee were vast [Exs. 302-317,
PowerPoint presentations from December 8, 2020 to April 6, 2021); see also Ex. 301 ¶ 2].
F our MDs from this committee presented near-weekly from December 2020 to
June 2021 to Indiana University’s Executive Academic Leadership Council, including the
President and Executive Vice Presidents as part of the medical response team’s ongoing
COVID-19 evaluation efforts [Ex. 301 ¶ 4]. The Board of Trustees adopted the restart
committee’s recommendations for the 2021 fall semester [Ex. 116 ¶ 29].
The aim was short and strategic—vaccinate everyone, subject to certain
exemptions [id. ¶ 31; Exs. 101, 300]. Initially, the policy required all students, faculty, and
staff to submit proof of vaccination before returning to campus, but the university revised
this requirement after Indiana passed its anti-passport law [Ex. 101]. The policy today
requires all students, faculty, and staff to be fully vaccinated, which the university defines
as being two weeks post the second dose of the Pfizer and Moderna vaccines, or two
weeks post the single dose of the Johnson & Johnson vaccine, before returning to campus
11

Appendix 18a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 12 of 101

between August 1 to August 15 for the fall 2021 semester [Ex. 118 at 3, 5; see also Exs. 102104].
The choice of foregoing vaccination is not inconsequential. If not vaccinated,
students are not permitted on campus, their emails and university accounts are
suspended, and their access cards are deactivated [Ex. 118 at 7]. Although it seems from
argument that the university will not create an informant culture, it reserves the right to
pursue disciplinary action should a student deceive the process. Faculty and staff who
refuse vaccination face termination. The faculty councils from Indiana University—
Bloomington and Indiana University-Purdue University Indianapolis and the staff
council from Indiana University—Bloomington, have endorsed the policy, as has the
graduate and professional student government [Ex. 116 ¶ 45-60].
The university’s COVID-19 vaccine policy has exemptions. A student may request
an exemption for religious reasons; provide proof from a physician of an allergy to the
vaccine or one of its component parts (a medical exemption); provide proof from a
physician of active pregnancy or breastfeeding, receiving a hematopoietic or solid organ
transplant, receiving treatment with Rituximab within the past 3-6 months, or COVIDspecific monoclonal antibodies19 in the past 90 days (a medical deferral) [Ex. 210 at 3].
Students who are enrolled in an online program, with no on-campus component, don’t
need to receive the vaccine [id.].

Monoclonal antibody therapy involves the injection of laboratory-made proteins that mimic the immune
system’s ability to fight off various pathogens. F DA, Coronavirus (COVID-19) Update: FDA Revokes
Emergency Use Authorization for Monoclonal Antibody Bamlanivimab (April 16, 2021),
https://www.fda.gov/news-events/press-announcements/coronavirus-covid-19-update-fda-revokesemergency-use-authorization-monoclonal-antibody-bamlanivimab.
19

12

Appendix 19a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 13 of 101

For those who receive exemption from vaccination, the policy imposes additional
safety requirements. These requirements apply to six of the eight students here who have
received exemptions and potentially a seventh who qualifies for an exemption. Such
students must participate in more frequent mitigation testing, quarantine if exposed to
someone who has tested positive for COVID-19, wear a mask in public spaces, and return
to their permanent address or quarantine if there is a serious outbreak of COVID-19 [Ex.
118 at 6].
G.

Experts.

The parties have tendered declarations, supplemental declarations, and testimony
from several experts, leaving to the court the task of deciding what weight to give to their
opinions. Among the more than 100 exhibits admitted for this preliminary injunction
motion, the experts and other materials refer to numerous medical studies and industry
guidance on the risks of COVID-19 and the risks of the vaccines—where the parties in
part have drawn the battle lines. The court has endeavored to be studious in reviewing
at times a daunting record on this emergent timetable.

13

Appendix 20a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 14 of 101

The university offers Dr. Cole Beeler, MD,20 and Dr. Aaron Carroll, MD, MS,21 and
the students tender Dr. Peter McCullough, MD, MPH.22 All have credentials and opinions
that exceed restatement here. Much of that treatment occurs later in this opinion as the
court makes additional findings of fact and discusses its legal analysis. Though points of
agreement occur at times, these experts largely disagree about the urgency of vaccination,
particularly for often younger university students, the effects from natural COVID-19
infection, and the risks of the three emergency use approved vaccinations.
F or the students, Dr. McCullough says the risks of COVID-19 to college age
students in 2021 proves significantly lower than in 2020 because of the rapidly declining
infection rate, increasing likelihood of herd immunity in Indiana, low risk of serious
complications or death from COVID-19 in college-aged students, low risk of
asymptomatic spread, and other posited COVID-19 treatments [Ex. 117 ¶ 73; see also Exs.
221-22, 233-34, 240-41, 246-47, 251]. He views a mandate as unwise and a violation of the
medical ethics principle of autonomy translated to the university setting [Ex. 117 ¶ 73].
He opines that the risks associated with the COVID-19 vaccines “are not minor or

Dr. Beeler is an assistant professor of clinical medicine at Indiana University Medical School. He earned
his BS and MD from Indiana University and is board certified in infectious disease and internal medicine
[Ex. 115 ¶ 1-5; Ex. 128 at 5, 7-11, 13-17, 21-22, 31, 147-150].

20

Dr. Carroll is the chief health officer for Indiana University and associate dean for research mentoring at
Indiana University Medical School who holds various professorial positions. He earned his BA from
Amherst College, his MD from the University of Pennsylvania, and his MS from the University of
Washington. He is board certified in preventative medicine-clinical informatics, pediatrics, and by the
National Board of Medical Examiners [Ex. 116 ¶ 1-6; Ex. 206 at 7-8].
21

Dr. McCullough is a professor of medicine at Texas A & M University School of Medicine and practices
medicine at various Texas hospitals. He received his BA from Baylor University, MD from University of
Texas Southwestern Medical School, and his MPH in epidemiology from the University of Michigan. He is
board certified in internal medicine and cardiovascular disease [Ex. 117 ¶ 1-12].
22

14

Appendix 21a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 15 of 101

unserious and can include hospitalization and death,” however “unpredictable” and
“impossible to calculate” [id.]. His opening declaration largely isn’t stated to any
reasonable degree of medical certainty [id.; but cf. Ex. 222 at 11].
F or the university, Dr. Beeler says the COVID-19 vaccine mandate facilitates a
“safe and reliable way to assure lack of spread of COVID” within the university’s campus
communities and “prevents morbidity and mortality” [Ex. 115 ¶ 87; see also Ex. 319]. He
appreciates that, though COVID-19 often will not pose “disproportionate bad outcomes”
in the university’s constituency, “any bad outcome from COVID is potentially avoidable
with the vaccines where the benefit dwarfs the potential rare risks,” and risks that “may
not be causally linked” [Ex. 115 ¶ 87]. He recalls that “the vaccines used for COVID are
based on technology that has been developed over decades and have repeatedly been
shown to be safe when given to millions of patients” [id.]. He calls the vaccines “known
science” applied to a “novel pathogen” with often “uncertain and threatening immediate
and long-term consequences to [the university’s] students, faculty, staff, and
communities at large” [id.]. He says the risk of asymptomatic hosts puts others at risk
[id.]. In support, Dr. Carroll marshals relevant industry, governmental, and university
guidance and the relevant scrutiny the restart committee gave to it [Exs. 116, 301]. Dr.
Beeler states his opinions to a reasonable degree of medical or professional certainty [Ex.
115 at 25; Ex. 319 at 8].
H.

Emergency Use Authorization of Vaccines.

COVID-19 caught the world unaware. Initially, there were no vaccines or
treatments, and testing was expensive and difficult to secure. Four days after the United
15

Appendix 22a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 16 of 101

States Department of Health and Human Services (HHS) declared a public health
emergency, it issued a second declaration allowing the United States F ood and Drug
Administration (FDA) to grant emergency use authorizations (EUAs) for medical devices
and interventions to combat the pandemic. 85 F ed. Reg. 7316, 7316-7317; 85 F ed. Reg.
18250, 18250-18251.
Despite creating an expedited pathway to distribute new medical products during
emergencies, products that receive EUA approval still must adhere to specified safety,
efficacy, and manufacturing criteria, and HHS must ensure medical providers and
individuals are informed of the product’s EUA status, the “significant known and
potential benefits and risks of such use, and of the extent to which such benefits and risks
are unknown;” and for individuals, of the option to refuse and the consequences of such
a decision. 21 U.S.C. § 360bbb-3(e)(1)(A)(ii)(I)-(III). An EUA generally allows a
manufacturer to apply for EUA approval using interim clinical trial data, and the data
need only demonstrate the product “may be effective” and that the known and potential
benefits outweigh the known and potential risks.23 The statute anticipates the FDA will
impose additional obligations beyond those enumerated. 21 U.S.C. § 360bbb-3(e)(1)(B).
There have been six significant public health emergencies for which the FDA has
authorized EUAs: anthrax, swine flu (H1N1), MERS (Middle East respiratory syndrome

21 U.S.C. § 360bbb-3(c)(2)(A); F DA, Emergency Use Authorization for Vaccines Explained,
https://www.fda.gov/vaccines-blood-biologics/vaccines/emergency-use-authorization-vaccinesexplained (last visited July 13, 2021).
23

16

Appendix 23a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 17 of 101

coronavirus), Ebola, Zika, and now COVID-19.24 During these events, EUAs were issued
for diagnostic tests (swine flu, MERS, Ebola, Zika, and COVID-19), off-label use of
previously approved and use of unapproved pharmaceuticals (anthrax, swine flu, and
COVID-19), novel vaccines (anthrax and COVID-19), and medical devices (swine flu and
COVID-19).24 FDA authorization for EUA vaccinations began in 2005 during the anthrax
scare, particularly for use in the armed forces. See 70 Fed. Reg. 5452, 5453 (Feb. 2, 2005).25
Later in 2009, based on a CDC request, the FDA issued the first EUA that was geared
towards civilians, including infants, for Tamiflu, an antiviral otherwise approved for use
in adults. 74 Fed. Reg. 56644 (Nov. 2, 2009).26
Not all EUAs are created equally. Because of the widespread use of a COVID-19
vaccine, the F DA informed manufacturers that it expected the same level of endpoint
efficacy data as required for full approval, enough safety data to justify by clear and
compelling evidence the vaccine’s safety, and confirmation of the technical procedures
and verification steps necessary to support full approval.27 In short, and as described in
more detail below in this opinion’s analysis, the F DA promulgated guidance that

F DA, Emergency Use Authorization—Archived Information, https://www.fda.gov/emergencypreparedness-and-response/mcm-legal-regulatory-and-policy-framework/emergency-use-authorizationarchived-information#H1N1 (last visited July 16, 2021).
24

See also Stuart L. Nightingale et al., Emergency Use Authorization (EUA) to Enable Use of Needed Products in
Civilian and Military Emergencies, United States, 13(7) Emerging Infectious Diseases 1047 (July 2007),
https://wwwnc.cdc.gov/eid/article/13/7/06-1188_article.
25

CDC, Updated Interim Recommendations for the Use of Antiviral Medications in the Treatment and Prevention
of
Influenza
for
the
2009-2010
Season
(Dec.
7,
2009),
available
at
https://www.cdc.gov/h1n1flu/recommendations.htm#d.

26

F DA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry (May 2021),
https://www.fda.gov/regulatory-information/search-fda-guidance-documents/emergency-useauthorization-vaccines-prevent-covid.
27

17

Appendix 24a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 18 of 101

enhanced the basis on which any COVID-19 vaccine would meet EUA approval. In
setting these more stringent standards, the F DA invited EUA applications only for
vaccines positioned well to receive full approval.28
I.

COVID-19 Vaccines.

In the United States, three vaccines rushed to the front: two using mRNA
technology and one using a viral vector [Ex. 115 ¶ 23-26]. Johnson & Johnson’s vaccine is
a viral vector vaccine (implementing technology since the 1970s) that uses a modified
version of a virus to teach the immune system to respond [Ex. 115 ¶ 87].29 Pfizer and
Moderna’s vaccines use mRNA, a novel type of vaccine, but one based on decades of
research using easily accessible materials found already in many laboratories [id.].30

The industry guidance has since been superseded twice, once in February 2021 and once in May 2021.
FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry (May 2021). Pfizer,
Moderna, and Johnson & Johnson’s applications were submitted in accordance with the October 2020
enhanced guidance, see FDA, Emergency Use Authorization (EUA) for an Unapproved Product Review
Memorandum (Pfizer-BioNTech) (2020) https://www.fda.gov/media/144416/download; (application
submitted November 20, 2020); FDA, Emergency Use Authorization (EUA) for an Unapproved Product Review
Memorandum (Moderna) (2020) https://www.fda.gov/media/144673/download (application submitted
November 30, 2020); F DA, Emergency Use Authorization (EUA) for an Unapproved Product Review
Memorandum (Janssen) (2021) https://www.fda.gov/media/146338/download (application submitted
February 4, 2021).
28

See CDC, Understanding Viral Vector COVID-19 Vaccines, https://www.cdc.gov/coronavirus/2019ncov/vaccines/different-vaccines/viralvector.html (last visited July 16, 2021).
29

See CDC, Understanding mRNA COVID-19 Vaccines, https://www.cdc.gov/coronavirus/2019ncov/vaccines/different-vaccines/mrna.html (last visited July 16, 2021).
30

18

Appendix 25a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 19 of 101

Having quickly adapted the existing technology, Moderna started testing the vaccine in
humans in March 2020.31 Pfizer began clinical trials in late April 2020.32
By the time Pfizer applied for an EUA on November 20, 2020, their application
included safety, immunogenicity, and efficacy data from over 40,000 study participants
in ongoing phase I, II, and III, randomized, placebo-controlled, observer-blind, clinical
trials conducted in the U.S., Argentina, Brazil, Germany, South Africa, and Turkey.33 A
team of representatives from across the F DA, including experts in clinical review,
toxicology, biostatistics, products, production facilities, pharmacovigilance, data
integrity, bioresearch monitoring, and labeling reviewed the data submitted by Pfizer,
and independently assessed the risks and benefits of the vaccine.34 The agency granted
the EUA on December 11, 2020, noting that Pfizer “met the F DA’s expectations as
conveyed in [the agency’s] June and October guidance documents.”35

Nat’l Insts. Health (NIH), Experimental Coronavirus Vaccine is Safe and Produces Immune Response (Moderna),
NIH
Research
Matters
(July
21,
2020)
https://www.nih.gov/news-events/nih-researchmatters/experimental-coronavirus-vaccine-safe-produces-immune-response.
31

NIH, Study to Describe the Safety, Tolerability, Immunogenicity, and Efficacy of RNA Vaccine Candidates against
COVID-19 in Healthy Individuals, https://clinicaltrials.gov/ct2/show/NCT04368728 (last visited July 16,
2021).
32

F DA, Pfizer-BioNTech COVID-19 Vaccine Emergency Use Authorization Review Memorandum,
https://www.fda.gov/emergency-preparedness-and-response/mcm-legal-regulatory-and-policyframework/emergency-use-authorization#vaccines.
33

34

Id. at 1, 49-54.

FDA, FDA Takes Key Action in Fight Against COVID-19 By Issuing Emergency Use Authorization for First
COVID-19 Vaccine (Dec. 11, 2020) https://www.fda.gov/news-events/press-announcements/fda-takeskey-action-fight-against-covid-19-issuing-emergency-use-authorization-first-covid-19.
35

19

Appendix 26a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 20 of 101

Moderna applied for an EUA on November 30, 2020.36 Their application included
safety, immunogenicity, and efficacy data from over 30,000 study participants in ongoing
phase I, II, and III, randomized, stratified, observer-blind, placebo-controlled clinical
trials conducted at 99 locations in the United States.37 A team of representatives from
across the FDA, including experts in clinical review, toxicology, biostatistics, products,
production facilities, pharmacovigilance, data integrity, bioresearch monitoring, and
labeling, reviewed the data submitted by Moderna, and independently assessed the risks
and benefits of the vaccine.38 The agency granted the EUA on December 18, 2020, noting
that “the F DA’s expectations described in [the agency’s] June and October guidance
documents have been met.”39
Janssen, a Johnson & Johnson company, applied for an EUA on February 4, 2021.40
Their application included safety, immunogenicity, and efficacy data from five studies,
including two randomized, double-blind, placebo-controlled phase III trials, enrolling
over 70,000 participants.41 A team of representatives from across the F DA, including
experts in clinical review, toxicology, biostatistics, products, production facilities,

F DA, Emergency Use Authorization (EUA) for an Unapproved Product Review Memorandum (Moderna),
https://www.fda.gov/emergency-preparedness-and-response/mcm-legal-regulatory-and-policyframework/emergency-use-authorization#vaccines.
36

37

Id. at 12-13.

38

Id. at 1, 55-60.

FDA, FDA Takes Additional Action in Fight Against COVID-19 By Issuing Emergency Use Authorization for
Second COVID-19 Vaccine (Dec. 18, 2020) https://www.fda.gov/news-events/press-announcements/fdatakes-additional-action-fight-against-covid-19-issuing-emergency-use-authorization-second-covid.
39

F DA, Emergency Use Authorization (EUA) for an Unapproved Product Review Memorandum (Janssen),
https://www.fda.gov/emergency-preparedness-and-response/mcm-legal-regulatory-and-policyframework/emergency-use-authorization#vaccines.
40

41

Id. at 13.

20

Appendix 27a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 21 of 101

pharmacovigilance, data integrity, bioresearch monitoring, and labeling, reviewed the
data submitted by Johnson & Johnson, and independently assessed the risks and benefits
of the vaccine.42 The FDA granted the EUA on February 27, 2021, noting that “the vaccine
meets the FDA’s expectations for safety and effectiveness appropriate for authorization
of a vaccine for emergency use.”43
With these vaccines, an emerging light appeared at the end of the tunnel. As of
July 17, 2021, 337,239,448 doses of vaccine have been administered, and 161 million
Americans, or 48.5 percent of the total population, is fully vaccinated.44 Of adults over
the age of eighteen, 59.4 percent are fully vaccinated.44 In Indiana, 5,749,173 doses have
been administered, and 2,888,239 Hoosiers, or 49.6 percent of those over the age of twelve,
are fully vaccinated.45 Of ages 18-24, who account for 9.2 percent of the U.S. population,
11,720,847, or 42.2 percent, are fully vaccinated.46 In Indiana, 164,098 individuals aged 2024, or 34.7 percent, are fully vaccinated.47

42

Id. at 1, 59-61.

F DA, F DA Issues Emergency Use Authorization for Third COVID-19 Vaccine (F ebruary 27, 2021)
https://www.fda.gov/news-events/press-announcements/fda-issues-emergency-use-authorizationthird-covid-19-vaccine.
43

CDC, COVID-19 Vaccinations in the
tracker/#vaccinations (last visited July 17, 2021).
44

United

States,

https://covid.cdc.gov/covid-data-

ISDH, Indiana COVID-19 Vaccination Dashboard, https://www.coronavirus.in.gov/vaccine/2680.htm
(last visited July 18, 2021).
45

CDC, COVID-19 Vaccinations in the
tracker/#vaccinations (last visited July 17, 2021).
46

United

States,

https://covid.cdc.gov/covid-data-

ISDH, Indiana COVID-19 Vaccination Dashboard, https://www.coronavirus.in.gov/vaccine/2680.htm
(last visited July 18, 2021).
47

21

Appendix 28a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 22 of 101

J.

Risks of Vaccines.

Though the vaccines show remarkable effectiveness against infection and severe
cases of COVID-19, and “have undergone and will continue to undergo the most
intensive safety monitoring in U.S. history,” they are not without risks, heretofore rare
for serious risks [Ex. 115 ¶ 33].48 Many recipients experience mild local and systemic
reactions, including fever, headache, muscle pain, chills, and tiredness.48 In very rare
cases, more serious side effects seem to emerge such as allergic reactions or blood clots
with low platelets [Ex. 115 ¶ 66; Ex. 117 ¶ 38].48 For young men specifically, experts are
studying a temporal correlation between vaccines and myocarditis, an inflammation of
the heart muscle, or pericarditis, inflammation of tissue around the heart [Ex 117 ¶ 37].49
However, the risk of myocarditis appears to be exceptionally small [Ex. 115 ¶ 67].50
The medical community closely tracks adverse events from the vaccine in a
national database called VAERS, or the Vaccine Adverse Event Reporting System.51 This
database is used to track adverse events temporally related to all vaccine administration,
including for the COVID-19 vaccines, but it is not a definitive or final resource to

CDC,
Safety
of
COVID-19
Vaccines,
https://www.cdc.gov/coronavirus/2019ncov/vaccines/safety/safety-of-vaccines.html (last visited July 13, 2021).
48

See also Han W. Kim et al., Patients with Acute Myocarditis Following mRNA COVID-19 Vaccination, JAMA
Cardiol doi:10.1001/jamacardio.2021.2828 (June 29, 2021)
https://jamanetwork.com/journals/jamacardiology/fullarticle/2781602 (finding handful of patients out
of 561,197, and all recovered after a few days).
49

See, e.g., Israeli Ministry of Health, Surveillance of Myocarditis (Inflammation of the Heart Muscle) Cases
Between December 2020 and May 2021, https://www.gov.il/en/departments/news/01062021-03 (last
visited July 18, 2021) (121 cases out of a total of 5,049,424 vaccinated individuals).
50

51

HHS, VAERS, https://vaers.hhs.gov/.

22

Appendix 29a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 23 of 101

conclusively prove contraindications.52 “While very important in monitoring vaccine
safety, VAERS reports alone cannot be used to determine if a vaccine caused or
contributed to an adverse event or illness.”53 Nevertheless, the FDA considers VAERS
data when assessing whether to make changes to any approval or to apply any additional
warnings to vaccines.54 Based on this surveillance, reports of anaphylaxis appears to be
rare, blood clotting concerns are rare but higher in women under the age of 50,
myocarditis is rare but more common in young people, and reports of death are rare.55
The FDA has issued revisions to the patient and provider fact sheets about the risk
of myocarditis and pericarditis acknowledging data about this risk.56 Furthermore, the
FDA and CDC recommended a pause on the use of Johnson & Johnson’s vaccine in light
of reports of clotting in young women (a pause subsequently lifted).57 Recent changes last
week occurred because of reported neurological impacts of the Johnson & Johnson

CDC,
Selected
Adverse
Events
Reported
after
COVID-19
Vaccination,
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/safety/adverse-events.html (last visited July 13,
2021).
52

CDC, The Vaccine Adverse Event Reporting System (VAERS) Results (July 17, 2021),
https://wonder.cdc.gov/controller/datarequest/D8;jsessionid=DBF4A737A762F523202A55E30B57.
53

See, e.g., F DA, Coronavirus (COVID-19) Update: July 13, 2021 (July 13, 2021) (discussing concerns over
VAERS
reports
of
Guillain-Barré
Syndrome
following
vaccination)
(available
at
https://www.fda.gov/news-events/press-announcements/coronavirus-covid-19-update-july-13-2021).
54

Id.; see also CDC, The Vaccine Adverse Event Reporting System, https://wonder.cdc.gov/vaers.html (last
visited July 14, 2021); CDC, COVID-19 Vaccination Demographics in the United States, National,
https://data.cdc.gov/Vaccinations/COVID-19-Vaccination-Demographics-in-the-United-St/km4m-vcsb
(last visited July 18, 2021) (more than 24 million doses of a vaccine have been administered to this age group
as of July 14, 2021)
55

F DA, Coronavirus (COVID-19) Update: June 25, 2021, https://www.fda.gov/news-events/pressannouncements/coronavirus-covid-19-update-june-25-2021 (last visited July 13, 2021).
56

CDC, CDC Recommends Use of Johnson & Johnson’s Janssen COVID-19 Vaccine Resume,
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/safety/JJUpdate.html (last visited July 13, 2021).

57

23

Appendix 30a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 24 of 101

vaccine, based on VAERS data.58 These refinements indicate that the ongoing safety of
these vaccines are rigorously monitored by agency professionals.
K.

Herd Immunity.

Much has been said of herd immunity at the national and state levels. The
university too wants to achieve herd immunity. Herd immunity occurs when a virus
cannot spread because so many of the individuals it encounters are protected against
infection [Ex. 117 ¶ 14-17; Ex. 115 ¶ 43-44].59 The students say we are there [Ex. 117 ¶ 1417]. The university disagrees [Ex. 116 ¶ 43]. As more infectious variants emerge, some
suggest the percent immunized must also increase to reach herd immunity [Ex. 115 ¶ 1922].60 Like many aspects of the pandemic, the point at which society is able to conclude
enough people have protection from the virus is still undetermined.
The character of immunity is also uncertain. As COVID-19 is a new disease, and
the vaccines are even newer, the long-term efficacy of immunity derived from vaccination
and infection is not proven [Ex. 117 ¶ 68-72; Ex. 115 ¶ 70].61 Immune responses appear to
exist for at least several months following a COVID-19 infection [Ex. 117 ¶ 68-72; Ex. 319

F DA, Coronavirus (COVID-19) Update: July 13, 2021 (July 13, 2021) (discussing concerns over VAERS
reports of Guillain-Barre syndrome following vaccination) (available at https://www.fda.gov/newsevents/press-announcements/coronavirus-covid-19-update-july-13-2021).
58

Christie Aschwanden, The False Promise of Herd Immunity for COVID-19,
https://www.nature.com/articles/d41586-020-02948-4 (Last visited July 13, 2021).

59

Nature,

60 See Kamran Kadknoda, Herd Immunity to COVID-19, Am. J. Clin Gypsyamber D’Souza & David Dowdy,
What is Herd Immunity and How Can We Achieve It With COVID-19?, https://www.jhsph.edu/covid19/articles/achieving-herd-immunity-with-covid19.html (last visited July 13, 2021).

See Jennifer M. Dan, Immunological Memory to SARS-CoV-2 Assessed for Up to 8 Months after Infection,
371(6529) Science eab4063 (Feb. 5, 2021); See Chris Baraniuk, How Long Does Covid-19 Immunity Last?, 373
BMJ n1605 (June 30, 2021) https://www.bmj.com/content/373/bmj.n1605.short?rss=1.
61

24

Appendix 31a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 25 of 101

¶ 1].61 Dr. Beeler explains a recent study that suggests that vaccination after COVID-19
exposure secures more protection than just antibodies from prior contraction of the
virus—in terms of duration and strength against the prevailing variants [Ex. 128 at 82].62
The parties disagree over the relative risk of college students spreading the virus
to the community, with the students contending the risk is very low [see Ex. 117 ¶ 29-31],
and the university contending the risk is real [see Ex. 115 ¶ 51-52]. There is no consensus
on this issue, and some research has not been peer-reviewed.63 Nevertheless, peerreviewed research suggests that outbreaks on college campuses pose a risk of spreading
to neighboring communities.64 Data suggest that as of May 26, 2021, 260,000 infections
have been linked to universities and colleges in 2021, including 3,062 reported cases
across the Indiana University system—though this data appears limited to students,
faculty members, staff members, and other college workers, and thus does not provide
insight on greater community spread [see Ex. 115 ¶ 52].65 Universities are unique

See Delphine Planas et al., Reduced Sensitivity of SARS-CoV-2 Variant Delta to Antibody Neutralization,
Nature doi: 10.1038/s41586-021-03777-9, 3 (July 8, 2021) (online ahead of print),
https://www.nature.com/articles/s41586-021-03777-9_reference.pdf.
62

63 See Callum R.K. Arnold et al., SARS-CoV-2 Seroprevalence in a University Community: A Longitudinal Study
of the Impact of Student Return to Campus on Infection Risk Among Community Members, medRxiv Preprint (Feb
19, 2021) https://pubmed.ncbi.nlm.nih.gov/33619497/ (minimum impact on community); but see Gabriel
T. Bosslet et al., The Effect of In-Person Primary and Secondary School Instruction on County-Level SARS-CoV-2
Spread in Indiana, Clinical Infectious Diseases (manuscript accepted) https://doi.org/10.1093/cid/ciab306
(Apr. 13, 2021) (finding that a 10 percent increase in K-12 students attending school in-person corresponded
to a daily increase of 0.336 cases per 100,000 residents in the community).

See Hannah Lu et al., Are College Campuses Superspreaders? A Data-Driven Modeling Study, Computer
Methods in Biomechanics & Biomedical Eng’g, https://doi.org/10.1080/10255842.2020.1869221 (Jan. 13,
2021) (Stanford researchers looked at county spikes following outbreaks at 30 universities and concluded
that outbreaks at 17 campuses translated directly into respective community spikes).
64

N.Y. Times, Tracking Coronavirus Cases at U.S. Colleges and Universities (May 26, 2021),
https://www.nytimes.com/interactive/2021/us/college-covid-tracker.html (last visited July 13, 2021).
The New York Times appears to be the most comprehensive database for tracking COVID-19 cases across
U.S. colleges and universities, collecting and compiling data from individual universities, local health
65

25

Appendix 32a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 26 of 101

environments, with students, faculty, and staff often in close contact, particularly given
the number that call Indiana University home.
L.

The Student’s Objections.

The eight plaintiffs in this case, all students of Indiana University, don’t want the
vaccine. Six of the eight have received exemptions already. One would qualify if she
applied. The other appears not to qualify for an exemption.
Ryan Klaassen is concerned that the vaccine is too new to be safe [Ex. 120 at 18].
He objects to the masking and testing requirements because of their unreasonableness
and the potential for discrimination [id. 36]. He complied with the university’s mask
policy during his freshman year, including wearing a mask in most places, and has
undergone many COVID-19 tests [id. 27].
Jaime Carini has up to seven more years to finish her joint dissertation after she
finishes her exams [Ex. 121 at 23]. Her physician provided a letter saying she should not
take the vaccine, though the letter has not been presented to the university or to the court
[Ex. 121 at 52-53]. She applied for a religious exemption and received one [id. 57]. She did
not apply for a medical exemption [Ex. 100 ¶ 187 (never applied for one); Ex. 121 at 60].
Despite wearing a mask in public spaces when required and previously taking several
COVID-19 tests, she objects to the mask policy because it makes it difficult for her to
breathe, she gets bad acne from the mask, and she struggles deadlifting with a mask [Ex.

departments, counties, states, and through open record requests at universities who would not otherwise
provide data.

26

Appendix 33a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 27 of 101

121 at 44, 47-51]. She also doesn’t like surrendering her biological information for testing
[id. 55]. In total, she views the university’s policy as a cultural harm [id. 55-56].
Daniel Baumgartner says he has a deeply held religious objection to wearing a
mask and being tested. He wore a mask while attending religious services, in school, and
at stores in the past [Ex. 122 at 8, 18-20]. He previously contracted COVID-19 and says he
has “natural” COVID antibodies, though for how long he doesn’t know [id. 21-22].
Ashlee Morris believes she previously contracted COVID-19 [Ex. 123 at 27-28]. She
has been tested before and acknowledges that she did not suffer any lasting harm from
the test [id. 35]. She wore a mask to work, on a plane, and when she went to a casino, but
not to stores even if signs were posted [id. 35-37]. She testifies she has a religious objection
to wearing a mask and being tested [id. 45-48]. She admits that she has never experienced
discrimination because she did not wear a mask [id. 56].
Seth Crowder has a deeply held religious objection to wearing a mask and being
tested [Ex. 124 at 29-30]. He has worn a mask once or twice a week since March 2020,
including to stores and restaurants [id. 22].
Macey Policka objects generally to the extra requirements of masks and tests
because of the minimal risk to those in her age group, also stating that vegans and
pescatarians are less likely to experience serious illness [Ex. 125 at 28]. She lived on the
Bloomington campus for the 2020 school year, complied with the university’s masking
policy, and underwent weekly mitigation testing from which she states she did not suffer
any harm [id. 14-18]. She has never experienced judgment or alienation due to wearing a

27

Appendix 34a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 28 of 101

mask at the university but is concerned about having to wear a mask while pursuing her
theatre degree [id. 25, 42].
Margaret Roth objects to the mask and testing requirements because she thinks
masks are silly and she claims nasal swabs cause cancer [Ex. 126 at 12, 29, 35-36]. She has
worn a mask while at school, shopping, and working [id. 31-33]. She has a religious
objection to the vaccine but did not file for an exemption because she doesn’t want to be
subject to testing or wear a mask [id. 45-47].
Natalie Sperazza complied with the university testing and masking requirement
during the 2020 school year [Ex. 127 at 30-32]. She has been tested for COVID-19 many
times, including while working at Amazon, where she would occasionally go to get tested
just to have a break [id. 25-26, 30].
M.

Procedure.

The students filed a preliminary injunction motion. The court expedited briefing
and discovery. The court held oral argument on July 13, 2021, after receiving the record
the day before. The parties stipulated to the admissibility of all exhibits. The parties
stipulated not to present additional testimony at the preliminary injunction hearing
because it would duplicate what they had presented already.
F urther evidentiary hearing is generally required for a preliminary injunction
motion when there are “genuine issues of material fact” and either side “intends to
introduce evidence [at the hearing] that if believed will so weaken [the other’s] case as to
affect the judge’s decision on whether to issue the injunction.” Ty, Inc. v. GMA Accessories,
Inc., 132 F.3d 1167, 1171 (7th Cir. 1997). That said, such a hearing isn’t necessary when the
28

Appendix 35a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 29 of 101

evidence would essentially duplicate the declarations, depositions, and other documents
the parties have already submitted. See Goodman v. Ill. Dep’t of Fin. & Pro. Regul., 430 F.3d
432, 439 (7th Cir. 2005) (summarizing Ty, Inc., 132 F.3d at 1171); Ty, Inc., 132 F.3d at 1171.
No additional hearing was necessary here. The court has considered over a hundred
written exhibits, including sworn depositions and declarations, and heard three hours of
argument. This motion is ripe for immediate ruling.
STANDING
Before considering the preliminary injunction motion, the court must ensure its
jurisdiction. See Common Cause Ind. v. Lawson, 937 F.3d 944, 949 (7th Cir. 2019); Simic v.
City of Chicago, 851 F.3d 734, 738 (7th Cir. 2017). The United States Constitution confines
the federal judiciary’s power to “Cases” and “Controversies.” U.S. Const. Art. III § 2. For
a case or controversy to exist, a plaintiff must have standing—an injury, fairly traceable
to the defendant’s conduct, that the court’s decision will likely redress. Uzuegbunam v.
Preczewski, 141 S. Ct. 792, 797 (2021); Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
Indiana University raises the issue of standing. Of the eight students here, six have
received an exemption under the university’s policy and one (Margaret Roth) qualifies
so long as she pursues it. This leaves one student (Natalie Sperazza) who yet faces an
unexemptible choice this semester: either she gets vaccinated or she cannot attend
Indiana University this fall. She doesn’t qualify for an exemption. At minimum, she has
standing—an injury fairly traced to Indiana University’s decision to mandate the vaccine
and one the court can redress. See Uzuegbunam, 141 S. Ct. at 797; Taylor v. McCament, 875
F.3d 849, 853 (7th Cir. 2017).
29

Appendix 36a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 30 of 101

The court has subject matter jurisdiction under Article III so long as one plaintiff
has standing. See Horne v. Flores, 557 U.S. 433, 446 (2009); Massachusetts v. E.P.A., 549 U.S.
497, 518 (2007). Even when the standing of others may prove doubtful, see, e.g., Chi. Joe’s
Tea Room, LLC v. Vill. of Broadview, 894 F.3d 807, 813 (7th Cir. 2018), the court’s jurisdiction
remains intact so long as one plaintiff has demonstrated standing to assert her rights,
Horne, 557 U.S. at 446. The court thus may proceed to this preliminary injunction motion
without addressing the standing of the other students. See id.
That said, the court remains mindful (and the reader should too) that it cannot
issue a mere advisory opinion. Article III’s “case or controversy” requirement prohibits
“advisory opinions that do not affect the rights of the parties before the court.” Matlin v.
Spin Master Corp., 979 F.3d 1177, 1181 (7th Cir. 2020) (citation omitted). The court isn’t a
law office established for legal advice—the federal judiciary decides cases, not
hypothetical outcomes. If the court’s decision doesn’t affect a litigant’s rights, “the
aggrieved party [is] unable to illustrate the redressability component of standing,
rendering any judicial decision in the case an impermissible advisory opinion.” United
States v. Brixen, 908 F.3d 276, 280 (7th Cir. 2018). In short, the court won’t decide today
issues that would not redress the injuries these particular students allege.
PRELIMINARY INJUNCTION STANDARD
A preliminary injunction is a “very far-reaching power, never to be indulged []
except in a case clearly demanding it.” Cassell v. Snyders, 990 F.3d 539, 544 (7th Cir. 2021)
(quoting Orr v. Shicker, 953 F .3d 490, 501 (7th Cir. 2020)). To obtain an injunction, the
students “must make a threshold showing that: (1) absent preliminary injunctive relief,
30

Appendix 37a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 31 of 101

[they] will suffer irreparable harm in the interim prior to a final resolution; (2) there is no
adequate remedy at law; and (3) [they have] a reasonable likelihood of success on the
merits.” Tully v. Okeson, 977 F.3d 608, 612-13 (7th Cir. 2020) (quoting Turnell v. CentiMark
Corp., 796 F.3d 656, 662 (7th Cir. 2015)); see also Winter v. Nat. Resources Defense Council,
Inc., 555 U.S. 7, 20 (2008). If they make these threshold showings, the court “consider[s]
the balance of harms between the parties and the effect of granting or denying a
preliminary injunction on the public interest.” Tully, 977 F.3d at 613 (quotation omitted).
ANALYSIS
A.

These Students Aren’t Likely to Succeed on the Merits.

No case to date has decided the constitutionality of whether a public university,
such as Indiana University, may mandate that its students receive a COVID-19 vaccine.66
Given the unique constitutional nature of this case, the court assesses the students’
likelihood of success first, ever mindful that this determination proves preliminary only.
The students must show a likelihood of success on the merits. This is their burden.
This showing must be “strong,” which “normally includes a demonstration of how the
applicant proposes to prove the key elements of [the] case.” Tully, 977 F.3d at 613 (quoting
Ill. Republican Party v. Pritzker, 973 F.3d 760, 762-63 (7th Cir. 2020)). Though an “applicant
need not show that [she] definitely will win the case,” a “mere possibility of success is
not enough.” Pritzker, 973 F.3d at 762-63.

A district court recently upheld a COVID-19 vaccine mandate, albeit by a private employer (hospital).
See Bridges v. Houston Methodist Hosp., 2021 U.S. Dist. LEXIS 110382, 7-8 (S.D. Tex. June 12, 2021).
66

31

Appendix 38a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 32 of 101

1.

The Fourteenth Amendment.

The students pursue a Fourteenth Amendment claim. The Bill of Rights—the first
ten amendments to the United States Constitution—originally applied only to the federal
government. See McDonald v. City of Chicago, 561 U.S. 742, 754 (2010). Individual states
weren’t obligated to respect its protections against citizens. See Livingston’s Lessee v.
Moore, 32 U.S. 469, 551-52 (1833); see also McDonald, 561 U.S. at 754 (citing Moore, 32 U.S.
at 551-52). This changed with the Fourteenth Amendment in 1868.
The F ourteenth Amendment “furnishe[d] an additional guaranty against any
encroachment by the States upon the fundamental rights [that] belong to every citizen as
a member of society.” United States v. Cruikshank, 92 U.S. 542, 554 (1875); accord United
States v. Morrison, 529 U.S. 598, 622 (2000); see also 42 U.S.C. § 1983; Albright v. Oliver, 510
U.S. 266, 271 (1994); Power v. Summers, 226 F .3d 815, 819 (7th Cir. 2000). F or today’s
dispute, the F ourteenth Amendment says no “State [may] deprive any person of life,
liberty, or property, without due process of law.” U.S. Const. amend. XIV § 1. This due
process clause applies to the States and protects, absent a deprivation with due process,
certain rights to life, liberty, and property. Indiana University is a state actor, Medlock v.
Trustees of Ind. Univ., 738 F.3d 867, 871 (7th Cir. 2013), so the Fourteenth Amendment also
applies to it.
As interpreted, the Fourteenth Amendment has both substantive and procedural
dimensions. See Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 541 (1985). This case
concerns substantive due process—“a substantive limitation on the power of government
to legislate.” Durigan v. Sanitary Dist. No. 4, 5 F. Appx. 492, 494 (7th Cir. 2001); see Campos
32

Appendix 39a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 33 of 101

v. Cook Cnty., 932 F.3d 972, 975 (7th Cir. 2019). The Fourteenth Amendment protects a
person’s substantive rights in life, liberty, and property. U.S. Const. amend. XIV § 1.
Certain rights or liberties have been deemed “fundamental,” so they receive greater
protection. See Washington v. Glucksberg, 521 U.S. 702, 720-21 (1997).
Bearing that in mind, the court initially approaches this case in a two-fold manner.
First, the law requires a “careful description” of the asserted right or liberty. See id. at 721;
see, e.g., Doe v. City of Lafayette, 377 F.3d 757, 768 (7th Cir. 2004). Second, the court must
determine whether the so-defined right or liberty is fundamental under the Constitution.
See Glucksberg, 521 U.S. at 721; Doe, 377 F.3d at 768. The Fourteenth Amendment’s due
process clause specially protects fundamental rights and liberties—those that objectively
are “deeply rooted in this Nation’s history and tradition” and so “implicit in the concept
of ordered liberty” that “neither liberty nor justice would exist if they were sacrificed.”
Glucksberg, 521 U.S. at 721 (citations omitted); accord Khan v. Bland, 630 F.3d 519, 535 (7th
Cir. 2010). These guideposts direct and restrain due process decisionmaking. Glucksberg,
521 U.S. at 721.
Many rights explicitly secured in the Bill of Rights are considered fundamental,
having been gradually incorporated as substantive guarantees under the F ourteenth
Amendment. These fundamental rights include, as examples, freedom of speech, Gitlow
v. New York, 268 U.S. 652 (1925); freedom of the press, Near v. Minnesota, 283 U.S. 697
(1931); the right against cruel and unusual punishment, Robinson v. California, 370 U.S.
660 (1962); and the right to keep and bear arms, McDonald, 561 U.S. at 742. There are
others.
33

Appendix 40a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 34 of 101

Fundamental rights aren’t limited to those specifically enumerated in the Bill of
Rights. Beginning with Griswold v. Connecticut, 381 U.S. 479, 483 (1965), the Supreme
Court recognized a right to privacy within the “penumbra” of other constitutional
protections and called it fundamental. This right to privacy has included the right for
both married and unmarried couples to purchase contraceptives, see Griswold, 381 U.S. at
484-86; Eisenstadt v. Baird, 405 U.S. 438, 454-55 (1972), to abortion, see Roe v. Wade, 410 U.S.
113, 153 (1973), to sexual privacy, Lawrence v. Texas, 539 U.S. 558, 578 (2003), and to marital
privacy, Obergefell v. Hodges, 576 U.S. 644, 664-65 (2015). As these cases illustrate, privacy
rights largely have been confined to “to sexual and reproductive rights, such as the right
to use contraceptives or have an abortion or engage in homosexual acts.” Wolfe v. Schaefer,
619 F.3d 782, 784 (7th Cir. 2010).
The students and university disagree on the constitutional analysis. Declaring a
right or liberty fundamental has important implications. Modern constitutional
jurisprudence employs a different analysis when a person’s fundamental right is at stake.
If the government infringes on a fundamental right, the court often applies strict scrutiny.
Glucksberg, 521 U.S. at 721. In such circumstances, the Fourteenth Amendment “forbids
the government to infringe . . . fundamental liberty interests at all, no matter what process
is provided, unless the infringement is narrowly tailored to serve a compelling state
interest.” Id. (quoting Reno v. Flores, 507 U.S. 292, 302 (1993)); see, e.g., Siefert v. Alexander,
608 F.3d 974, 981 (7th Cir. 2010); Ent. Software Ass’n v. Blagojevich, 469 F.3d 641, 646 (7th
Cir. 2006). This is the most rigorous form of constitutional scrutiny of government action.

34

Appendix 41a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 35 of 101

Whereas infringements on other rights or liberties, though still constitutionally
scrutinized, must meet what courts call rational basis review. Glucksberg, 521 U.S. at 722,
Sweeney v. Pence, 767 F.3d 654, 668 (7th Cir. 2014). The law normally applies this standard
to Fourteenth Amendment challenges to infringed liberties, if not fundamental or based
on a suspect classification. Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 70
(2020) (Gorsuch, J., concurring); see, e.g., Glucksberg, 521 U.S. at 721. It is less stringent than
strict scrutiny. Under rational basis review, “legislation is presumed to be valid and will
be sustained if the classification drawn by the statute is rationally related to a legitimate
state interest.” City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 440 (1985). The
students argue for strict scrutiny, and the university argues for rational basis review.
2.

The Constitution in a Public Health Crisis.

We live in the era of the COVID-19 virus—worldwide seeing to nearly 189 million
cases and 4 million deaths, with these numbers changing daily. The United States hasn’t
been immune. Our citizens have recovered or struggled to recover from over 33 million
cases of this novel coronavirus when over 606,000 tragically have passed.67 A public
health crisis of this magnitude begs the question: how should the law respond to state
action that infringes on the People’s liberties during such times?
To be sure, the Constitution isn’t put on the shelf. Indeed, in times of crisis,
perhaps constitutional adherence proves the very anchor we all need against irrational
and overweening government intrusion that would otherwise scuttle the ship. As the

CDC, Trends in Number of COVID-19 Cases and Deaths in the US Reported to CDC, by State/Territory (July
16, 2021), https://covid.cdc.gov/covid-data-tracker/#trends_dailytrendscases.
67

35

Appendix 42a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 36 of 101

arbiters of the Constitution’s checks and balances, see Marbury v. Madison, 5 U.S. 137, 17678 (1803); accord Morrison, 529 U.S. at 616, the courts play an important role in ensuring
that the government doesn’t simply declare a never-ending public emergency and
expand its powers ad libitum to the People’s detriment.
Under our country’s federalist system, state and federal governments share
regulatory authority over public health matters. States traditionally exercise most
authority under their inherent police power—and reasonably so when public health may
flux and evolve by locale. States thus have the power, within constitutional limits, to pass
laws that “provide for the public health, safety, and morals[.]” Barnes v. Glen Theatre, 501
U.S. 560, 569 (1991); accord Glucksberg, 521 U.S. at 729-31; Zucht v. King, 260 U.S. 174, 17677 (1922), Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11, 24-25 (1905).
To answer the question today, the court travels back in time to 1905: a time before
the modern tiers of constitutional analysis (strict scrutiny and rational basis) and one
rampaged by the smallpox epidemic. In that year, the United States Supreme Court
issued a leading decision in answer to this question.
In Jacobson, 197 U.S. at 12, Massachusetts passed a law that allowed a city, if
“necessary for the public health or safety,” to enforce vaccination of its citizens. If a
person refused, he could be fined $5.00 (about $140.00 today). Id.; Cuomo, 141 S. Ct. at 70
(Gorsuch, J., concurring). The law allowed an exception for children who had physiciansigned certificates saying they weren’t fit for vaccination, but no such exemption existed
for adults. Jacobson, 197 U.S. at 12.

36

Appendix 43a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 37 of 101

The City of Cambridge, relying on this statute and acting through its board of
health, ordered its citizens vaccinated for smallpox. Id. at 12-13. Smallpox was
devastating, claiming almost 300 million lives in the 20th century before being
eradicated.68 In the early 1900s, and closer to the time that Massachusetts wrestled with
the disease, there were 1,596 cases of smallpox in Boston, with 270 deaths, in a city with
a population close to 561,000.69 Massachusetts, particularly Boston, was an epicenter of
one of two major smallpox outbreaks. Opponents of vaccination questioned its safety and
efficacy; though generally safe, it could cause ulceration, lobar pneumonia, cellulitis,
parotitis, sepsis, and tetanus, to name a few conditions.70 Side effects ostensibly posed a
greater problem than mild smallpox.71 The smallpox vaccine wasn’t risk-free in the early
1900s. That said, vaccinations had been used for some considerable time—begun by statesupported facilities in England in 1808 and mandated by many other countries
throughout the 1800s before the Massachusetts mandate in 1902. Id. at 31, n.1. This all
transpired before the FDA came into being.
Henning Jacobson refused the vaccine in Massachusetts. After a trial, a jury found
him guilty of refusing the vaccine. The court sentenced him to jail until he paid the $5.00

See D L Heymann et al., Successful Smallpox Eradication: What Can We Learn to Control COVID-19?, 27 J.
Travel Med. 1 (2020).

68

Michael R. Albert et al., The Last Smallpox Epidemic in Boston and the Vaccination Controversy, 1901-1903, 344
New Eng. J. Med. 375 (2001).

69

70

Id. at 375-76.

Bernard Brabin, An Analysis of the United States and United K ingdom Epidemics (1901-5)—The Special
Relationship that Tested Public Health Strategies for Disease Control, 64 Med. Hist. 1, 26 (2020).

71

37

Appendix 44a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 38 of 101

criminal fine. On appeal, he argued that the Massachusetts law authorizing the vaccine
mandate violated his Fourteenth Amendment rights. Id. at 13.
The United States Supreme Court rejected his challenge. A state’s police power
“must be held to embrace, at least, such reasonable regulations established directly by
legislative enactment as will protect the public health and the public safety.” Id. at 25.
This power included the “authority of a state to enact quarantine laws and health laws of
every description;” and such power extended to “all laws that relate to matters
completely within its territory and which do not by their necessary operation affect the
people of other states.” Id. The Constitution gave Massachusetts broad deference: a court
should only intervene “if a statute purporting to have been enacted to protect the public
health, the public morals, or the public safety, has no real or substantial relation to those
objects, or is beyond all question, a plain, palpable invasion of rights secured by the
fundamental law.” Id. at 31.
Of note, Jacobson upheld only the constitutionality of the state statute, id. at 39 (“We
now decide only that the statute covers the present case, and that nothing clearly appears
that would justify this court in holding it to be unconstitutional and inoperative in its
application to the plaintiff in error.”); and phrased its holding in terms of a reasonable
regulation established “directly by legislative enactment,” id. at 25, but the case
contemplated the action of local state bodies when vested legislatively with the power to
act to safeguard public health and safety, see, e.g., id. at 25, 38. A State’s power, “whether
exercised directly by the legislature, or by a local body acting under its authority, may be
exerted in such circumstances,” and only “regulations so arbitrary and oppressive in
38

Appendix 45a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 39 of 101

particular cases [would] justify the interference of the courts to prevent wrong and
oppression.” Id. at 38.
The students want Jacobson confined to its time, whereas the university believes it
applies with full force. In the years since, the high court has leaned on Jacobson to uphold
government measures intended for the public welfare under effectively rational basis
review, finding the measures reasonably advancing a legitimate state interest. F or
example, Zucht, 260 U.S. at 175-77, relied on Jacobson to uphold a city ordinance excluding
from its public schools children not having a certificate of vaccination, holding that it was
within the state’s police powers reasonably to so act. According to Zucht, Jacobson settled
the state’s power “to provide for compulsory vaccination” and, “consistently with the
federal Constitution, delegate to a municipality authority to determine under what
conditions health regulations shall become operative.” Id. at 176. This was not
authorization of “arbitrary power,” but only that broad discretion required for the
protection of the public health.” Id. at 177. In doing so, “state and federal legislatures
[enjoy] wide discretion to pass legislation in areas where there is medical and scientific
uncertainty.” Gonzales v. Carhart, 550 U.S. 124, 163 (2007) (citing Jacobson, 197 U.S. at 3031).
Based on this power, states and their authorized arms have historically adopted
vaccination mandates. For instance, all fifty states and the District of Columbia have laws

39

Appendix 46a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 40 of 101

requiring students to receive certain vaccines before they may attend school.72 Many align
their vaccine requirements with CDC’s immunization recommendations, and all laws
provide exemptions for medical reasons and nearly all religious exemptions.72 Adult
vaccination mandates often have been limited to the private employment sector,73 though
not always. For instance, the State of Indiana requires all public university students to
receive

vaccinations

for

diphtheria,

tetanus,

measles,

mumps,

rubella,

and

meningococcal disease, save for religious and medical exemptions. See Ind. Code § 21-405-2.
Similarly, but outside the vaccination context, Hamilton v. Regents of the University
of California, 293 U.S. 245, 264 (1934), relied on Jacobson to uphold a state university’s
decision to compel military training for its students (five years before World War II).
Certain minors (not adults) were required to take a course in military science and tactics,
part of training prescribed by the country’s war department at the time. The students
objected on religious grounds through the Fourteenth Amendment—“no more than an
assertion that the due process clause of the F ourteenth Amendment as a safeguard of
‘liberty’ confers the right to be students in the State University free from obligation to
take military training as one of the conditions of attendance.” Id. at 262. Hamilton held
this view “untenable,” recognizing the government’s duty to the people to maintain

Nat’l Conf. of State Legislatures, States with Religious and Philosophical Exemptions from School Immunization
Requirements (April 30, 2021), https://www.ncsl.org/research/health/school-immunization-exemptionstate-laws.aspx.
72

Michael J. Vernick, Molly E. Whitman & McKenzie F. Miller, The Mandate Maze, Inside Higher Ed (May
25, 2021), https://www.insidehighered.com/views/2021/05/25/advice-legal-issues-related-vaccinemandates-opinion.
73

40

Appendix 47a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 41 of 101

peace and order and every citizen’s “reciprocal duty, according to his capacity, to support
and defend government against all enemies.” Id. at 262-63. Justice Cardozo eloquently
concurred: “The right of private judgment has never yet been so exalted above the powers
and the compulsion of the agencies of government. One who is a martyr to a principle—
which may turn out in the end to be a delusion or an error—does not prove by his
martyrdom that he has kept within the law.” Id. at 268.
Repose the thought whether we face just such a common enemy today in COVID19. In this century, other than the Supreme Court’s reliance on Jacobson in 2007, see
Gonzales, 550 U.S. at 163, courts have returned again to its guidance during the COVID19 pandemic. Just last year, this circuit endorsed Jacobson. See Pritzker, 973 F .3d at 763
(“The district court appropriately looked to Jacobson for guidance, and so do we.”). The
circuit held that “Jacobson t[ook] off the table any general challenge” to an executive order
that subjected religious gatherings to recommended limits on gatherings, rather than
mandatory ones. Id. at 763-64. The Illinois governor implemented “an order designed to
address a serious public-health crisis,” and Jacobson afforded broad deference “[a]t least
at this stage of the pandemic.” Id.
That decision was almost ten months ago—in terms of the law very recent, but in
terms of this ever-evolving health crisis before the proverbial rinderpest. We are no
longer at the same stage of the COVID-19 pandemic; indeed, some—like the students—
argue that the pandemic is effectively over. And since this circuit’s Pritzker decision, more
cases bearing on the subject of public health in the COVID-19 pandemic have arrived.

41

Appendix 48a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 42 of 101

One such decision—and one heavily briefed by the parties—is Roman Catholic
Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020). In Cuomo, the State of New York adopted
capacity restrictions on religious institutions that treated them less favorably than socalled “essential” businesses, id. at 66, including liquor and hardware stores, id. at 69
(Gorsuch, J., concurring). Cuomo applied strict scrutiny because the law targeted religious
practice contrary to the F irst Amendment, as incorporated against the states by the
F ourteenth Amendment, and enjoined the limitations, saying they were not narrowly
tailored to fulfill the state’s compelling interest in controlling the spread of COVID-19. Id.
at 67 (majority opinion).
Cuomo enhanced the law’s focus under the First Amendment. See Cassell, 990 F.3d
at 543 (citing Cuomo for the proposition that “[i]ntervening authority from the Supreme
Court offers plaintiffs a greater prospect for success on the merits of their F irst
Amendment claim than either the district court or we had expected”). So this begs
another question: to what extent has Cuomo—if any—impacted the broad deference the
court would seemingly afford a state during a pandemic under Jacobson to act in the
interest of public health? Cuomo’s majority opinion never referenced Jacobson.
The students read Cuomo as implicitly overruling Jacobson, or at least as abrogating
it. Though the Supreme Court may overrule a case without explicitly saying so, see Levine
v. Heffernan, 864 F .2d 457, 461 (7th Cir. 1988), this is a tall task. Before a federal court
concludes that the Supreme Court has implicitly overruled a prior decision, it must be
“certain or almost certain that the decision or doctrine would be rejected by the higher
court if a case presenting the issue came before it.” Olson v. Paine, Webber, Jackson & Curtis,
42

Appendix 49a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 43 of 101

Inc., 806 F .2d 731, 741 (7th Cir. 1986). This high bar is rarely met. Id. It isn’t met here.
Cuomo and Jacobson involved entirely different modes of analysis, entirely different rights,
and entirely different kinds of restriction. See Cuomo, 141 S. Ct. at 70 (Gorusch, J.,
concurring) (saying the same). “Jacobson applied what would become the traditional legal
test associated with the right at issue”—exactly what Cuomo did. Id. The cases walk handin-hand.
This history isn’t all rosy. Unsuccessful thus far, the students turn to Buck v. Bell,
274 U.S. 200 (1927). In a rather infamous case, an eight-member majority, save for one
dissenting justice, upheld the involuntary sterilization of a woman based on a Virginia
law that rested on faulty science and public support for “eugenics”—the repulsive notion
that the human race could be improved by controlling reproduction from those with
developmental challenges, mental illness, or criminal histories. Citing Jacobson for the
principle that “compulsory vaccination is broad enough to cover cutting the Fallopian
tubes,” and offering the chilling justification that “[t]hree generations of imbeciles are
enough,” the majority upheld the law against a Fourteenth Amendment challenge. Id. at
207. This case isn’t Buck; and one over-extension of Jacobson merely counsels once more
that the Constitution cannot be cut loose even now, in a pandemic’s seeming twilight.
Cuomo, 141 S. Ct. at 68.
Jacobson was written before the modern tiers of constitutional scrutiny, so a
legitimate question is the extent to which Jacobson applies with full force today. This is a
topic of some debate. See, e.g., id. at 70 (Gorsuch, J., concurring) (“Jacobson didn’t seek to
depart from normal legal rules during a pandemic, and it supplies no precedent for doing
43

Appendix 50a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 44 of 101

so.”); Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603, 2608 (2020) (Alito, J.,
dissenting) (“it is a mistake to take language in Jacobson as the last word on what the
constitution allows public officials to do during the COVID-19 pandemic”); Big Tyme Inv.,
LLC v. Edwards, 985 F.3d 456, 470-71 and n.3 (5th Cir. 2021) (Willett, J., concurring) (“I am
not the first to express doubts about Jacobson”); S. Bay United Pentecostal Church v. Newsom,
959 F.3d 938, 943 n.2 (9th Cir. 2020) (Collins, J., dissenting) (“I am unable to agree with
the Fifth Circuit’s conclusion that Jacobson instructs that all constitutional rights may be
reasonably restricted to combat a public health emergency.”) (quotations omitted), cert.
denied, 140 S. Ct. 1613 (2020). No Supreme Court opinion has overruled or abrogated
Jacobson.
Considering the modern tiers of constitutional scrutiny, the court reads Jacobson
and Cuomo harmoniously, appreciating their respective spheres. Though Jacobson was
decided before tiers of scrutiny, it effectively endorsed—as a considered precursor—
rational basis review of a government’s mandate during a health crisis. See Jacobson, 197
U.S. at 31; see also Cuomo, 141 S. Ct. at 70 (Gorusch, J., concurring). In its words, if a law
purporting to be enacted to protect public health “has no real or substantial relation to
[that legitimate aim]” or if the law proves “a plain, palpable invasion of rights secured by
the fundamental law,” the court’s job is to give effect to the Constitution. Jacobson, 197
U.S. at 31. Should the court have this melding of history and modernity wrong in
faithfully adhering to the Fourteenth Amendment’s plain original meaning of “life” and
“liberty,” comfort should come in knowing that Jacobson, whether rational basis review
by any other name, leads to the same result today.
44

Appendix 51a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 45 of 101

This view remains consistent with the right at stake in Jacobson: though a true
“liberty” proved at stake—the right to refuse a vaccine during a smallpox epidemic—this
interest in bodily autonomy, though protected by the Constitution, wasn’t fundamental
under the Constitution to require greater scrutiny than rational basis review. See Sweeney,
767 F.3d at 668 (rational basis review for infringements on non-fundamental rights). At
the same time, Jacobson didn’t hold that the government’s authority in a pandemic
balloons for it do whatever it wants in the name of public safety.
Jacobson instead counseled that federal courts should require a rational relation to
a legitimate interest in public health. See Jacobson, 197 U.S. at 31; Cuomo, 141 S. Ct. at 70
(Gorsuch, J., concurring). That Cuomo imposed heightened scrutiny of the government’s
interference with the free exercise of religion—a fundamental right under the F irst
Amendment—was presciently contemplated a century beforehand by Jacobson: a court
should intervene if a state imposes a regulation that is “beyond all question, a plain,
palpable invasion of rights secured by the fundamental law.” Jacobson, 197 U.S. at 31
(emphasis added). Because Cuomo involved a fundamental right, a “right[] secured by
the fundamental law” under today’s jurisprudence, the court intervened. See Cuomo, 141
S. Ct. at 67; see also Glucksberg, 521 U.S. at 721 (F ourteenth Amendment forbids the
government to infringe “fundamental” liberty interests at all, unless it has narrowly
tailored its law to serve a compelling state interest). The Constitution’s original meaning
should be so enduring.
The university seems to argue that Jacobson gave even more deference than rational
basis review during a public health crisis, but not fairly so; and, even then, Jacobson cannot
45

Appendix 52a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 46 of 101

be taken once more too far. See, e.g., Big Tyme, 985 F.3d at 467; ARJN #3 v. Cooper, __ F.
Supp.3d __, 2021 U.S. Dist. LEXIS 22286, 19 (M.D. Tenn. Feb. 5, 2021); Let Them Play MN
v. Walz, __ F. Supp.3d __, 2021 U.S. Dist. LEXIS 23485, 15 (D. Minn. Feb. 8, 2021); Culinary
Studios, Inc. v. Newsom, __ F. Supp.3d __, 2021 U.S. Dist. LEXIS 23775, 38-39 (E.D. Cal.
Feb. 8, 2021); Oakes v. Collier Cnty., __ F. Supp.3d __, 2021 U.S. Dist. LEXIS 15174, 4 n.4
(M.D. Fla. Jan. 27, 2021); M. Rae, Inc. v. Wolf, __ F. Supp.3d __, 2020 U.S Dist. LEXIS 241961,
16 n.25 (M.D. Pa. Dec. 23, 2020); Denver Bible Church v. Azar, 494 F. Supp.3d 816, 829 (D.
Colo. 2020); AJE Enterprise LLC v. Justice, 2020 U.S. Dist. LEXIS 222186, 12 (N.D. W. Va.
Oct. 7, 2020).
Jacobson doesn’t justify blind deference to the government when it acts in the name
of public health or in a pandemic. For instance, the decision left the door open for people
with legitimate medical concerns to challenge the vaccine mandate. See Jacobson, 197 U.S.
at 38-39. And the deference owed to the States during a pandemic or public health crisis
under Jacobson doesn’t extend indefinitely. See Pritzker, 973 F.3d at 763.
[A]t the outset of an emergency, it may be appropriate for courts to tolerate
very blunt rules. . . . [B]ut a public health emergency does not give . . . public
officials carte blanche to disregard the Constitution for as long as the medical
problem persists. As more medical and scientific evidence becomes
available, and as States have time to craft policies in light of that evidence,
courts should expect policies that more carefully account for constitutional
rights.
Calvary Chapel, 140 S. Ct. at 2605 (Alito, J., dissenting); accord Cassell, 458 F. Supp.3d at
993-94 (“courts must remain vigilant, mindful that government claims of emergency have
served in the past as excuses to curtail constitutional freedoms.”).

46

Appendix 53a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 47 of 101

In short, the Constitution doesn’t permit the government to declare a never-ending
public emergency and expand its powers arbitrarily. See Belcher v. Norton, 497 F.3d 742,
753 (7th Cir. 2007) (“substantive due process . . . affords protection of the individual
against arbitrary action of government”). Instead, as our country and communities
progress through a pandemic, the government must continually update its practices in
light of the most recent medical and scientific developments. And a law or policy should
be written with a mindset that medicine and science, and the circumstances that they
create, will evolve, and so must the law or policy evolve or be revisited in amendment.
In sum, the law today recognizes Jacobson as a precursor to rational basis review.
This is consistent with statements of many justices who continue to acknowledge Jacobson
as good law, albeit with constitutional restraint.74 Government action that infringes on
the liberty interest here, as in Jacobson, is subject to rational basis review. See Sweeney, 767
F.3d at 668.

See, e.g., Democratic Nat’l Comm. v. Wisconsin State Legislature, 141 S. Ct. 28, 43 (2020) (Kagan, J., dissenting).
(“To be sure, deference is usually due to a legislature’s decisions about how best to manage the COVID
pandemic.”) (citing South Bay, 140 S. Ct. at 1613-14) (Roberts, C.J., concurring in denial of an injunction
seeking to prevent a COVID-19 executive order); South Bay, 140 S. Ct. at 1613 (Roberts, C.J., concurring);
Calvary Chapel, 140 S. Ct. at 2608 (Alito, J., dissenting) (“Language in Jacobson must be read in context”); id.
at 2614 (Kavanaugh, J., dissenting); Cuomo, 141 S. Ct. at 71 (Gorsuch, J., concurring); Cuomo, 141 S. Ct. at 79
(Sotomayor, J., dissenting) (courts “play a deadly game in second guessing the expert judgment of health
officials about the environments in which a contagious virus, now infecting a million Americans each week,
spreads most easily”); Glucksberg, 521 U.S. at 742 (Stevens, J., concurring) (“As Justice Brennan pointed out
in his Cruzan dissent, we have upheld legislation imposing punishment on persons refusing to be
vaccinated . . . . In most cases, the individual’s constitutionally protected interest in his or her own physical
autonomy, including the right to refuse unwanted medical treatment, will give way to the State’s interest
in preserving human life.”).
74

47

Appendix 54a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 48 of 101

3.

Defining the Right & Constitutional Analysis.

The students assert a right to refuse the vaccine, saying the mandate infringes on
their bodily autonomy and medical privacy. Indiana University throws a challenge flag
here. To it, these students are merely saying they have a right to refuse a vaccine so that
they may attend college. The university says the right being infringed then isn’t the right
to refuse a vaccine, but the right to attend college. Indeed, if they choose to forego college
at Indiana University, there is no vaccine requirement. To the university, the students
aren’t being forced to take the vaccination against their will; they can go to college
elsewhere or forego college altogether. If this case were merely that, merely the right to
attend university, this state action wouldn’t trample on their rights. There is no
fundamental or constitutional right to a college education, see, e.g., Charleston v. Bd. of
Trustees, 741 F.3d 769, 774 (7th Cir. 2013); Bissessur v. Ind. Univ. Bd. of Trustees, 581 F.3d
599, 601 (7th Cir. 2009); Williams v. Wendler, 530 F.3d 584, 589 (7th Cir. 2008), much less
one at a particular institution.
But that’s not what this case concerns, and that’s not the liberty at stake. The
“unconstitutional conditions doctrine” forbids the university from pulling the rug out
from under the students in a roundabout way. Under this doctrine, argued by the
students as “coercion,” “the government may not deny a benefit to a person because he
exercises a constitutional right.” Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595,
604 (2013) (citations omitted); Regan v. Taxation with Representation of Wash., 461 U.S. 540,
545 (1983). This doctrine protects constitutional rights “by preventing the government
from coercing people into giving them up.” Koontz, 570 U.S. at 604. It “aims to prevent
48

Appendix 55a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 49 of 101

the government from achieving indirectly what the Constitution prevents it from
achieving directly.” Planned Parenthood of Ind. v. Comm’r, 699 F.3d 962, 986 (7th Cir. 2012).
The students say this state actor is denying a benefit—a public university education—
because they are exercising a constitutional right to refuse a vaccine.
The first step in an unconstitutional condition claim “is to identify the nature and
scope of the constitutional right arguably imperiled by the denial of a public benefit.” Id.
Here, the Fourteenth Amendment “liberty” at stake is a college student’s right to refuse
a vaccine, today at this stage of the pandemic [Tr. 26, 30-31]. The Supreme Court has
assumed (using its word) and strongly suggested that individuals have a constitutional
right to refuse unwanted medical treatment, see, e.g., Cruzan v. Director, Missouri Dept. of
Health 497 U.S. 261, 279 (1990); Glucksberg, 521 U.S. at 720. Cruzan held that a competent
individual had a constitutional right to refuse unwanted lifesaving hydration and
nutrition; and Glucksberg recognized that an individual had a liberty interest in refusing
unwanted lifesaving medical treatment, though not any fundamental right to assisted
suicide. See Cruzan, 497 U.S. at 279; Glucksberg, 521 U.S. at 728.
But in these, and in other cases, this liberty interest has remained confined either
by duly enacted and constitutional state laws or the state’s legitimate interests that it had
rationally pursued in regulation. See also Washington v. Harper, 494 U.S. 210, 221-22 (1990)
(prisoner has a “significant liberty interest in avoiding the unwanted administration of
antipsychotics drugs under the Due Process Clause . . . [but] no greater right than that
recognized under state law”); Vitek v. Jones, 445 U.S. 480, 492 (1980) (“Compelled
treatment in the form of mandatory behavior modification programs . . . was a proper
49

Appendix 56a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 50 of 101

factor to be weighed by the District Court. . . . Were an ordinary citizen to be subjected
involuntarily to these consequences, it is undeniable that protected liberty interests
would be unconstitutionally infringed absent compliance with the procedures required
by the Due Process Clause.”); Ingraham v. Wright, 430 U.S. 651, 673, 683 (1977) (“Among
the historic liberties so protected was a right to be free from, and to obtain judicial relief
for, unjustified intrusions on personal security. . . . The Eighth Amendment’s prohibition
against cruel and unusual punishment is inapplicable to school paddlings, and the
Fourteenth Amendment’s requirement of procedural due process is satisfied by Florida’s
preservation of common-law constraints and remedies.”)
The rights recognized (or assumed) in these cases weren’t “simply deduced from
abstract concepts of personal autonomy.” Glucksberg, 521 U.S. at 725. They were rooted
in longstanding common law rules or legal traditions consistent with this Nation’s
history. See id. The students, quite skillfully represented in this emergency setting, offer
no preliminary record of such historic rules, laws, or traditions that would facilitate the
court’s announcement, now in mere days from receiving this case, that a right to refuse a
vaccine is anything more than a significant liberty under the Fourteenth Amendment.
The dearth of this record isn’t a passing point. Indeed, both Cruzan and Glucksberg
were limited to an individual’s choice related to the refusal of lifesaving subsistence or
medical treatment—with no ramifications to the physical health of others. Vaccines
address a collective enemy, not just an individual one. Indeed, “the elimination of
communicable diseases through vaccination [is] one of the greatest achievements of
public health in the 20th century,” Bruesewitz v. Wyeth LLC, 562 U.S. 223, 226 (2011) (Scalia,
50

Appendix 57a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 51 of 101

J.) (citation and quotations omitted), and it continues to be so now in this century. A
vaccine is implemented as a matter of public health, and historically hasn’t been
constitutionally deterred from state mandate. See, e.g., Zucht, 260 U.S. at 176-77; Jacobson,
197 U.S. at 30-31.
In the backdrop of the Fourteenth Amendment’s ratification in 1868, for instance,
England had already passed its first compulsory vaccination act for smallpox in 1853 (and
so had many countries). See Jacobson, 197 U.S. at 31, n.1. Science wasn’t absolute or
infallible at that time—nor is it today. But the “possibility that the belief may be wrong,
and that science may yet show it to be wrong, is not conclusive; for the legislature has the
right to pass laws which, according to the common belief of the people, are adapted to
prevent the spread of contagious diseases.” Id. at 35. Appreciating the relative risks of
vaccines, they nonetheless “are effective in preventing outbreaks of disease only if a large
percentage of the population is vaccinated.” Wyeth, 562 U.S. at 227.
Added comfort comes from the consistent use of rational basis review to assess
mandatory vaccination measures. See, e.g., Prince v. Massachusetts, 321 U.S. 158, 166-67
(1944) (parent “cannot claim freedom from compulsory vaccination for the child more
than for himself on religious grounds” and “[t]he right to practice religion freely does not
include liberty to expose the community or the child to communicable disease or the
latter to ill health or death”); Zucht, 260 U.S. at 176-77; Jacobson, 197 U.S. at 30-31; Phillips
v. City of New York, 775 F.3d 538, 542-43 (2d Cir. 2015); Workman v. Mingo Cnty. Bd. of Educ.,
419 F. Appx. 348, 355-56 (4th Cir. 2011); W.D. v. Rockland Cnty., __ F. Supp.3d __, 2021 U.S.
Dist. LEXIS 33515, 74 (S.D.N.Y. Feb. 22, 2021); Doe v. Zucker, __ F. Supp.3d __, 2021 U.S.
51

Appendix 58a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 52 of 101

Dist. LEXIS 28937, 111 (N.D.N.Y. Feb. 17, 2021); Connecticut Citizens Defense League, Inc. v.
Lamont, 465 F . Supp.3d 56, 72 (D. Conn. 2020); Middleton v. Pan, 2016 U.S. Dist. LEXIS
197627, 20 (C.D. Cal. Dec. 15, 2016); George v. Kankakee Cmty. Coll., 2014 U.S. Dist. LEXIS
161379, 8-9 (C.D. Ill. Oct. 27, 2014), recommendation adopted, 2014 U.S. Dist. LEXIS 160737,
1-2; Boone v. Boozman, 217 F. Supp.2d 938, 954 (E.D. Ark. 2002).
Given over a century’s worth of rulings saying there is no greater right to refuse a
vaccination than what the Constitution recognizes as a significant liberty, the court
declines the students’ invitation to extend substantive due process to recognize more than
what already and historically exists. See Glucksberg, 521 U.S. at 721; Harper, 494 U.S. at
221-22; Prince, 321 U.S. at 166-67; Zucht, 260 U.S. at 176-77; Jacobson, 197 U.S. at 30-31.
Quite separately from this, the Constitution never provides a fundamental right to
a collegiate education. Nor does it secure as a fundamental liberty a student’s right to
attend a public university no matter his or her vaccinated status. The court isn’t saying a
student doesn’t have the right to choose. Of course every individual does—subject to the
state’s reasonable measures designed to pursue legitimate ends of disease control or
eradication.
The students argue that the university’s vaccine mandate doesn’t provide for
informed consent. “The notion of bodily integrity has been embodied in the requirement
that informed consent is generally required for medical treatment.” Cruzan, 497 U.S. at
269. Informed consent “entails an opportunity to evaluate knowledgeably the options
available and the risks attendant upon each.” Canterbury v. Spence, 464 F.2d 772, 780 (D.C.
Cir. 1972). The students acknowledge that, for medical products under an EUA like the
52

Appendix 59a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 53 of 101

three COVID-19 vaccines, HHS must establish conditions to facilitate informed consent.
See 21 U.S.C. § 360bbb-3(e)(1)(A)(ii). HHS must ensure that individuals taking the vaccine
are informed “that the Secretary has authorized the emergency use of the product,” “of
the significant known and potential benefits and risks of such use, and of the extent to
which such benefits and risks are unknown,” and “of the option to accept or refuse
administration of the product, of the consequences, if any, of refusing administration of
the product, and of the alternatives to the product that are available and of their benefits
and risks.” Id.
The students admit that the informed consent requirement under the EUA statute
only applies to medical providers. The university isn’t directly administering the vaccine
to its students; instead, it is requiring students to obtain the vaccine from a medical
provider and to attest that they have been vaccinated, save for certain exemptions. The
students will be informed of the risks and benefits of the vaccine and of the option to
accept or refuse the vaccine by their medical providers. See id. The university isn’t forcing
the students to undergo injections. The situation here is a far cry from past blunders in
medical ethics like the Tuskegee Study.75
The university is presenting the students with a difficult choice—get the vaccine
or else apply for an exemption or deferral, transfer to a different school, or forego school
for the semester or altogether. But this hard choice doesn’t amount to coercion. The

See CDC, The U.S. Public Health Service Syphilis Study at Tuskegee (as part of a study on the history of
untreated syphilis, “researchers did not collect informed consent from participants and they did not offer
treatment, even after it was widely available”), https://www.cdc.gov/tuskegee/index.html (last visited
July 16, 2021).
75

53

Appendix 60a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 54 of 101

students taking the vaccine are choosing it among other options, and before the shot
reaches their arms, they are made aware of the risks and the option to refuse.
One last point before moving on. As a final push, the students argue that the
vaccination requirement violates their free exercise of religion. The F irst Amendment
says “Congress shall make no law . . . prohibiting the free exercise” of religion. U.S. Const.
amend. I. The Supreme Court has declared this right to exercise religion as fundamental
and subject to strict scrutiny. See Cantwell v. Connecticut, 310 U.S. 296, 303 (1940). But the
Constitution also permits general regulations that incidentally burden religious practices:
the “right of free exercise does not relieve an individual of the obligation to comply with
a valid and neutral law of general applicability on the ground that the law proscribes (or
prescribes) conduct that his religion prescribes (or proscribes).” Employment Division v.
Smith, 494 U.S. 872, 879 (1992) (quotations omitted). Neutral and generally applicable
regulations need only be supported by a rational basis. Ill. Bible Colleges Ass’n v. Anderson,
870 F.3d 631, 639 (7th Cir. 2017).
The vaccine mandate is a neutral rule of general applicability. It applies to all
students, whether religious or not. It doesn’t discriminate among religions. Indeed, the
university has chosen to enable the practice of religion by providing a religious exemption
to this vaccination requirement—one that the university, on this record, has freely
granted to students if they request it, no questions asked. This is consistent with the
Constitution. See Nikolao v. Lyon, 875 F.3d 310, 316 (6th Cir. 2017) (religious plaintiff had
no constitutional right to an exemption from mandatory vaccination law for public school
students, though state provided one); Phillips, 775 F .3d at 543 (state “could
54

Appendix 61a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 55 of 101

constitutionally require that all children be vaccinated in order to attend public school. .
. . [but the State went] beyond what the Constitution requires by allowing an exemption
for parents with genuine and sincere religious beliefs”); see also Workman, 419 F. Appx. at
356; Whitlow v. California, 203 F. Supp.3d 1079, 1084 (S.D. Cal. 2016); Boone, 217 F. Supp.2d
at 954. Indiana University adopted a religious exemption, despite a religious-neutral
vaccine mandate, which the law views as a matter of grace. Indeed, six of the eight
students here applied for just such a religious exemption and obtained one.
In short, based on this analysis, all roads effectively lead to rational basis review:
Jacobson as a precursor to or stand-alone iteration of it, the modern tiers of constitutional
scrutiny, the unconstitutional conditions doctrine, and the First Amendment as applied
through the Fourteenth Amendment to this state actor. And to this road once traveled the
court now turns.
4.

On This Preliminary Record, Non-Exempt Students Haven’t Shown a
Likelihood of Success on their Claim that Indiana University Lacks a
Rational Basis for Its Vaccine Mandate.

Determining that the students have a liberty interest under the F ourteenth
Amendment’s due process clause doesn’t end the analysis. See Cruzan, 497 U.S. at 278. To
decide whether the students’ constitutional rights have been violated, or more
appropriately whether they are likely to succeed on such a claim, the court must balance
their liberty against the relevant state interests in accord with the Constitution. See id.
Two students aren’t exempt from the COVID-19 vaccine mandate: Natalie Sperazza and
Margaret Roth. They assert a right to refuse the vaccine, saying the mandate infringes on
their bodily autonomy and medical privacy.

55

Appendix 62a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 56 of 101

“Stemming the spread of COVID-19 is unquestionably a compelling interest.”
Cuomo, 141 S. Ct. at 67 (majority opinion). According to the federal government and the
State of Indiana, a state of emergency persists related to COVID-19, all the while
restrictions are being scaled back gradually. Recognizing today’s status of this pandemic,
neither health professionals, government representatives, nor this court may say public
health vis-à-vis COVID-19 has waned from being a legitimate state interest. Improved it
undoubtedly has—today seems a world altogether different from last year—but public
health remains a legitimate interest of the state to pursue. Indiana University too has a
legitimate interest in promoting the health of its campus communities—students, and not
least the faculty and staff who come daily in contact with them.
The students argue that the pandemic is basically over, but this goes against
current proclamations from the Secretary of Health and Human Services, the Indiana
State Department of Health, Governor Eric Holcomb, and the CDC, all then supported
for institutions of higher learning by the U.S. Department of Education and the American
College Health Association.76 In Indiana (and nationally), the trend line remains sharply
down (since winter) in terms of both new cases and deaths, though the recent snapshot
of seven-day lookbacks proves nearly triple what it was just when this case commenced.

See, e.g., U.S. Dep’t of Educ., ED COVID-19 Handbook, Volume 3: Strategies for Safe Operation and Addressing
the Impact of COVID-19 on Higher Education Students, Faculty, and Staff 9 (June 2021), available at [Ex. 116 at
7], https://www2.ed.gov/documents/coronavirus/reopening-3.pdf (“COVID-19 vaccination is the
leading prevention strategy [institutions of higher learning] can use to return to normal operations.”); Am.
College Health Ass’n, ACHA Guidelines: American College Health Association Recommends COVID-19
Vaccination Requirements for All On-Campus College Students in Fall 2021 (Apr. 29, 2021),
https://www.acha.org/ACHA/About/ACHA_News/ACHA_Recommends_COVID19_Vaccination_Requirements_for_Fall_2021.aspx. Though it appears many public universities, including
those in the State of Indiana, are ACHA members, Indiana University is not. The guidance is nonetheless
pertinent here.
76

56

Appendix 63a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 57 of 101

It isn’t unreasonable to believe that, absent concerted vaccination, the fall and winter
months will prove more arduous than these summer months for the university [Ex. 129
at 32]. Vastly improved, yes; out of the woods we aren’t, not on this preliminary record.
The students argue that the bell curve that depicts ongoing cases and deaths from
this pandemic’s outset mirrors the CDC’s continuum of pandemic phases that directs
more conservative measures, not more draconian ones [see, e.g., Exs. 212, 222, 230-231].
The students call this pandemic in the “deceleration” or “preparation” intervals—terms
of art that define its waning stages. Deceleration occurs when state or local health officials
rescind community mitigation measures because no new cases are occurring or are
occurring infrequently; and preparation occurs when the pandemic is declared ended
because evidence indicates that the disease is transitioning to seasonal patterns of
transmission [Ex. 231]. The overall trend line may well support a seeming deceleration
[cf. Exs. 222, 319]; but Indiana University insisting on vaccinations for its campus
communities is rationally related to ensuring the public health of students, faculty, and
staff this fall. Even under the university’s pandemic and infectious disease action levels
[Ex. 212], the university must continue to consult CDC and Indiana State Department of
Health standards; and those today favor vaccination.
Let’s not forget why we are here at this more promising stage of the pandemic,
July 18, 2021. Antibody resistance developed naturally from prior cases has been a
contributor to be sure; but, materially, improvement has come because of vaccinations—
nationally over 161 million complete (over 337 million doses) and statewide nearly 3
million complete (and over 5.7 million doses). The vaccination campaign has markedly
57

Appendix 64a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 58 of 101

curbed the pandemic. In fact, certain age-stratified, agent-based modeling of COVID-19
has concluded that another 279,000 deaths and nearly 1.25 million more hospitalizations
would have occurred by the end of June 2021 but for the vaccines.77 Stemming illness,
hospitalizations, or deaths at the university level hardly proves irrational.
It isn’t a foregone conclusion that this is overkill. This pandemic continues to
evolve, and medicine and science with it. Science is a process in search of fact. One such
moving target is the Delta variant (B.1.617.2). A mere four days ago Indiana reported 612
COVID cases—the highest count in more than six weeks (since May 27, 2021)—that health
officials attributed largely to the Delta variant and the unvaccinated population. Though
this daily case count is much lower than at the pandemic’s height, the CDC, Indiana’s
State Department of Health, and epidemiologists have identified the Delta variant of
particular lingering concern.78 The CDC labeled Delta a “variant of concern” in midJune.79 Current science shows it more virulent and transmissible. A peer-reviewed study
from scientists (issued July 8, 2021) found that the Delta variant has mutations that allow
it to evade certain natural antibodies, with vaccination proving the best protection [Ex.

See Alison Galvani et al., Deaths and Hospitalizations Averted by Rapid U.S. Vaccination Rollout
(Commonwealth Fund, July 2021), https://doi.org/10.26099/wm2j-mz32.
77

See Shari Rudavsky, Delta Variant on the Rise in Indiana, State Health Officials Say, IndyStar (July 9, 2021,
12:58
PM),
https://www.indystar.com/story/news/health/2021/07/09/covid-delta-variant-riseindiana-state-health-officials-say/7908502002/ (“Not only is the Delta variant more readily transmitted
from person to person, there’s some indication it may cause more severe disease, said Indiana State Health
Commissioner Dr. Kris Box.”).

78

79 See See CDC, SARS-CoV-2 Variant Classifications and Definitions (July 13, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/variants/variant-info.html.

58

Appendix 65a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 59 of 101

319].80 Reports of surges of Delta cases among the 12-29 age group have occurred.81 For
now, Indiana University has reasonably concluded that the safety and public health of its
campus communities can be augmented by the vaccines [id.]. See Gonzales, 550 U.S. at 163
(citing Jacobson, 197 U.S. at 30-31) (the law gives “wide discretion to pass legislation in
areas where there is medical and scientific uncertainty”).
Indiana University reasonably believes the vaccine promotes the safety of not only
its students, but that of its entire community. This wasn’t (and still isn’t) a decision taken
lightly. It wasn’t a decision reached overnight. It wasn’t a decision taken by some fly-bynight committee undetached from the current science, the current progress of the fight

See Delphine Planas et al., Reduced Sensitivity of SARS-CoV-2 Variant Delta to Antibody Neutralization,
Nature doi: 10.1038/s41586-021-03777-9, 3 (July 8, 2021) (online ahead of print),
https://www.nature.com/articles/s41586-021-03777-9_reference.pdf (“[A] single dose of Pfizer or
AstraZeneca was either poorly or not at all efficient against Beta and Delta variants. Both vaccines
generated a neutralizing response that efficiently targeted variant Delta only after the second dose.”)
According to Dr. Beeler, the data show that 50 percent of individuals had antibodies to the Beta variant and
47 percent had antibodies to the Delta variant one year after natural infection, whereas those who had
vaccination after natural infection maintained 100 percent antibodies to both variants a year later [Ex. 319
¶ 1]. According to Yale Medicine, the Delta variant is 50 percent more transmissible. See also VenkataViswanadh Edara et al., Infection and Vaccine-Induced Neutralizing-Antibody Responses to the SARS-CoV-2
B.1.617
Variants,
N.
Eng.
J.
Med.
DOI:
10.1056/NEJMc2107799
(July
7,
2021) https://www.nejm.org/doi/full/10.1056/NEJMc2107799; Kathy Katella, Yale Med., 5 Things to
K now About the Delta Variant (July 15, 2021), https://www.yalemedicine.org/news/5-things-to-knowdelta-variant-covid.
80

See See Ian Mount et al., The Kids are (not) Alright: Europe Sounds the Alarm as Delta Variant Soars Among
Teens and 20-Somethings, F ortune (July 8, 2021, 11:58 AM), https://fortune.com/2021/07/08/kidsvulnerable-covid-delta-variant-vaccinated-europe/ (seeing surge of Delta cases among the 12-29 age
group); see also Public Health England, SARS-CoV-2 Variants of Concern and Variants under Investigation in
England: Technical Briefing 17, 15 (June 25, 2021), https://www.nature.com/articles/s41586-021-037779_reference.pdf. A recent United Kingdom study, albeit still abstracted, concluded that most Delta
infections in a younger group (age 5-49) occurred in the unvaccinated population. See Steven Riley et al.,
REACT-1 Round 12 Report: Resurgence of SARS-CoV-2 Infections in England Associated with Increased Frequency
of
the
Delta
Variant,
medRxiv
(June
21,
2021)
(not
peer-reviewed
pre-print),
https://www.medrxiv.org/content/10.1101/2021.06.17.21259103v1.
81

59

Appendix 66a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 60 of 101

against the pandemic, or experience and training in relevant fields of study. The restart
committee was led by Indiana University’s Executive Vice President for University
Clinical Affairs and the School of Medicine’s Dean. The committee consisted of seven
MDs, some with additional degrees in public health or other PhDs, and others with
graduate degrees in public health, risk mitigation, law, and ethics [Ex. 300 at 5]. Of its 15
members, two were deans of public health and others were experts in public health,
epidemiology, virology, and other relevant areas of the health sciences, including health
equity [Ex. 116 ¶ 23]. The committee met regularly and considered a wide variety of
sources and information [id. ¶ 24].
A mere sampling of presentations from committee meetings from December 8,
2020 to April 6, 2021 [Exs. 302-317] shows the committee focused on COVID-19 evolution;
EUA data; reactogenicity data; communications with the Indiana State Department of
Health; CDC guidelines and updates; university-wide surveillance testing and data; data
trends based on vaccinated and unvaccinated individuals; on-campus and off-campus
transmission events; morbidity and mortality figures; efficacy of mitigation efforts on and
off campus; international, national, state, county, and school vaccine uptake data; vaccine
efficacy against variants; vaccine risk data; vaccine hesitancy surveys and campus
opinion polling; and policies and requirements of other universities across the country
[see also Ex. 301 ¶ 2]. In addition, four MDs from this committee presented near-weekly
from December 2020 to June 2021 to Indiana University’s Executive Academic Leadership
Council, including the President and Executive Vice Presidents as part of the medical
response team’s ongoing COVID-19 evaluation efforts [Id. ¶ 5]. The process ultimately
60

Appendix 67a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 61 of 101

filtered through the judgment of the Board of Trustees. This was a deliberative decision
based on a wealth of scientific, medical, empirical, and industry-wide data.
F or the impact of this vaccine mandate, the students focus only on the student
body; and that is certainly an important part of the analysis here. The students argue that
the fatality rate for healthy individuals age 20-49 is far less than older individuals [see,
e.g., Ex. 117 at 21-24; Ex. 243]. Dr. McCullough calls the mortality rate 0.15 percent [Ex.
241 ¶ 3]. He testifies that 16 deaths of young adults (aged 18-29) occurred in 2020, but
none thus far in 2021 [Ex. 117 ¶ 34]. The students point out that the university’s student
body had one death last year [id. ¶ 25]. Indiana University reasonably views a 0.15 percent
death rate as unacceptable for its communities, particularly given the safe preventative
measure of a vaccine [Ex. 319 ¶ 4]. At approximately 90,000 students, that rate would risk
135 student lives, not accounting for other mitigation efforts to the better or those with
immunocompromising conditions to the worse. The university’s student population is
not a homogenous group of just young healthy adults [id.].
In addition, the student’s position overlooks the larger Indiana University
community. Dr. McCullough, in fairness, takes a wider snapshot yet, pointing to a
longitudinal serosurvey (blood sampling) of community residents near Pennsylvania
State University suggesting that students’ return in August 2020 had limited
transmissible effect on the local community [Ex. 117 ¶ 29-30].82 But Indiana University’s
perspective was more intimate. The university analyzed the number of individuals
See Callum R. K. Arnold et al., SARS-CoV-2 Seroprevalence in a University Community: A Longitudinal Study
of the Impact of Student Return to Campus on Infection Risk Among Community Members, medRxiv (Feb. 14,
2021) (non-peer reviewed pre-print), https://pubmed.ncbi.nlm.nih.gov/33619497/.

82

61

Appendix 68a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 62 of 101

within its campus population known to have increased risk factors for COVID-19 and
determined that over 8,500 faculty and staff remained at increased risk of complications
if they contracted the disease [Ex. 116 ¶ 26], with the ongoing risk of asymptomatic spread
that vaccines help address [Ex. 129 at 53-54]. Faculty and staff at Indiana University who
have daily contact with students represent an even broader demographic than just the
student body, and this policy was intended to protect them too. The court credits Dr.
Carroll and Dr. Beeler over Dr. McCullough on this point given their firsthand
knowledge of Indiana University’s specific circumstances.
The university’s policy has broad support within its community. As of June 25,
2021, over 42,000 students had received the vaccine; and that number has no doubt grown
[Ex. 116 ¶ 46]. Two university faculty councils—elected representative bodies interested
in the quality of learning and student life—issued statements in support [id. ¶ 47]. The
staff council at Indiana University’s main campus in Bloomington likewise endorsed the
policy [id. ¶ 49]. The graduate and professional student government also issued a
resolution supporting the policy [id. ¶ 50]. Eight students have filed this lawsuit, and
perhaps others await this ruling to decide. Under the circumstances, on this preliminary
record, the law respects the right of this university community to self-govern reasonably.
To that point, no one has argued that Indiana University’s policy is ultra vires.
Indiana’s General Assembly endowed the university’s Board of Trustees to act in the
“best interests of the state and the state educational institution,” Ind. Code § 21-40-3-1(b),
including the power “to prevent unlawful or objectionable acts that . . . violate the
reasonable rules and standards of the [university] designed to protect the academic
62

Appendix 69a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 63 of 101

community from . . . conduct presenting a serious threat to person or property of the
academic community,” Ind. Code § 21-39-2-3(b). The university remains answerable to
the legislature, particularly its coffers.
The Indiana General Assembly has prohibited a vaccine passport in this state, but
not a vaccine requirement. See Ind. Code § 16-39-11-5. Still, in assessing the
reasonableness of vaccination mandates, the law considers underlying legislative
authority. See Zucht, 260 U.S. at 175; Jacobson, 197 U.S. at 12-13; see also Washington, 494
U.S. at 221-22 (recognizing liberty interest under both state’s policy and due process
clause, but “no greater right than that recognized under state law”). On this preliminary
record, Indiana University faces still an “objectionable” and “serious threat” to the
“academic community” that its vaccination policy seeks reasonably to address for
campus health. See Zimmerman v. Bd. of Trustees of Ball State Univ., 940 F. Supp.2d 875, 89091 (S.D. Ind. 2013) (defining “objectionable”). This is consistent with the F ourteenth
Amendment.
Focusing on just mortality risk from COVID-19 leaves out much of the debate. Dr.
McCullough and Dr. Beeler (with Dr. Carroll), for instance, offer competing views on the
risks of the novel coronavirus and the risks of the vaccines [Exs. 115-117, 222, 319].83 This
is precisely the debate of medical professionals that state policymakers, including

The experts at times debate relatively modest side effects from vaccines after natural infection (e.g., fever
or fatigue), but these are self-limited and not dangerous [Ex. 319 ¶ 6], so the court addresses them no more
here. Even Dr. McCullough admits that other longstanding vaccines, including those mandated by state
law, have common side effects, such as a risk of a fever [Ex. 117 ¶ 56].

83

63

Appendix 70a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 64 of 101

authorized arms of the state, are best suited to resolve in setting policy for constituents,
including here for the students at Indiana University.
Without vaccination, college-aged students remain at risk for serious long-term
complication from COVID-19, including prolonged debilitating symptoms that interfere
with normal life such as myocarditis, reduced aerobic capacity, and brain damage [Ex.
319 ¶ 5].84 Long COVID remains a studied phenomenon. With Indiana reporting that
individuals aged 20-29 have had more positive cases than any other age demographic
[Ex. 115 ¶ 14], and with more than 260,000 cases linked to American college and
universities since January 1, 2021 [id. ¶ 17], this proves still a legitimate risk.85 Focusing
only on mortality disregards the serious compromise to the quality of life that face some
students who contract the virus [see also id. ¶ 10-11].
The students say the risks of the vaccine, especially at this stage and to their age
group, outweigh any benefits a vaccine might confer. These argued risks include

84 See Mark W. Tenforde et al., Symptom Duration and Risk Factors for Delayed Return to Usual Health Among
Outpatients with COVID-19 in a Multistate Health Care Systems Network — United States, March–June 2020,
69:30 Morbidity and Mortality Weekly Report 993, 997-98 (July 24, 2020),
https://www.cdc.gov/mmwr/volumes/69/wr/mm6930e1.htm?s_cid=mm6930e1_w (“Nonhospitalized
COVID-19 illness can result in prolonged illness and persistent symptoms, even in young adults and
persons with no or few chronic underlying medical conditions.”); Giovanni Andrea Gerardo Crameri et
al., Reduced Maximal Aerobic Capacity after COVID-19 in Young Adult Recruits, Switzerland, May 2020, 25(36)
Euro. Surveillance 1, 2 (Sept. 10, 2020),
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC7502899/pdf/eurosurv-25-36-2.pdf (“We observed a
statistically significant decrease in VO₂ max among COVID-19 convalescents compared with naive and
asymptomatically infected recruits”); Gwenaelle Douaud et al., Brain Imaging Before and After COVID-19 in
UK Biobank, medRxiv (Jun. 20, 2021) (not peer-reviewed pre-print),
https://www.medrxiv.org/content/10.1101/2021.06.11.21258690v2 (“In both cases we identified
significant (corrected-P<0.05) effects of COVID-19, primarily relating to loss of grey matter in cortical
areas directly connected to primary olfactory and gustatory cortex.”)

The New York Times has tracked coronavirus cases at American college and universities, though its
numbers have not been seemingly updated since May 26, 2021. See The New York Times, Tracking
Coronavirus Cases at U.S. Colleges and Universities,
https://www.nytimes.com/interactive/2021/us/college-covid-tracker.html (last visited July 18, 2021).

85

64

Appendix 71a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 65 of 101

myocarditis, clotting, death, and others [Ex. 117 ¶ 48-49]. Some of these concerns are
easier to assuage based on current science than others—and the court isn’t the final arbiter
of an evolving science, only of the law. The court must base today’s decision on the
snapshot of this preliminary record alone. It answers the question only whether the
students have made a strong showing that Indiana University failed to act reasonably in
achieving campus health to warrant the extraordinary remedy of a preliminary
injunction.
That said, Dr. Beeler concludes that with millions of people getting the vaccine,
experts “have [a] much tighter lens than we normally would for any other vaccine in
history to identify some of those extremely rare concerns” [Ex. 128 at 80], and that
younger people have a “higher probability” of facing issues with COVID-19 infection
than after vaccination [id. 78]. All vaccine manufacturers conducted Phase 3 trials for
EUA that never revealed the risks the students have presented [id. 79].
Since then, reports have shown the risk of myocarditis (heart inflammation), while
present and something worthy of continued investigation, to be seemingly rare—one
study suggesting the risk is about eight in one million and the other study suggesting the
risk is about twenty in one million.86 This issue has garnered increasing attention. The
F DA reported CDC data (through May 31, 2021) of 475 cases of myocarditis (heart
inflammation) and pericarditis (inflammation of membrane around heart) in vaccinated

See Han W. Kim et al., Patients with Acute Myocarditis Following mRNA COVID-19 Vaccination, JAMA
Cardiol (June 29, 2021), https://jamanetwork.com/journals/jamacardiology/fullarticle/2781602; Israeli
Ministry of Health, Surveillance of Myocarditis (Inflammation of the Heart Muscle) Cases Between December 2020
and May 2021 (Feb. 6, 2021), https://www.gov.il/en/departments/news/01062021-03.
86

65

Appendix 72a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 66 of 101

individuals age 30 and younger [Ex. 117 ¶ 49].87 This data came from the Vaccine Adverse
Event Reporting System (VAERS)—anecdotal data that, while important to analyze,
requires further investigation before drawing conclusions. See, e.g., Rider v. Sandoz Pharm.
Corp., 295 F.3d 1194, 1199 (11th Cir. 2002) (“case reports alone ordinarily cannot prove
causation”); Glastetter v. Novartis Pharms. Corp., 252 F .3d 986, 989-90 (8th Cir. 2001)
(“causal attribution based on case studies must be regarded with caution”).88 Still, on June
24, 2021, a CDC safety panel reported a “likely association” in young adults from mRNA
COVID-19 vaccines and myocarditis and pericarditis, though it emphasized that it
remained rare and typically mild, with the benefits of the vaccine still outweighing the
risks [Ex. 117 ¶ 51].89 This assessment of heart inflammation’s rarity and the overarching
benefits of the vaccines has a bench of current medical support on this record,90 again

See FDA, Vaccines and Related Biological Products Advisory Committee June 10, 2021 Meeting Presentation,
https://www.fda.gov/media/150054/download#page=17 (last visited July 16, 2021).
87

See also CDC, The Vaccine Adverse Event Reporting System (VAERS) Results (July 17, 2021),
https://wonder.cdc.gov/controller/datarequest/D8;jsessionid=DBF4A737A762F523202A55E30B57
(“While very important in monitoring vaccine safety, VAERS reports alone cannot be used to determine if
a vaccine caused or contributed to an adverse event or illness.”).
88

See Advisory Board, CDC Panel Reports ‘Likely Association’ of Heart Inflammation and mRNA COVID-19
Vaccines in Young People (June 24, 2021), https://www.advisory.com/daily-briefing/2021/06/24/heartinflammation.
89

See also Saif A. Mouch et al., Myocarditis Following COVID-19 mRNA Vaccination, 39 Vaccine 3790, 3793
(May 28, 2021), https://pubmed.ncbi.nlm.nih.gov/34092429/ (noting “mild” myocarditis and only
“possible”—not probable—connection to vaccination, and concluding that the “individual and public
benefit from COVID-19 vaccination outweighs these rare findings”); accord Carolyn M. Rosner et al.,
Myocarditis Temporally Associated with COVID-19 Vaccination, Circulation (June 16, 2021) (manuscript only),
https://www.ahajournals.org/doi/10.1161/CIRCULATIONAHA.121.055891 (“[N]o data are available
specific to vaccine-associated myocarditis. The clinical course of vaccine-associated myocarditis-like illness
appears favorable, with resolution of symptoms in all patients. Given the potential morbidity of COVID19 infection even in younger adults, the risk-benefit decision for vaccination remains highly favorable.”);
Mayme Marshall et al., Symptomatic Acute Myocarditis in Seven Adolescents Following Pfizer-BioNTech COVID19
Vaccination,
148(1)
Pediatrics
(July
2021)
(peer-reviewed
case
report)
https://pediatrics.aappublications.org/content/early/2021/06/04/peds.2021-052478
(“This
report
summarizes a series of US cases of myocarditis and myopericarditis following the Pfizer-BioNTech COVID19 mRNA vaccine in adolescent males . . . . At present, there is no definite causal relationship between these
90

66

Appendix 73a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 67 of 101

giving Indiana University a rational connection between its mandate and its aim of
campus health. This proves no less true when contracting COVID-19 (without the
vaccine) already presents a risk of myocarditis [Ex. 319 ¶ 5]. No one should blithely
dismiss the call for further investigation, but the students’ case isn’t strong today.
The students argue the temporal association of these risks, but just because the
rooster crows doesn’t mean he caused the sun to rise. A close review of Dr. McCullough’s
testimony reveals a true failing. Even he, the students’ own tendered expert, a
credentialed and board-certified physician in internal medicine and cardiovascular
disease, stops short of declaring a causative link between any vaccine and myocarditis.
He uses soft and inconsequential language, calling his suspicion “possible” and
“unpredictable” [Ex. 117 ¶ 48, 73], not probable or causative to a reasonable degree of
medical certainty. See Harris v. Owens-Corning Fiberglas Corp., 102 F.3d 1429, 1433 (7th Cir.
1996) (“mere possibility of . . . causation is not enough”). He says he has examined collegeage patients with myocarditis after a vaccine injection [Ex. 117 ¶ 59], but once again never
testifies that one was caused by the other. See Ervin v. Johnson & Johnson, Inc., 492 F.3d
901, 904–05 (7th Cir. 2007) (“mere existence of a temporal relationship between taking a
medication and the onset of symptoms does not show a sufficient causal relationship”).

cases and vaccine administration. . . . The benefits of vaccination significantly exceed possible risks.”);
Elisabeth Albert et al., Myocarditis Following COVID-19 Vaccination, 16(8) Radiology Case Reports 2142, 2144
(May 2021) (case report) https://www.ncbi.nlm.nih.gov/pmc/articles/PMC8130498/ (University of
Massachusetts researchers found “small risk” of myocarditis, and concluded that “there is a significantly
higher risk of cardiac involvement from COVID-19 infection compared to COVID-19 vaccination” such that
“vaccination should remain the cornerstone for population immunity”).

67

Appendix 74a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 68 of 101

With ever evolving COVID-19 science, more will be known tomorrow, next
month, and next year; but a courtroom is no place for guesswork today, even if wellinspired. See Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579, 590 (1993); Rosen v. CibaGeigy Corp., 78 F.3d 316, 319 (7th Cir. 1996); Constructora Mi Casita v. NIBCO, Inc., 448 F.
Supp.3d 965, 970-71 (N.D. Ind. 2020). Dr. Beeler testifies that “there is no proof of
causation between the vaccination and myocarditis” [Ex. 115 ¶ 69]. The court gives Dr.
McCullough’s testimony little weight on this record.91 These statements are made with
considered humility. The court isn’t deciding causation today to be sure. At the same
time, the students haven’t marshaled strong evidence that would call into legitimate
question the reasonableness of the university’s actions, or to meet their burden of an
extraordinary remedy of a preliminary injunction.
The students return to VAERS to discuss the risk of death from the vaccines. Dr.
McCullough says VAERS reported 6,136 deaths after vaccines as of June 18, 2021 [Ex. 117
¶ 45]. He says VAERS received more adult death reports from COVID-19 vaccines than
all other vaccines combined [id.]. The students offer an interim abstract from clinically

For additional examples, Dr. McCullough cites one article that “speculate[s] that adverse reaction against
the COVID-19 vaccine was responsible for the development of myocarditis due to its temporal relationship.”
Tommaso D’Angelo et al., Myocarditis after SARS-CoV-2 Vaccination: A Vaccine-induced Reaction?, Can. J.
Cardio. (June 9, 2021), https://www.ncbi.nlm.nih.gov/pmc/articles/PMC8187737/ (last visited July 17,
2021) (emphases added). Even then, the authors say “substantial evidences other than temporal aspects
still need to be provided to demonstrate the causality[.]” Id. Dr. McCullough also cites a Reuters article
concerning an Israeli study, rather than the study itself, when the Reuters article appears to overstate the
study. For instance, the article refers to 275 cases, but those cases included both COVID-19 exposures and
vaccinations. Only 148 cases occurred after vaccination. Even so, the study’s authors conclude merely that
there is “some probability for a possible link between the second vaccine dose and the onset of myocarditis
among young men aged 16 to 30,” not a probable link. Israeli Ministry of Health, Surveillance of Myocarditis
(Inflammation of the Heart Muscle) Cases Between December 2020 and May 2021 (F eb. 6, 2021),
https://www.gov.il/en/departments/news/01062021-03 (emphasis added).
91

68

Appendix 75a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 69 of 101

trained reviewers that considered the VAERS data as of April 2021, who grouped the
reports as those where the vaccine was most likely not a factor, where it may have been,
and where it was the most likely factor [Ex. 254].92 Of the 250 deaths reported at the time,
the reviewers concluded that 13 deaths were most likely caused by vaccines, noting that
these individuals had strong reactions soon after vaccination and died the same day or
during the next couple days [id.], though again temporal anecdotes like these aren’t as
telling. See Ervin, 492 F.3d at 904–05. They warrant further investigation to be sure; but in
close review this interim abstract offers no scientific or medical basis for drawing its
conclusion. Indeed, when the court asked counsel at oral argument what the basis was
for it, he too could offer no explanation [Tr. 34-37]. And more to the point, Dr.
McCullough again stops short of testifying that any one reported death in VAERS was
caused by a vaccine, despite this interim abstract [Ex. 117 at 21-26]. The students thus
haven’t presented evidence today demonstrating Indiana University’s decision was
irrational in pursuing its goal of campus health.
The CDC has explored this issue as well and seems to have marshaled data, at this
time, that any risk of death is rarer than the risk of death from a young adult COVID-19
infection. According to the CDC, 25,038,458 individuals aged 18-29 have been given their
first dose of the vaccine as of July 18, 2021, with VAERS reporting a total of 68 deaths, or

See Scott McLachlan et al., Analysis of COVID-19 Vaccine Death Reports from the Vaccine Adverse Events
Reporting
System
(VAERS)
Database
(June
2021)
(not
peer-reviewed
pre-print),
https://www.researchgate.net/publication/352837543_Analysis_of_COVID19_vaccine_death_reports_from_the_Vaccine_Adverse_Events_Reporting_System_VAERS_Database_Int
erim_Results_and_Analysis. Dr. Beeler calls this a “reliable study looking at an unreliable system” based
on passive reports unvalidated by studies and unconfirmed data [Ex. 128 at 124-25].
92

69

Appendix 76a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 70 of 101

approximately 0.00027 percent, if in fact any are related.93 Alternatively, of the 6,174,415
cases of COVID-19 in this age group, 2,732 died, or approximately a 0.04 percent.94 In
balancing the risks,95 Indiana University wasn’t irrational in favoring the route that
promoted greater safety for its students.
The experts disagree over the relative risk of asymptomatic transmission (and
indeed over many scientific conclusions), with the students contending that transmission
from asymptomatic infections is “trivial and inconsequential” [Ex. 117 ¶ 26-27],96 and the
university pointing to its own experience and national trends indicating that
asymptomatic transmission is “certainly still very possible” [Ex. 115 ¶ 52].97 As with any

See CDC, The Vaccine Adverse Event Reporting System, https://wonder.cdc.gov/vaers.html (data contains
reports processed as of July 9, 2021); CDC, COVID-19 Vaccination Demographics in the United States, National,
https://data.cdc.gov/Vaccinations/COVID-19-Vaccination-Demographics-in-the-United-St/km4m-vcsb
(last visited July 14, 2021).
93

CDC, Demographic Trends of COVID-19 Cases and Deaths in the U.S. Reported to CDC,
https://covid.cdc.gov/covid-data-tracker/#demographics (last visited July 18, 2021).
94

The rate of community spread of COVID-19 in the counties in which the university’s campuses are based
is classified as “moderate” to “high” by the CDC. CDC, COVID Data Tracker: COVID-19 Integrated County
View, https://covid.cdc.gov/covid-data-tracker/#county-view (last visited July 18, 2021).

95

Zachary Madewell et al., Household Transmission of SARS-CoV-2: A Systematic Review and Meta-analysis,
3(12) JAMA Network Open e2031756 (Dec. 14, 2020) (Universities of Florida and Washington researchers
conclude the rate of transmission from asymptomatic and presymptomatic carriers in a household is 0.7
percent, but acknowledge finding was based on a small sample size, did not differentiate between
asymptomatic and presymptomatic carries, and that significant questions remain about infectiousness)
https://jamanetwork.com/journals/jamanetworkopen/fullarticle/2774102.

96

See Michael A. Johansson et al., SARS-CoV-2 Transmission from People Without COVID-19 Symptoms, 4(1)
JAMA Network Open e2035057 (Jan. 7, 2021) (CDC Office of Deputy Directory for Infectious Disease
researchers’ disease model suggests that transmission from asymptomatic individuals account for 24% of
all transmissions) https://jamanetwork.com/journals/jamanetworkopen/fullarticle/2774707; Jennifer K.
Bender et al., Analysis of Asymptomatic and Presymptomatic Transmission in SARS-CoV-2 Outbreak, Germany,
2020, 27(4) Emerg. Infect. Dis. 1159 (April 2021) (European Centre for Disease Prevention & Control and
Robert Koch Institute reviewed seven asymptomatic and 46 symptomatic cases and concluded little to no
transmission from asymptomatic cases and 75 percent from presymptomatic cases)
https://wwwnc.cdc.gov/eid/article/27/4/20-4576_article; see also See Sten H. Vermund & Virginia E.
Pitzer, Asymptomatic Transmission and the Infection Fatality Risk for COVID-19: Implications for School
Reopening, 72(9) Clin. Infect. Dis. 1493-96 (May 1, 2021) (Yale researchers conclude that asymptomatic
transmission “likely represents a
substantial
proportion
of total
new infections”)
97

70

Appendix 77a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 71 of 101

new pathogen, scientific understandings of the character and risks of transmission are
ever evolving, but a review of the balance of the current peer-reviewed research and other
literature presented by the parties suggest that asymptomatic transmission, while less
prevalent than symptomatic transmission, routinely occurs. Naturally, this conclusion
may change as scientists continue to study the virus and population transmission events.
Other risks exist or may become known. F or instance, the F DA warns of the
potential for blood clots, reported the most in females ages 18-49, but calls this risk
“remote.”32 Just four days ago, the FDA added a warning to its fact sheet for the Janssen
COVID-19 vaccine that Guillain-Barré syndrome (a neurological disorder in which the
body’s immune system damages nerve cells and causes muscle weakness and sometimes
paralysis) has occurred in some people who have received the vaccine. The FDA calls this
risk “very low.”98 In contrast, Dr. Beeler testifies that brain damage proves a risk from
COVID-19 without a vaccine [Ex. 319 ¶ 5], as do several neurological diagnoses,
particularly for those hospitalized by a COVID-19 infection.99 The risks aren’t all one-

https://pubmed.ncbi.nlm.nih.gov/32584967/; Diana Buitrago-Garcia et al., Occurrence and Transmission
Potential of Asymptomatic and Presymptomatic SARS-CoV-2 Infections: A Living Systematic Review and Metaanalysis, 17(9) PLoS Med e1003346 (Sept. 22, 2020) (University of Bern and World Health Organization
researchers conclude risk of infection from an asymptomatic individuals exists but is decreased 65 percent
compared
to
symptomatic)
https://journals.plos.org/plosmedicine/article?id=10.1371/journal.pmed.1003346.
98 See FDA, Fact Sheet for Recipients and Caregivers Emergency Use Authorization (EUA) of the Janssen COVID19 Vaccine to Prevent Coronavirus Disease 2019 (COVID-19) in Individuals 18 Years of Age and Older (July 18,
2021), https://www.fda.gov/media/146305/download.
See, e.g., Maxime Taquet et al., 6-Month Neurological and Psychiatric Outcomes in 236,379 Survivors of
COVID-19: A Retrospective Cohort Study Using Electronic Health Records, 8 Lancet Psychiatry 416-27
(published online April 6, 2021), https://www.thelancet.com/journals/lanpsy/article/PIIS22150366(21)00084-5/fulltext (though calling for more data, concluding that the “severity of COVID-19 had a
clear effect on subsequent neurological diagnoses”). In fairness, this same study said whether COVID-19
was associated with Guillain-Barré syndrome “remains unclear.”
99

71

Appendix 78a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 72 of 101

sided, but the wealth of data and studies on which Indiana University has relied makes
the likelihood that the students will prevail on their claim here quite low.
Don’t forget that vaccines generally aren’t without medical risks. In 1993, the
Indiana General Assembly required that all public university students receive
vaccinations for five conditions, see Ind. Code § 20-12-71-11, which it later amended in
2007 to add one more, see Ind. Code § 21-40-5-2. Today that required list covers
diphtheria, tetanus, measles, mumps, rubella, and meningococcal disease. Early
diphtheria vaccines began in the 1920s, with more recent vaccines being developed in the
2000s. Tetanus vaccines were introduced in the late 1940s. The first measles vaccine was
developed in 1963, with the MMR vaccine licensed for use in 1971. The MMRV vaccine
(which protects against measles, mumps, rubella, and varicella) was licensed in 2005 per
the CDC. The first meningitis vaccine was licensed in 1974 in the United States, but more
modern vaccines were licensed in 2005, 2012, and then 2015. Risks of these vaccines are
varied, including more minor issues of fever or headache to more serious concerns of
seizure or death, though frequently low risks.
To be sure, EUA of the COVID-19 vaccines occurred on a tighter timetable and has
existed only since December 2020 and February 2021. The students thus voice concerns
about the experimental nature of the vaccines, though their counsel assures that their suit
will persist even if the FDA grants the vaccine manufacturers full approval. Not all EUAs
are equal, and the one required for COVID-19 vaccines was more robust than usual.
For an EUA to issue, the U.S. Department of Health and Human Services (HHS)
must first conclude that the biological threat identified in the emergency declaration “can
72

Appendix 79a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 73 of 101

cause a serious or life-threatening disease or condition[.]” 21 U.S.C. § 360bbb-3(c)(1).
Additionally HHS must conclude, “based on the totality of scientific evidence available
to the Secretary, including data from adequate and well-controlled clinical trials, if
available, it is reasonable to believe” the new product is effective in diagnosing, treating,
or preventing the disease and “the known and potential benefits of the product . . .
outweigh the known and potential risks of the product, taking into consideration the
material threat posed” by the public health emergency. 21 U.S.C. § 360bbb-3(c)(2).
Further, there must be “no adequate, approved, and available alternative to the product”
and the product must comport with “other criteria as the Secretary may by regulation
prescribe.” 21 U.S.C. § 360bbb-3(c)(3)-(4).
In addition to these criteria, HHS must ensure medical providers are informed of
the product’s EUA status, the “significant known and potential benefits and risks of the .
. . product, and of the extent to which such benefits and risks are unknown,” and the
availability, risks, and benefits of alternative products. 21 U.S.C. § 360bbb-3(e)(1)(A)(i)(I)(III). HHS must ensure that individuals who receive the product are informed of the
product’s EUA status, the “significant known and potential benefits and risks of such use,
and of the extent to which such benefits and risks are unknown,” and “of the option to
accept or refuse administration of the product, of the consequences, if any, of refusing
administration of the product, and of the alternatives to the product that are available
and of their benefits and risks.” 21 U.S.C. § 360bbb-3(e)(1)(A)(ii)(I)-(III). For these reasons,
those who go to get these vaccines receive fact sheets from the FDA.

73

Appendix 80a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 74 of 101

The impetus behind issuing an EUA, as opposed to going through the process for
full FDA approval, comes from the urgency required. The standard process for vaccine
approval requires a manufacturer to demonstrate compliance with statutory, regulatory,
and agency standards. See 42 U.S.C. § 262(j); 21 U.S.C. § 355(b)(1)(A); 21 C.F.R. §§ 601.2(a),
600.3(n), (p). Among other things, a manufacturer must conduct various studies,
including clinical trials, to prove that the vaccine is safe for use and is effective. 21 U.S.C.
§ 355(b)(1)(A)(i); 21 C.F.R. § 600.3(s). These trials must be complete before an application
can be submitted; indeed for COVID-19, the FDA requires manufacturers to collect and
include any data from severe adverse events for six months after the trials conclude.100
Though this process is designed to ensure safe vaccines for public use, it can take an
average of ten years to go from a mere idea to an approved vaccine.101 This can occur
more quickly too; indeed, just two days ago, the F DA granted priority review of one
vaccine, reportedly meaning that full approval from the FDA could come as soon as early
next year.102
On the other hand, as opposed to waiting until clinical trials conclude, an EUA
allows a manufacturer to apply using interim clinical trial data, and the data need only

21 U.S.C. § 355(b)(1)(A)(i); 21 C.F.R. § 601.2(a), (e); § 601.20(a); see also FDA, Development and Licensure of
Vaccines to Prevent COVID-19: Guidance for Industry (June 2020); F DA, Vaccine Development 101,
https://www.fda.gov/vaccines-blood-biologics/development-approval-process-cber/vaccinedevelopment-101 (last visited July 13, 2021).
100

101 See Mark M. Struck, Vaccine R&D Success Rates and Development Times, 14 Nature Biotech. 591, 592 (1996),
https://www.nature.com/articles/nbt0596-591.pdf?origin=ppub.

See BioNTech, U.S. FDA Grants Priority Review for the Biologics License Application for Pfizer-BioNTech
COVID-19 Vaccine (July 16, 2021), https://investors.biontech.de/news-releases/news-release-details/usfda-grants-priority-review-biologics-license-application.
102

74

Appendix 81a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 75 of 101

demonstrate the product “may be effective” and the known and potential benefits
outweigh the known and potential risks.103 Additionally, distribution and testing can
occur simultaneously.104 Although at first blush, the efficiency of an EUA may seem to
risk the greater surety of safety and efficacy, the statute anticipates the FDA will impose
additional obligations beyond those enumerated. See 21 U.S.C. § 360bbb-3(e)(1)(B).
In October 2020, the F DA released industry guidance detailing the benchmark
criteria for a COVID-19 vaccine to receive an EUA.105 Though not legally binding,106 the
industry guidance acknowledged that a COVID-19 vaccine was a “complex biological
product[] . . . intended to be administered to millions of individuals, including healthy
people, to prevent disease . . . [and has] the potential for broad use under an EUA.”107
Because the virus would only be overcome through the sweeping immunity of the
American public, the F DA informed manufacturers that approval would be given to

103 21 U.S.C. § 360bbb-3(c)(2)(A); F DA, Emergency Use Authorization for Vaccines Explained,
https://www.fda.gov/vaccines-blood-biologics/vaccines/emergency-use-authorization-vaccinesexplained (last visited July 12, 2021).

Compare 21 C.F .R. § 601.21 (products under development cannot be shipped for the purpose of
introduction into commerce), with 21 U.S.C. § 360bbb-3(e)(1)(B)(i) (allowing discretion for the agency to
work with manufactures on distribution issues); see also F DA, Emergency Use Authorization of Medical
Products
and
Related
Authorities:
Guidance
for
Industry
and
Other
Stakeholders,
https://www.fda.gov/regulatory-information/search-fda-guidance-documents/emergency-useauthorization-medical-products-and-related-authorities#preparedness (last visited July 12, 2021).
104

105 FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry (October 2020),
https://www.fda.gov/regulatory-information/search-fda-guidance-documents/emergency-useauthorization-vaccines-prevent-covid-19.

An industry guidance does not have the force of law, as it does not go through the rulemaking process.
However, an industry guidance informs a manufacturer of the criteria the FDA would consider sufficient
to receive approval pursuant to their statutory authority. See, e.g., F DA, Rules, Regulations and Guidance,
https://www.fda.gov/tobacco-products/products-guidance-regulations/rules-regulations-andguidance (last visited July 18, 2021) (describing industry guidance as informing the tobacco industry of
“pathways to legally market new tobacco products”).
106

107

FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry at 2.

75

Appendix 82a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 76 of 101

those EUA applications that went beyond the safety and efficacy requirements prescribed
by statute, and also expected manufacturers to consult with the FDA on the various nonclinical components of vaccine development and distribution as the clinical trial
progressed.108 The F DA wanted the same level of efficacy data as for full approval,
enough safety data to justify providing the vaccine to healthy individuals, and
confirmation of the technical procedures and verification steps necessary to support full
approval.109
Thus, manufacturers were expected to submit “adequate manufacturing
information to ensure its quality and consistency” as well as “data from at least one welldesigned Phase 3 clinical trial that demonstrates the vaccine’s safety and efficacy in a
clear and compelling manner”—a heightened bar from the “may be effective” standard
prescribed by statute—while still allowing the manufacturers to complete their trials for
full authorization.43 The FDA “strongly encourage[d]” manufacturers to provide interim
data and analyses before applications were submitted, and noted that requirements
described were “essential to ensure that clinical development of a COVID-19 vaccine has
progressed far enough that issuance of an EUA for the vaccine would not interfere with
the ability of an ongoing Phase 3 trial to demonstrate effectiveness of the vaccine to
support licensure and to continue safety assessments[.]”43

See FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry 6-7, 9
(October 2020); 21 U.S.C. § 360bbb-3(c).

108

109 FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry 4, 9 (October
2020).

76

Appendix 83a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 77 of 101

Although the FDA directs manufacturers to present evidence of efficacy that meet
the standards necessary to receive full approval,43 a key distinction between EUA and
full approval remains. To receive full approval for a COVID-19 vaccine, a manufacturer
must monitor and submit evidence of “serious and other medically attended adverse
events in all study participants for at least 6 months after completion of all study
vaccinations.”110 However, for an EUA, the manufacturer may submit its safety data
based on a median two-months follow-up for every individual who completed the
vaccine regimen.111 The FDA concluded that a “2-month median follow-up (meaning that
at least half of vaccine recipients in clinical trials have at least 2 months of follow-up) after
completion of the full vaccination regimen will allow identification of potential adverse
events that were not apparent in the immediate postvaccination period and will also
provide greater confidence in their absence, if none are observed.”112 Based on its
experience with vaccine studies and approvals, the FDA concluded that “adverse events
considered plausibly linked to vaccination generally start within 6 weeks after vaccine
receipt,” regardless of the type of vaccine received, and thus the median two-month
follow-up was justified “by extensive historical experience with adverse events after
vaccination, the need for a vaccine to address the current pandemic, and the magnitude
of vaccine effectiveness that will be required to support a favorable benefit–risk profile

110

FDA, Development and Licensure of Vaccines to Prevent COVID-19: Guidance for Industry 15 (June 2020).

111

Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry 10 (October 2020).

Philip R. Krause & Marion Gruber, Emergency Use Authorization of Covid Vaccines—Safety and Efficacy
Follow-up Considerations, 383 N. Engl. J. Med. e107(2) (Nov. 5, 2020). Dr. Marion Gruber is the director and
Dr. Phillip Krause is the deputy director of the Office of Vaccines Research and Review at the FDA.
112

77

Appendix 84a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 78 of 101

for use of a Covid-19 vaccine under an EUA.”111 Thus, in setting these stringent
expectations, the F DA invited EUA applications only for vaccines positioned well to
receive full approval.113
The statute grants the agency flexibility to impose additional requirements
necessary to meet the safety and efficacy concerns despite the urgency of a public health
emergency. The agency understood that a vaccine designed to be given to hundreds of
millions of Americans, healthy and otherwise, required significant safety and efficacy
data for approval. The consequences of skimping on these steps, or even adhering to the
statutory-minimum requirement of potential effectiveness, was too great; so the F DA
directed manufacturers to present evidence of efficacy that led to standards necessary to
receive full approval. And true, though the safety follow-up necessary to receive an EUA
is much shorter than would otherwise be required, the FDA made this conclusion based
on its expert assessment and experience that significant latent negative outcomes
associated with vaccinations traditionally occur within six weeks of receipt.114
Indiana University closely considered the F DA’s EUA requirements when
adopting its policy. The specialists on the university restart committee appreciated that

The industry guidance has since been superseded twice, once in February 2021 and once in May 2021.
FDA, Emergency Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry (May 2021). Pfizer,
Moderna, and Johnson & Johnson’s applications were submitted in accordance with the October 2020
guidance, see FDA, Emergency Use Authorization (EUA) for an Unapproved Product Review Memorandum
(Pfizer-BioNTech) (2020) (application submitted November 20, 2020); F DA, Emergency Use Authorization
(EUA) for an Unapproved Product Review Memorandum (Moderna) (2020) (application submitted November
30, 2020); FDA, Emergency Use Authorization (EUA) for an Unapproved Product Review Memorandum (Janssen)
(2021) (application submitted February 4, 2021).

113

Philip R. Krause & Marion Gruber, Emergency Use Authorization of Covid Vaccines—Safety and Efficacy
Follow-up Considerations, 383 N. Engl. J. Med. e107 (Nov. 5, 2020).
114

78

Appendix 85a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 79 of 101

all three COVID-19 vaccines had been “studied in robust multi-centered, international,
randomized-controlled trials and proven both effective and safe in millions of people”
[Ex. 115 ¶ 60; see also Ex. 115 ¶ 24, 61-69]. These specialists explained that the EUA
vaccines had been based on technology that has been studied for decades [id. ¶ 87].
Though even “small differences in chemical structure can sometimes make very large
differences in the type of toxic response that is produced,” McClain v. Metabolife Intern,
Inc., 401 F.3d 1233, 1246 (11th Cir. 2005); accord Glastetter, 252 F.3d at 990, much like the
FDA, the university concluded that campus safety reasonably outweighed any lingering
risks with the vaccines. This wasn’t just any ordinary EUA process, but EUA on
proverbial steroids. The university reasonably concluded that the “benefit dwarfs the
potential rare risks” [Ex. 115 ¶ 87].
Progress has been made because of the vaccine, not despite it. To the extent that
lingering medical and scientific debate remain on this record, the court remains resolved
that Indiana University has acted reasonably here in pursuing public health and safety
for its campus communities [cf. Exs. 115, 116].115 See Gonzales, 550 U.S. at 163 (state
F or instance, Dr. McCullough says the vaccine manufacturers “skipped testing” for genotoxity,
mutagenicity, teratogen[i]city, and oncogenicity” [Ex. 117 ¶ 36]. Dr. Beeler explains that this claim,
including the suspicion about mutagenesis, takes a “backwards view of how RNA works in the cell and
[is] not currently supported by consensus opinion” [Ex. 115 ¶ 64]. Concerns about the impact of a vaccine
on fertility are largely addressed by the policy because Indiana University allows exemptions for pregnant
women [Ex. 115 ¶ 86]. Naturally, truly measuring the impact of any intervention, or disease for that matter,
on overall fertility to any degree of certainty requires longitudinal and perhaps even generational studies.
Even under the FDA’s full approval requirements for a COVID-19 vaccine, a manufacturer is not required
to submit data on the long-term impact on overall fertility in the population to receive approval. F DA,
Development and Licensure of Vaccines to Prevent COVID-19: Guidance for Industry 7 (June 2020). Instead, the
agency recommends conditioning the enrollment of pregnant women and “women of childbearing
potential who are not avoiding pregnancy” in a clinical trial on the completion of Developmental and
Reproductive Toxicology (DART) studies. FDA, Development and Licensure of Vaccines to Prevent COVID-19:
Guidance for Industry 7, 11 (June 2020). A similar recommendation appears in the EUA guidance. Emergency
Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry 9 (October 2020). Though DART

115

79

Appendix 86a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 80 of 101

legislatures have “wide discretion to pass legislation in areas where there is medical and
scientific uncertainty”); Zucht, 260 U.S. at 176 (“municipality may vest in its officials
broad discretion in matters affecting the application and enforcement of a health law”).
Today, Indiana University has a rational basis to conclude that the COVID-19
vaccine is safe and efficacious for its students. The vaccine has been used on about 157
million Americans; and data now about eight months later, though it will grow more
robust in years to come, is considerable and shows major side effects are rare. Much like
over 500 universities and colleges in the United States that have done the same,116 Indiana

studies review many components of fertility and pregnancy in animal models, FDA, S5(R3) Detection of
Reproductive and Developmental Toxicity for Human Pharmaceuticals Guidance for Industry (May 2021), the
application of these studies to the approval or a COVID-19 vaccine relate to the testing, marketing, and use
of vaccines in pregnant women and in women who could imminently become pregnant, see FDA,
Development and Licensure of Vaccines to Prevent COVID-19: Guidance for Industry 7, 11 (June 2020); Emergency
Use Authorization for Vaccines to Prevent COVID-19: Guidance for Industry 9 (October 2020). And though
DART studies in animals certainly shed light on greater concerns about fertility and are important, full
vaccine approval is not conditioned on fertility studies in women or men. See id. Instead, the impact of a
vaccine on pregnancy and pregnancy outcomes in women is a vital post-approval safety assessment. see
FDA, Development and Licensure of Vaccines to Prevent COVID-19: Guidance for Industry 17 (June 2020).
Moderna and Johnson & Johnson submitted DART studies as part of their EUA applications. Both
manufacturers identified no fertility or development concerns based on these studies. FDA, Vaccines and
Related Biological Products Advisory Committee December 17, 2020 Meeting Presentation—Emergency Use
Authorization (EUA) Application for mRNA-1273 (Dec. 17, 2020); Janssen Biotech, Inc, Vaccines and Related
Biological Products Advisory Committee Meeting February 26, 2021 (F eb. 26, 2021). Pfizer submitted DART
results after its EUA was granted. The studies showed the vaccine did not impact female fertility or
development, albeit in rats. Christopher J. Bowman et al., Lack of Effects on Female Fertility and Prenatal and
Postnatal Offspring Development in Rats with BNT162b2, a mRNA-based COVID-19 Vaccine, 103 Reproductive
Toxicology 28 (Aug. 2021).
Andy Thomason and Brian O’Leary, Here’s a List of Colleges That Will Require Students or Employees to Be
Vaccinated Against Covid-19, The Chronicle of Higher Education (July 15, 2021),
https://www.chronicle.com/blogs/live-coronavirus-updates/heres-a-list-of-colleges-that-will-requirestudents-to-be-vaccinated-against-covid-19?cid2=gen_login_refresh (“The Chronicle has so far identified
583 such campuses.”). Generally, courts “should not invade the domain of local authority except when it
is necessary to do so” to enforce fundamental rights. Jacobson, 197 U.S. at 38. In addition to the Fourteenth
Amendment’s protections, a wide variety of states have enacted legislation relating to vaccine mandates or
vaccine documentation, including Ohio just this last week. See 2021 Bill Text OH H.B. 244, Sec. 3792.04(B)(1)
(signed into law on July 14, 2021); cf., e.g., Ark. Code Ann. § 20-7-142 (prohibiting vaccine mandate); Fla.
Stat. § 381.00316 (prohibiting governmental entities from requiring COVID-19 vaccination documentation
and prohibiting educational institutions from requiring that students provide COVID-19 vaccination
documentation); 2021 Bill Text CA A.B. 327 (proposed) (bill that would prohibit entities from requiring
116

80

Appendix 87a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 81 of 101

University reasonably relies on the vaccine as a measure to return to normal school
functioning. The students say the mandate is unreasonable because no other Indiana
government agency mandates the vaccine. But just because it has gone above what others
have done doesn’t make it unreasonable. Indeed, universities are unique places, with lots
of people gathered and living together in close quarters for months at a time. That Indiana
University’s mandate goes beyond what other public universities in Indiana have done
doesn’t compel a finding that this policy is unreasonable; indeed, other universities in the
state have mandated the vaccine, and many others around the country have too.
Indiana University is following the recommendations of other well-established
agencies, including the Centers for Disease Control, U.S. Department of Education, and
the Indiana State Department of Health. These are reliable sources to assess the
reasonableness of measures implemented, though the court must be cautious not to
expand the guidance beyond what it says. See United States v. Newton, 996 F.3d 485, 489
(7th Cir. 2021); Mays v. Dart, 974 F.3d 810, 823 (7th Cir. 2020), cert. filed. To be sure, the
CDC doesn’t recommend that schools “mandate” the vaccine—a point the students
make—but such a recommendation isn’t consistent with the CDC’s purview, which is to
act as an informative agency. At the same time, the university’s policy isn’t inconsistent
with the CDC’s recommendations. The CDC says institutions of higher learning “can
return to full capacity in-person learning, without requiring or recommending masking
or physical distancing for people who are fully vaccinated” [Ex. 116 ¶ 12]. The CDC’s

COVID-19 vaccination documentation). The court will not overstep into the legislative sphere when the
state’s or state arm’s conduct has complied with the Constitution.

81

Appendix 88a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 82 of 101

guidance to universities is that “[v]accination is the leading prevention strategy to protect
individual from COVID-19 disease and end the COVID-19 pandemic.”117 This will
enhance the student body’s opportunities, allowing them to have a more fulfilling college
experience.
Vaccination helps the university get to herd immunity. As its expert, Dr. Beeler,
has said, COVID-19 vaccination is an important tool to help stop the pandemic because
widespread vaccination will help achieve “herd immunity,” which is when enough
people in a community are sufficiently protected from COVID-19 to stem its spread [Ex.
115 ¶ 19-20].118 To be sure, experts debate whether herd immunity is achievable for
COVID-19 [Ex. 115 ¶ 21], but Indiana University rationally believes vaccination is the
leading prevention strategy to protect individuals from COVID-19 disease. According to
Dr. Beeler, “Indiana has not reached herd immunity” [Ex. 115 ¶ 43; see also Exs. 128 at 60,
129 at 23]. As Dr. Beeler explains, “immunity is not static with this virus, and things do
change specifically as it relates to variants of concern. . . . The longer that the coronavirus
remains in the population, each vulnerable individual that gets infected is the
opportunity for further mutations in the virus. And eventually, just by evolutionary
theory, the virus will develop ways to bypass the current immune stress” [Ex. 128 at 61].
The mutability of COVID-19 remains higher than other conditions addressed by a single

117 CDC, Guidance for Institutions of Higher Education (IHEs) (last updated June 4, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/community/colleges-universities/considerations.html.
118
See CDC, COVID-19 Vaccines Are Free to the Public (last visited June 27, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/no-cost.html; CDC, K ey Things to K now about
COVID-19
Vaccines
(last
visited
June
27,
2021)
(“CDC
Key
Things”),
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/keythingstoknow.html.

82

Appendix 89a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 83 of 101

vaccine, like measles, mumps, and rubella [id. at 151-52]. With the variants of concern
affecting recent numbers, and based on Dr. Beeler’s well-reasoned explanation, the court
tends not to credit Dr. McCullough’s viewpoint that herd immunity has already been
achieved.
Overall, the students’ arguments amount to disputes over the most reliable
science. But when reasonable minds can differ as to the best course of action—for
instance, addressing symptomatic versus asymptomatic virus spread or any number of
issues here—the court doesn’t intervene so long as the university’s process is rational in
trying to achieve public health. See, e.g., Phillips, 775 F.3d at 542 (“plaintiffs argue that a
growing body of scientific evidence demonstrates that vaccines cause more harm to
society than good, but as Jacobson made clear, that is a determination for the
[policymaker], not the individual objectors”). There is a rational basis for making
distinctions here. No student, including those not yet exempt, have shown that Indiana
University’s vaccine mandate as applied to them violates rational basis review. The court
thus denies their request to enjoin it preliminarily.
5.

On This Preliminary Record, Exempt Students Haven’t Shown a
Likelihood of Success on their Claim that Indiana University Lacks a
Rational Basis for Its Vaccine Policy, Including Additional Requirements.

Six students are exempt from the vaccination mandate but challenge the additional
measures of mask wearing, testing, and social distancing: Ryan Klaassen (Ex. 100 ¶ 18081), Jaime Carini (¶ 182-95), Macey Policka (¶ 207-08), Daniel Baumgartner (¶ 196-200),
Ashlee Morris (¶ 201-04), and Seth Crowder (¶ 205-06). Collectively, they argue that these
requirements, oft-used over the last year, infringe on their bodily autonomy, medical

83

Appendix 90a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 84 of 101

privacy, religious beliefs, and essentially become a “scarlet letter” targeting them for
bullying and scorn from their peers for their medical conditions or religious beliefs.119
Indiana University first challenges this argument on a procedural ground. It says
these students failed to challenge its masking or testing policies in their complaint. They
cite to the well-known legal principle that “a plaintiff is the master of her own complaint,”
and that courts shouldn’t read unalleged assertions into a complaint. Thornley v. Clearview
AI, Inc., 984 F.3d 1241, 1246 (7th Cir. 2021); see also Caterpillar, Inc. v. Williams, 482 U.S. 386,
398-99 (1987). The complaint isn’t so narrowly pleaded. It gives fair notice that the
students are challenging the vaccine mandate and the policy’s additional requirements.
See Fed. R. Civ. P. 8(a)(2); Bell Atl. Corp. v Twombly, 550 U.S. 544, 555 (2007).
Indiana University’s vaccine mandate is multifaceted. It requires all students,
faculty, and staff to receive a COVID-19 vaccine and report their vaccination status, or to
obtain an exemption and comply with the additional requirements. The university lumps
the various parts of this mandate under a general “COVID-19 vaccine requirement”
umbrella. For instance, on Indiana University’s “frequently asked questions” page about
its COVID-19 vaccination requirement, the section provides that vaccinations are
required, the deadlines for such vaccinations, the need for students to report vaccination
status, the exempted categories, and the additional requirements imposed on exempted
students, along with the consequences for failing to get a vaccine [Ex. 118 at 3-6].

The scarlet letter is a literary reference to a mark that identifies one as belonging to a certain group in a
scornful or ostracizing way. See Nathaniel Hawthorne, The Scarlet Letter (1850).

119

84

Appendix 91a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 85 of 101

Because the students challenge the additional requirements under substantive due
process, the court again begins by first examining the specific right they assert. See Doe,
377 F.3d at 768. These students argue that they have rights to refrain from wearing a mask
and to refuse nasal testing. But there is no fundamental constitutional right to not wear a
mask. Kelly v. ImagineIF Library Entity, 2021 U.S. Dist. LEXIS 111958, 8 (D. Mont. June 15,
2021); Whitfield v. Cuyahoga Cnty. Pub. Library Found., 2021 U.S. Dist. LEXIS 92944, 4 (N.D.
Ohio May 17, 2021); Denis v. Ige, __ F. Supp.3d __, 2021 U.S. Dist. LEXIS 91037, 14 (D.
Haw. May 12, 2021); W.S. by Sonderman v. Ragsdale, __ F. Supp.3d __, 2021 U.S. Dist. LEXIS
98185, 5 (N.D. Ga. May 12, 2021); Forbes v. City of San Diego, 2021 U.S. Dist. LEXIS 41687,
11 (S.D. Cal. Mar. 4, 2021); Stewart v. Justice, __ F. Supp.3d __, 2021 U.S. Dist. LEXIS 24664,
20 (S.D. W. Va. Feb. 9, 2021); Oakes v. Collier Cnty., 2021 U.S. Dist. LEXIS 15174, 4 (M.D.
Fla. Jan. 27, 2021); Shelton v. City of Springfield, 497 F. Supp.3d 408, 414 (W.D. Miss. 2020);
see also Ryan v. Cnty. of DuPage, 45 F.3d 1090, 1092 (7th Cir. 1995) (no constitutional right
to wear a mask); United States v. Berglund, 2021 U.S. Dist. LEXIS 78476, 2 (D. Minn. Apr.
23, 2021) (“Courts have repeatedly found that requiring participants at trial to wear face
masks due to the COVID-19 pandemic does not violate a criminal defendant’s
constitutional rights.”).120 Nor is there a fundamental constitutional right to not be tested
for a virus before entering a place of public accommodation. Aviles v. De Blasio, 2021 U.S.
Dist. LEXIS 38930, 50 (S.D.N.Y. Mar. 2, 2021); see also Webb v. Johnson, 2021 U.S. Dist. LEXIS

Plaintiffs cite to a recent Florida state court decision which held, based on its state constitution, that the
right to privacy applies to a mask-wearing mandate, triggering strict scrutiny. See Green v. Alachua Cnty.,
2021 Fla. App. LEXIS 8634 (Fla. Dist. Ct. App. June 11, 2021). But as this case makes clear, it is based on
Florida’s state constitution, not the federal constitution. It is thus inapposite here.

120

85

Appendix 92a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 86 of 101

95392, 13 (D. Neb. Mar. 2, 2021) (D. Neb. May 19, 2021) (prisoner had no fundamental
right to refuse having his temperature taken); Wilcox v. Lancour, 2021 U.S. Dist. LEXIS
11968, 23-24 (W.D. Mich. Jan. 22, 2021) (prisoner had no fundamental right to refuse a
nasal passage test for COVID-19); Little Rock Family Planning Servs. v. Rutledge, 458 F .
Supp.3d 1065, 1074 (E.D. Ark. 2020) (applying Jacobson to uphold requirement that
women obtain negative COVID-19 test before medical procedure).
The court declines the students’ invitation to expand substantive due process
rights to include the rights not to wear a mask or to be tested for a virus. These aren’t
rights so “deeply rooted in this Nation’s history and tradition” and so “implicit in the
concept of ordered liberty” such that “neither liberty nor justice would exist if they were
sacrificed.” Washington v. Glucksberg, 521 U.S. 702, 721 (1997) (quotation omitted); Khan v.
Bland, 630 F.3d 519, 535 (7th Cir. 2010). These aren’t issues of fundamental constitution
import, but often transient and trivial inconveniences.
But wait, certain students say: mask wearing and testing violates their religion.
The First Amendment says “Congress shall make no law . . . prohibiting the free exercise”
of religion. U.S. Const. amend. I. The right to exercise religion is fundamental. See
Cantwell v. Connecticut, 310 U.S. 296, 303 (1940). As a fundamental right, it would trigger
strict scrutiny, but the Supreme Court has held that general regulations that have the
effect of incidentally burdening religious practices in general and neutral ways need only
be rationally supported by the state. “[T]he right of free exercise does not relieve an
individual of the obligation to comply with a valid and neutral law of general
applicability on the ground that the law proscribes (or prescribes) conduct that his
86

Appendix 93a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 87 of 101

religion prescribes (or proscribes).” Smith, 494 U.S. at 879 (quotation omitted); accord Ill.
Bible Colleges Ass’n v. Anderson, 870 F.3d 631, 639 (7th Cir. 2017).
Indiana University’s extra requirements fit within the neutral and generally
applicable laws protected by Smith. The vaccine mandate contains an early reference to
religion by way of exemption; but this isn’t used to burden religion, but instead gives
those of religious conviction the benefit of freely practicing their religious conviction to
refuse the vaccine. See Listecki v. Official Comm. of Unsecured Creditors, 780 F.3d 731, 744
(7th Cir. 2015) (“A benefit to religion does not disfavor religion in violation of the Free
Exercise Clause.”); see also Smith, 494 U.S. at 888 (Scalia, J.) (no exemption required). The
students who received the religious exemption are subject to the same extra requirements
as those who receive the medical exemption.
One may well applaud the university for going beyond what the constitution
requires: courts have consistently held that schools that provided a religious exemption
from mandatory vaccination requirements did so above and beyond that mandated by the
Constitution. See Nikolao, 875 F.3d at 316; Phillips, 775 F.3d at 543; Workman, 419 F. Appx.
at 356; Whitlow, 203 F. Supp.3d at 1084; Boone, 217 F. Supp.2d at 954. What the students
request now is a religious exemption from the religious exemption, but Indiana
University has no obligation to provide this. See Smith, 494 U.S. at 879.
On this record, the court finds no merit in the students’ contention that wearing
masks essentially labels them with a “scarlet letter” that targets them for religious
bullying. Indiana University has both medical and religious exemptions, and the same
requirements are imposed on both groups. There is no evidence that any exempted
87

Appendix 94a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 88 of 101

person must reveal publicly which exemption they obtained. Wearing masks thus doesn’t
signify to others that the individual religiously objects to the vaccination; they could fall
within either exempted category, or they could be a vaccinated individual who chooses
to take the extra (and unrequired) precaution to wear a mask. A student wearing a mask
may well just be precautious in light of COVID-19 variants or because of
immunosuppressing conditions. This record is devoid of any evidence of bullying or
discrimination.
To be sure, there are some unique circumstances when wearing a mask could
negatively impact the student’s educational experience. F or example, Jaime Carini is
pursuing doctorates in organ performance and literature and musicology and, to
complete her graduate program, she must perform at organ recitals [Ex. 121 at 22, 27].
She believes performing these recitals while masked will have an impact on her
performance as an organist, who use their whole bodies to perform [id. 90]. Similarly,
Macey Policka is pursuing a degree in theater with an emphasis on acting, and she says
the mask requirement is “devastating” to her education [Ex. 125 at 41]. She says wearing
a mask has a huge impact on how she can interact with other actors and will put her at a
distinct disadvantage to other student actors who don’t have to wear masks [id.]. Though
the court sympathizes with these concerns, these are matters for the university reasonably
to address, not matters of constitutional import.
The students once more assert another alleged right—this time the right to the
confidentiality of their medical information—to obtain strict scrutiny. But this circuit has
never recognized one’s constitutional right to privacy to medical information. Franklin v.
88

Appendix 95a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 89 of 101

McCaughtry, 110 F. Appx. 715, 719 (7th Cir. 2004); Rowe v. Wexford of Ind., 2021 U.S. Dist.
LEXIS 31766, 3-4 (N.D. Ind. Feb. 22, 2021). This right may exist by statute, but isn’t found
in the Constitution. And this circuit recognized that such a right, if any, is minimized
when in the public context. See Franklin, 110 F . Appx. at 719 (describing hospital
emergency rooms, doctor’s offices, and school infirmaries). The court declines finding
such a fundamental right in the context here.
That said, the court applies rational basis review for the extra requirements of
masks and testing for the exempted students. Indiana University has a legitimate interest
in promoting the health and safety of its students. And the masks and testing are
rationally related to achieving those measures. This is true for several reasons.
F irst, both vaccinated and unvaccinated people can still get the virus. Though
health experts differ on the efficacy of masks in preventing the spread of COVID-19, such
a dispute is left to the resolution of the policymakers, particularly when studies have
shown universal mask wearing resulted in decreases in COVID rates than populations
that forewent masks [Ex. 128 at 108]. And social distancing continues to be recommended
by the CDC and health experts as effective at eliminating the spread of the disease.121 The
students offer no sound evidence that social distancing isn’t effective.
Second, the CDC says schools should account for students, faculty, and staff who
aren’t vaccinated.122 And it has continued to recommend masks and social distancing for

CDC, How to Protect Yourself & Others, https://www.cdc.gov/coronavirus/2019-ncov/prevent-gettingsick/prevention.html (updated June 11, 2021).
121

CDC, Guidance for Institutions of Higher Education (IHEs), https://www.cdc.gov/coronavirus/2019ncov/community/colleges-universities/considerations.html#section1 (updated June 4, 2021).
122

89

Appendix 96a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 90 of 101

these individuals.122 This is consistent with what Indiana University has already done for
a semester as well.
Third, even students who feel fine and don’t have a fever may still have the virus
as an asymptomatic individual, so the heightened precautions as to them continue to be
rational.123 Despite the low mortality rates, young adults can still transmit the virus to
others [Ex. 115 ¶ 10-11]. For those with milder or even asymptomatic cases, as is more
prevalent in this age group, the risk of inadvertent transmission grows [Ex. 115 ¶ 53-55].
F ourth, these measures are reasonable in scope. The testing methods are
reasonable for the circumstances: they plan to use a rather non-intrusive saliva test. See
Banks v. United States, 490 F.3d 1178, 1189 (10th Cir. 2007) (“saliva tests impose minimal
intrusions”); Padgett v. Ferrero, 294 F . Supp.2d 1338, 1342 (N.D. Ga. 2003) (“bodily
intrusion of taking . . . saliva sample is minimal”); see also Wilson v. Collins, 517 F.3d 421,
428 (6th Cir. 2008) (saliva sample is less intrusive than blood drawing). Though this form
of testing may be less reliable than nasal testing, it is significantly less intrusive—and
given that the students’ assert their right to bodily autonomy, this is a good thing. Though
it may present some inconvenience for the students by taking time away from their
studies, this impact is minimal and within the sound discretion of the school.
Fifth, students have lived with mask mandates for over a year now, so it is nothing
that is unreasonable, at least not when the risk still exists. These students have worn

See, e.g., Sten H. Vermund & Virginia E. Pitzer, Asymptomatic Transmission and the Infection Fatality Risk
for COVID-19: Implications for School Reopening, 72(9) Clin. Infect. Dis. 1493-96 (May 1, 2021) (Yale
researchers conclude that asymptomatic transmission “likely represents a substantial proportion of total
new infections”).
123

90

Appendix 97a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 91 of 101

masks at school, stores, work, church, and even at a casino. In other contexts, the
government has lawfully mandated wearing protective gear, like a mask, when it also
provides benefits to the public—like mandated bicycle helmets, hair nets, ear plugs, and
any number of personal protective equipment. See, e.g., Burr v. Atty. Gen. Delaware, 641 F.
Appx. 194, 196 (3d Cir. 2016) (per curiam) (seatbelt mandate held constitutional); Picou v.
Gillum, 874 F.2d 1519, 1519 (11th Cir. 1989) (Powell, J.) (state statute requiring motorcycle
riders to wear protective headgear was constitutional). It is no less reasonable here.
B.

Irreparable Harm & Adequate Remedy at Law.

Irreparable harm is “harm that cannot be repaired and for which money
compensation is inadequate.” Orr, 953 F.3d at 502 (quoting Graham v. Med. Mut. of Ohio,
130 F .3d 293, 296 (7th Cir. 1997)) (quotations omitted). To the extent that the students
establish a constitutional harm, the law presumes irreparable harm. See, e.g., Cuomo, 141
S. Ct. at 67-68 (First Amendment free exercise of religion); Elrod v. Burns, 427 U.S. 347, 373
(1976) (First Amendment political association); Christian Legal Society v. Walker, 453 F.3d
853, 859 (7th Cir. 2006) (“loss of First Amendment freedoms is presumed to constitute an
irreparable injury”); Ezell v. City of Chicago, 651 F .3d 684, 699 (7th Cir. 2011) (Second
Amendment); Preston v. Thompson, 589 F.2d 300, 303 n.3 (7th Cir. 1978) (“The existence of
a continuing constitutional violation constitutes proof of an irreparable harm.”); Doe v.
Mundy, 514 F.2d 1179, 1183 (7th Cir. 1975) (right to privacy); Democratic Nat. Committee v.
Bostelmann, 447 F . Supp.3d 757, 769 (W.D. Wis. 2020); Planned Parenthood of Ind. v.
Commissioner, 194 F. Supp.3d 818, 835 (S.D. Ind. 2016) (presuming equal protection and
substantive due process harms irreparable); 11A Wright & Miller, F ederal Practice &
91

Appendix 98a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 92 of 101

Procedure § 2948.1 (2d ed. 1995) (“When an alleged deprivation of a constitutional right
is involved . . . most courts hold that no further showing of irreparable injury is
necessary.”). That remains true only with the vaccine mandate.
That doesn’t mean every alleged harm in this case is irreparable. A delay in
collegiate or graduate education isn’t typically irreparable harm. See, e.g., Phillips v. Marsh,
687 F.2d 620, 622 (2d Cir. 1982); Hodges v. Bd. of Supervisors, 2020 U.S. Dist. LEXIS 153949,
7 (E.D. La. Aug. 25, 2020); Pierre v. University of Dayton, 143 F. Supp.3d 703, 714 (S.D. Ohio
2015) (“[C]ourts have also held that a suspension is not irreparable.”); Baer v. Nat’l Bd. of
Med. Examiners, 392 F. Supp.2d 42, 49 (D. Mass. 2005) (inability to continue as medical
student without interruption is not a harm that is irreparable to potential medical career).
Each exempted student testified that he or she wore masks on many occasions
during the pandemic.124 Any concerns about the hypothetical segregation or
discrimination are only speculative and don’t constitute irreparable harm. See Duthie v.
Matria Healthcare, Inc., 543 F. Supp.2d 958, 960 (N.D. Ill. 2008). Several students have been
tested for COVID-19 multiple times with no irreparable harm. And though a few students
cite concerns about the safety of nasal testing swabs, Indiana University’s testing uses
saliva. Though some students say the extra requirements are unnecessary or
inconvenient, neither concern rises to the level of irreparable harm. See, e.g., Students v.
United States Dep’t of Education, 2016 U.S. Dist. LEXIS 150011, 125 (N.D. Ill. Oct. 18, 2016);
Right Field Rooftops, LLC v. Chicago Baseball Holdings, LLC, 87 F. Supp.3d 874, 895 (N.D. Ill.
See Ex. 120 at 27 (Ryan Klaassen); Ex. 121 at 44 (Jaime Carini); Ex. 122 at 19-20 (Danial Baumgartner); Ex.
123 at 35-36 (Ashlee Morris); Ex. 124 at 22 (Seth Crowder); Ex. 125 at 17 (Macey Policka); Ex. 126 at 31
(Margaret Roth); Ex. 127 at 29-32 (Natalie Sperazza).
124

92

Appendix 99a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 93 of 101

2015) (“inconvenience does not show that harm would be irreparable); Lewis v. Silverman,
2005 U.S. Dist. LEXIS 20347, 6-7 (N.D. Ind. Sept. 16, 2005).
Wearing masks, undergoing surveillance testing, and social distancing also aren’t
indicative of irreparable harm, but consistent with CDC guidelines [Ex. 129 at 28]. See
Orr, 953 F.3d at 502 (defining irreparable harm). For these particular circumstances, the
students also have an adequate remedy at law—money damages. The presumption that
money is never an adequate remedy for constitutional violation is wrong. See Campbell v.
Miller, 373 F.3d 834, 835 (7th Cir. 2004). Such damages would be normal and adequate to
address what, even in the most severe light, to be no more than a personal injury. See id.
To be inadequate, a remedy needn’t be “wholly ineffectual,” but it must be
“seriously deficient as compared to the harm suffered.” Foodcomm Intern. v. Barry, 328
F .3d 300, 304 (7th Cir. 2003). If there were to be a constitutional injury here, the court
could see that there is no adequate remedy at law if it didn’t issue the preliminary
injunction. That is less potent when the likelihood of success is so low. See Adams v. City
of Chicago, 135 F.3d 1150, 1154 (7th Cir. 1998) (if court finds neither irreparable harm nor
a likelihood of success, the “analysis ends and the preliminary injunction should not be
issued”); Dish Network LLC v. Cox Media Grp., LLC, 2020 U.S. Dist. LEXIS 126850, 20 (N.D.
Ill. July 20, 2020) (plaintiff’s “failure to demonstrate a reasonable likelihood of success on
the merits alone is enough to deny its motion”); Geneva Intern. Corp. v. Petrof, SPOL,
S.R.O., 529 F. Supp.2d 932, 940 (N.D. Ill. 2007) (“Because [plaintiff] fails to demonstrate
irreparable harm, we need not continue to analyze the remaining factors.”).

93

Appendix 100a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 94 of 101

In short, the court presumes the students could establish irreparable harm and the
absence of an adequate remedy at law, except as noted here.
C.

The Balance of the Harms and Public Interest Favor Indiana University.

The balance of harms against the parties and the public interest favor denying the
preliminary injunction. This is a sliding scale analysis. The court “weighs the balance of
potential harms” against “the movant’s likelihood of success.” Turnell, 796 F.3d at 662.
The more likely the plaintiff is to win, the less the balance of harms needs to favor them;
the less likely, the more it must weigh in their favor. Id. The court has already said the
students’ likelihood of success is low, and the odds favor the university.
To be sure, the students have a significant liberty interest in refusing unwanted
medical treatment. Telling them they must take unwanted medical treatment is a
significant intrusion on their liberty. And under the harm principle, “the only purpose
for which power can be rightfully exercised over any member of a civilized community,
against his will, is to prevent harm to others.” John Stuart Mill, On Liberty 9 (1859); see
Cassell, 990 F.3d at 550. If the students’ decision to refuse the vaccine affected themselves
alone, the balance of harms would almost certainly weigh in favor of granting a
preliminary injunction.
But the evidence reasonably shows that they aren’t the only ones harmed by
refusing to get vaccinated: refusing while also not complying with heightened safety
precautions could “sicken and even kill many others who did not consent to that tradeoff.” Cassell, 990 F.3d at 550. This certainly impacts the public interest: the students “are
not asking to be allowed to make a self-contained choice to risk only their own health” in
94

Appendix 101a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 95 of 101

making this decision—their decision necessarily bears on the health of other students,
faculty, and staff. Id. The balance of harms doesn’t weigh in the students’ favor here.
And because the students aren’t being forced to take the vaccine against their will,
the harm is demonstrably less. Though the students may have to forego a semester of
school or transfer somewhere else—certainly a difficult and inconvenient choice, and not
one lightly tossed aside—they have options. Other colleges in Indiana and around the
nation haven’t mandated vaccines. Indiana University says it will reassess the mandate
after this semester. This mandate will also enhance the academic environment for all
students, faculty, and staff by fostering in-person education and a more traditional
college experience, educationally and socially. Today, based on this record, the balance
of harms tilts heavily in favor of the university.
The public interest also favors denying a preliminary injunction. The court isn’t a
policymaker: that role is left to the States. On multiple occasions, the Supreme Court has
“recognized the role of the States as laboratories for devising solutions to difficult legal
problems.” Arizona State Legislature v. Arizona Independent Redistricting Commission, 576
U.S. 787, 817 (2015) (quoting Oregon v. Ice, 555 U.S. 160, 171 (2009)); United States v. Lopez,
514 U.S. 549, 581 (1995) (Kennedy, J., concurring) (“States may perform their role as
laboratories for experimentation to devise various solutions where the best solution is far
from clear”); New State Ice Co. v. Liebmann, 285 U.S. 262, 311 (1932) (Brandeis, J.,
dissenting) (“It is one of the happy incidents of the federal system that a single
courageous state may, if its citizens choose, serve as a laboratory; and try novel social and
economic experiments without risk to the rest of the country.”). Enabling the this state
95

Appendix 102a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 96 of 101

university to work through these problems reasonably fosters public health and safety in
areas of scientific uncertainty. See Gonzales, 550 U.S. at 163 (citing Jacobson, 197 U.S. at 3031) (the law gives “wide discretion to pass legislation in areas where there is medical and
scientific uncertainty”); Cassell, 990 F.3d at 549 (“scientific uncertainty surrounding the
pandemic further cautions against enjoining state coronavirus responses unless
absolutely necessary”); see also Cuomo, 141 S. Ct. at 68 (“Members of this Court are not
public health experts”).
To be sure, if the students had shown a likelihood that the university was
unreasonably infringing on their constitutional rights, enjoining that violation would be
in the public interest. See Joelner v. Village of Washington Park, 378 F.3d 613, 620 (7th Cir.
2004) (“upholding constitutional rights serves the public interest”) (quoting Newsom v.
Albermarle Cnty. Sch. Bd., 354 F.3d 249, 261 (4th Cir. 2003)); Ind. Fine Wine & Spirits, LLC v.
Cook, 459 F. Supp.3d 1157, 1171 (S.D. Ind. 2020) (same). But this concern doesn’t apply
here because the students have a low likelihood of success.
In short, the balance of harms and the public interest favor Indiana University and
the determination that it has reasonably determined the best course of action for the
health of its academic community this upcoming fall semester. And in doing so, Indiana
University plans to return sooner to normal operations—thus serving much more than
just its academic community.
D.

What This Opinion Isn’t.

Don’t misread it. The court is not declaring the absolute safety and efficacy of the
vaccines, or for all people. People need to understand the risks, remain informed as the
96

Appendix 103a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 97 of 101

science evolves, monitor the review before the F DA, and determine whether to take a
vaccine. The court must decide this case on the evidence before it. The evidence today
shows that the students have little chance of success: Indiana University is reasonably
pursuing a legitimate aim of public health for its students, faculty, and staff.
This university policy isn’t forced vaccination. The students have options—taking
the vaccine, applying for a religious exemption, applying for a medical exemption,
applying for a medical deferral, taking a semester off, or attending another university.
This policy applies for the fall 2021 semester only. Students may make their choice after
being advised of the risks and benefits of the vaccines, thereby giving informed consent.
The court recognizes that for certain students this may prove a difficult choice, but a
choice nonetheless. The choice isn’t so coercive as to constitute irreparable constitutional
harm. Although it proves a condition to attend this fall, it is reasonable under the
Constitution.
This isn’t a decision after a final trial on the merits. The court has made this
decision based on evidence, testimony, and briefing that the parties produced on an
emergent timetable. They and their skilled counsel should be commended for the quality
of their submissions, particularly under tight demands. But not every stone has been
unturned by the parties. Not every study has been hashed out or submitted for the court
to read. Not every witness has testified. Although constituting more than 100 exhibits
and testimony from many individuals, including proposed experts, much of which then
refers the court to innumerable studies and articles that it has endeavored to review

97

Appendix 104a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 98 of 101

carefully, much in these five days, this still is a preliminary record, with an opinion issued
urgently given the interests of these parties.
The court also isn’t saying Indiana University (or any other State or state entity)
may do whatever it wants to address COVID-19. Given the liberty at stake for these
students here, the university must act reasonably in achieving a legitimate state goal of
public health. The F ourteenth Amendment’s due process clause checks that authority.
Today’s decision doesn’t provide carte blanche authority for Indiana University to do as it
pleases without regard to the Constitution. For instance, in the future, the goal of seeing
zero or very low new positive cases as a rolling average in attainment of herd immunity
may or may not prove reasonable [see Ex. 242 at 62-63], but those aren’t the circumstances
now facing the university, and those aren’t the circumstances now presented to the court.
Speculative concerns about hypothetical future events don’t show irreparable harm.
Duthie v. Matria Healthcare, Inc., 543 F. Supp.2d 958, 960 (N.D. Ill. 2008).
The policy will no doubt evolve. The court questioned the parties about the scope
of the university’s medical exemption. The university’s standard vaccination policy,
originating from the General Assembly’s mandate that public university students receive
certain vaccinations, contains an exemption for medical contraindications,125 with
support from a physician’s statement [Ex. 229]. Whereas, curiously, the university’s
COVID-19 policy preserves medical exemptions only for allergies to vaccine ingredients,

A contraindication is any “condition[] in a recipient that increases the risk for a serious adverse reaction.”
CDC, General Best Practice Guidelines for Immunization: Best Practices Guidance of the Advisory Committee on
Immunization
Practices
(ACIP),
https://www.cdc.gov/vaccines/hcp/acip-recs/generalrecs/contraindications.html.
125

98

Appendix 105a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 99 of 101

not contraindications—ostensibly a narrower basis for exemption for an EUA vaccine
than for other decades-existing vaccines.
At oral argument, Indiana University explained that, at the time of adoption,
allergies proved the only contraindication and that the university has applied its medical
exemption more broadly. There is some evidence for this in the record [see, e.g., Ex. 128 at
84-88]. Four physicians on the university medical team consider any requested medical
exemption and work with the student’s physician to address any immunocompromising
condition (and, at times, try to educate the physician on certain pathophysiologies that
aren’t of concern) [id.]. In doing so, the university follows CDC guidance. The university
thus has considered for exemption such conditions as vaccine-suppressing medications,
pregnancy, steroids, chemotherapy, and organ transplants, to name a few [id. at 85-88].
In truth, the medical exemption has been applied more broadly than it is written.
Wisdom might counsel its update to reflect reality and an evolving science.
Jumping on this concern, the students call the medical exemption arbitrary in oral
argument. The record doesn’t bear this out. Indeed, no matter the seeming problematic
nature of a narrow medical exemption as written, it has been reasonably broad as applied
[id.]. The simple truth is that none of the eight students here have sought a medical
exemption with the support of a physician’s statement to trigger this issue.
Jaime Carini says she wanted a medical exemption, but she never sought one; and
she has a religious exemption that she secured in any event [Ex. 121 at 58-60, 69; Tr. 53].
She doesn’t present facts that show the university chose to ignore a doctor’s
recommendation. Margaret Roth has legitimate concerns about taking the vaccine, but
99

Appendix 106a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 100 of 101

she too hasn’t applied for a medical exemption or been denied [Ex. 126 at 26]. Natalie
Sperazza believes it unsafe, but she too provides no physician’s statement to support this
view or shows she applied for a medical exemption [Ex. 127 at 64]. A future case might
raise an issue under the medical exemption, but that’s not today’s case. See Jacobson, 197
U.S. at 36-37 (leaving option to challenge vaccine mandate for contraindications). The
court won’t issue an advisory opinion. See Brixen, 908 F.3d at 280.
CONCLUSION
Even assuming in certain respects irreparable harm and an inadequate remedy at
law, the students here haven’t established a likelihood of success on the merits of their
Fourteenth Amendment due process claim, or that the balance of harms or the public’s
interest favors the extraordinary remedy of a preliminary injunction, before a trial on the
merits. The court thus DENIES their preliminary injunction motion [ECF 7].
Recognizing the significant liberty interest the students retain to refuse unwanted
medical treatment, the Fourteenth Amendment permits Indiana University to pursue a
reasonable and due process of vaccination in the legitimate interest of public health for
its students, faculty, and staff. Today, on this preliminary record, the university has done
so for its campus communities. That leaves the students with multiple choices, not just
forced vaccination.
One might well hale a certain Emersonian self-reliance and self-determination as
preference—an unfettered right of the individual to choose the vaccine or not—but, given
a preliminary record such as today’s, the court must exercise judicial restraint in
superimposing any personal view in the guise of constitutional interpretation.
100

Appendix 107a

USDC IN/ND case 1:21-cv-00238-DRL-SLC document 34 filed 07/18/21 page 101 of 101

Reasonable social policy is for the state legislatures and its authorized arms, and for the
People to demand through their representatives.
SO ORDERED.
July 18, 2021

s/ Damon R. Leichty
Judge, United States District Court

101

Appendix 108a

U.S. Constitution
Fourteenth Amendment
Section 1. All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned among the several States according to their
respective numbers, counting the whole number of persons in each State, excluding Indians not
taxed. But when the right to vote at any election for the choice of electors for President and Vice
President of the United States, Representatives in Congress, the Executive and Judicial officers
of a State, or the members of the Legislature thereof, is denied to any of the male inhabitants of
such State, being twenty-one years of age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other crime, the basis of representation therein
shall be reduced in the proportion which the number of such male citizens shall bear to the whole
number of male citizens twenty-one years of age in such State.
Section 3. No person shall be a Senator or Representative in Congress, or elector of
President and Vice President, or hold any office, civil or military, under the United States, or
under any State, who, having previously taken an oath, as a member of Congress, or as an officer
of the United States, or as a member of any State legislature, or as an executive or judicial officer
of any State, to support the Constitution of the United States, shall have engaged in insurrection
or rebellion against the same, or given aid or comfort to the enemies thereof. But Congress may
by a vote of two-thirds of each House, remove such disability.

Appendix 109a

Section 4. The validity of the public debt of the United States, authorized by law, including
debts incurred for payment of pensions and bounties for services in suppressing insurrection or
rebellion, shall not be questioned. But neither the United States nor any State shall assume or pay
any debt or obligation incurred in aid of insurrection or rebellion against the United States, or any
claim for the loss or emancipation of any slave; but all such debts, obligations and claims shall be
held illegal and void.
Section 5. The Congress shall have power to enforce, by appropriate legislation, the
provisions of this article.

Appendix 110a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 1 of 55

United States District Court
Northern District of Indiana

Ryan Klaassen, Jaime Carini, D.J.B., by and
though his next friend and father, Daniel G.
Baumgartner, Ashlee Morris, Seth Crowder,
Macey Policka, Margaret Roth, and Natalie
Sperazza,
Plaintiffs,
v.

Civ. No. ________________________
1:21-cv-238

Verified Complaint for Declaratory
and Injunctive Relief

The Trustees of Indiana University,
Defendant.

Verified Complaint for Declaratory and Injunctive Relief
Plaintiffs Ryan Klaassen, Jaime Carini, D.J.B., by and though his next friend and father,
Daniel G. Baumgartner, Ashlee Morris, Seth Crowder, Macey Policka, Margaret Roth, and
Natalie Sperazza complain against Defendant as follows:

Introduction
1.

This is a civil action for declaratory and injunctive relief arising under the Fourteenth

Amendment and Indiana Code § 16-39-11-5 (Indiana’s “Vaccine Passport Law”).
2.

It concerns the constitutionality of Indiana University’s Vaccine Mandate (“IU’s

Mandate”), which requires that all students to receive one of the available COVID vaccines.
3.

IU’s Mandate violates the liberty protected by the Fourteenth Amendment to the U.S.

Constitution, which includes rights of personal autonomy and bodily integrity, and the right to
reject medical treatment.
4.

IU’s Mandate also violates Indiana’s new Vaccine Passport Law which prohibits state
-1-

Appendix 111a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 2 of 55

and local units (including Indiana University (“IU”)) from requiring or issuing vaccine “passports” that indicate an individual’s COVID immunization status.

Jurisdiction and Venue
5.

This action arises under the Fourteenth Amendment and Indiana Code § 16-39-11-5.

6.

This Court has jurisdiction over all claims pursuant to 28 U.S.C. Sections 1331 and

1343(a). It also has jurisdiction pursuant to the Declaratory Judgment Act as codified at 28
U.S.C. Sections 2201 and 2202.
7.

Venue is proper under 28 U.S.C. Section 1391(b) because Defendant resides in this

District and because a substantial part of the events giving rise to the claim occurred in this
District.

Parties
8.

Plaintiff Ryan Klaassen is a resident of Noble County, Indiana and an incoming

sophomore at IU.
9.

Plaintiff Jaime Carini is a resident of Rogers County, Oklahoma and is currently

pursuing two doctorates at IU—a Doctor of Music (D.M.) in organ performance and literature,
and a Ph.D. in musicology.
10. Plaintiff D.J.B., by and though his next friend and father, Daniel G. Baumgartner, is a
resident of Cook County, Illinois and an incoming freshman at IU.
11. Plaintiff Ashlee Morris is a resident of Jennings County, Indiana and an incoming 1L at
the McKinney School of Law.
12. Plaintiff Seth Crowder is a resident of Marion County, Indiana and is currently pursuing

-2-

Appendix 112a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 3 of 55

his Masters of Business Administration at the Kelley School of Business.
13. Plaintiff Macey Policka is a resident of Hamilton County, Indiana and a senior at IU.
14. Plaintiff Margaret Roth is a resident of Marion County, Indiana and an incoming
freshman at IU.
15. Plaintiff Natalie Sperazza is a resident of Hendricks County, Indiana and an incoming
sophomore at IU.
16. Defendant The Trustees of Indiana University (“Board of Trustees”) is the governing
body, legal owner, and final authority of IU. IU “is recognized as the university of the state.”
IC § 21-20-2-1. The Board of Trustees has broad “powers, duties, and responsibilities” to govern
IU. See IC § 21-27 et seq.; see also IC § 21-39-2-2 (“The board of trustees . . . may govern, by
regulation and other means, the conduct of students, faculty, employees, and others while upon
the property owned, used, or occupied by the state educational institution.”) and Indiana
University Board of Trustees, About the Board of Trustees, https://trustees.iu.edu/about-the-boa
rd/index.html (last visited on June 17, 2021) (“The Board of Trustees is Indiana University’s
governing board, its legal owner, and its final authority.”). The Board of Trustees is a body
politic. IC § 21-20-2-2. The Board of Trustees may “in the name of ‘The Trustees of Indiana
University’ . . . be sued.” Id. at § 21-27-4-2.9.

Verified Compl. for
Decl. and Inj. Relief

-3-

Appendix 113a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 4 of 55

I. Facts
A.

IU’s Mandate Overview and Implementation
1.

IU’s Mandate and Exemptions

17. On May 21, 2021, IU announced to all faculty, staff, and students that there would be a
requirement to receive a COVID-19 (“COVID”) vaccine for the fall 2021 semester. Indiana
University, New COVID-19 vaccine requirement, attached as Exhibit 1.
18. This announcement was delivered via email to all current faculty, staff, and students of
every IU campus. See id.
19. IU’s Mandate requires that all students, faculty, and staff receive one of the available
COVID vaccines by either August 15 or when they return to campus after August 1, whichever is
earlier. Indiana University, COVID-19 Vaccine, https://www.iu.edu/covid/prevention/covid-19vaccine.html (last visited June 17, 2021).
20. In order to comply with IU’s Mandate, IU has suggested that students have their first
dose of the COVID vaccine by July 1, 2021. Id.
21. There are “strong consequences” for those who refuse the vaccine and do not receive an
exemption. Id. Students will have their class registration canceled, their university-issued IDs,
known as “Crimson Cards,” terminated, and will be restricted from any on-campus activity. Id.
22. Under IU’s Mandate, individuals may request an exemption if they fit an extremely
limited and narrow set of criteria. Id; see also Indiana University, COVID-19 Frequently Asked
Questions, https://www.iu.edu/covid/faq/index.html#vaccine-req (last visited June 17, 2021)
(“exemptions will be extremely limited”).

Verified Compl. for
Decl. and Inj. Relief

-4-

Appendix 114a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 5 of 55

23. Exemption from IU’s Mandate applies to anyone with a religious objection, a documented allergy to the vaccine, medical deferrals, and for online students in a completely online
course with no on-campus presence. Id.
24. IU’s Mandate does not include an exemption for those with natural immunity to
COVID, including those who have previously been infected and fully recovered, or those
students will a medical condition where the COVID vaccination is contra-indicated, even under
their attending physician’s advice.
25. Initially, IU stated that the exemption process would become available on June 15,
2021; however on June 1, 2021, all faculty, staff, and students received an email with a live
exemption form. Fall 2021 Restart Guidance, Indiana University, attached as Exhibit 2.
26. The exemption request form provides three exemption options coinciding with the
aforementioned criteria. Exemption Criteria, attached as Exhibit 3.
27. Once an exemption form is completed online, IU’s Medical Response Team reviews the
exemption request and responds within five business days, presumably to approve or deny the
exemption. Indiana University, COVID-19 Vaccine, https://www.iu.edu/covid/prevention/covid
-19-vaccine.html (last visited June 17, 2021).
28. Those who qualify for and are granted an exemption are still subject to additional
requirements (“Extra Requirements”).
29. These Extra Requirements include requiring exempt individuals to participate mitigation testing twice a week, a mandatory quarantine if exposed to someone who tests positive for
COVID, mandatory face masks in public spaces, and a mandatory return to their home address if

Verified Compl. for
Decl. and Inj. Relief

-5-

Appendix 115a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 6 of 55

the campus has a serious outbreak of the virus. Indiana University, COVID-19 Frequently Asked
Questions, https://www.iu.edu/covid/faq/index.html#vaccine-req (last visited June 17, 2021)
30. These Extra Requirements apply to all types of exemptions, regardless of which
exemption an individual qualifies for. Id.
31. There are no exemptions from these Extra Requirements for those who qualify for a
religious or medical exemption. See infra ¶¶ 197, 199. There is no exemption from wearing a
face mask in public spaces. Id. There is no exemption from participating in the mandatory twice
a week mitigation testing. Id.
32. If a person with an exemption is discovered not wearing a face mask or does not
participate in the mitigation testing, they face “disciplinary action up to and including dismissal
or termination from the university.” Id.
33. If a person chooses to receive the vaccination, IU requires that such person use “IU’s
COVID-19 vaccine report form to attest that they are vaccinated and report all doses of [the]
vaccine.” Indiana University, COVID-19 Vaccine, https://www.iu.edu/covid/prevention/covid19-vaccine.html (last visited June 17, 2021). The form should be completed after each dose. Id;
see also Indiana University, COVID-19 Frequently Asked Questions, https://www.iu.edu/covid/
faq/index.html#vaccine-req (last visited June 17, 2021) (“All students, faculty and staff will need
to report their vaccine using IU’s COVID-19 vaccine self report form. As part of this process,
you will need to know the dates of your vaccine dose(s) and can upload a photo or scan of your
verified vaccine card received at your vaccine appointment (for example, CDC card) to be
entered in the incentive program.”).

Verified Compl. for
Decl. and Inj. Relief

-6-

Appendix 116a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 7 of 55

34. Alternatively, the reporting individual can upload a copy of their vaccine documentation
to be eligible to be entered into IU’s incentive program. Indiana University, COVID-19 Vaccine,
https://www.iu.edu/covid/prevention/covid-19-vaccine.html (last visited June 17, 2021). “In
most cases, this [documentation] will be a photo or scan of the CDC card [received at the]
vaccination appointment that notes the date and type of vaccine [ ] received.” Id.
35. IU’s incentive program includes: a student parking permit, bookstore giftcard, oncampus dining credit, Apple watch, AirPods Pro, JBL speaker, Yeti cooler, credit for full-time
in-state tuition, and season tickets for the Colts or Indiana Repertory Theatre. Indiana University,
Get vaccinated, win prizes, https://www.iu.edu/covid/prevention/incentive-program.html (last
visited June 17, 2021).
2.

Decision to Implement IU’s Mandate

36. IU’s Mandate came from the recommendation of IU’s Restart Committee. Indiana
University Restart Committee Recommendations For Fall 2021 (May 26, 2021), attached as
Exhibit 4.
37. The IU Restart Committee was charged by IU President Michael McRobbie with
delivering recommendations and advice on how to restart the entire university’s “normal” prepandemic operations. Id. at 4. Executive Vice President and Dean of the School of Medicine Jay
Hess was the chair of the Restart Committee. Id.
38. The Restart Committee’s report does not provide a clear process as to how the Committee came to the decision to recommend IU’s Mandate. See generally Indiana University Restart
Committee Recommendations For Fall 2021 (May 26, 2021), attached as Exhibit 4. However, it

Verified Compl. for
Decl. and Inj. Relief

-7-

Appendix 117a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 8 of 55

does establish that “[i]n developing recommendations for the 2021 Fall semester, we are
operating under the assumption that the vast majority of our constituents will be vaccinated,
allowing us to achieve herd immunity in our community.” Id. at 7 (emphasis added).
39. No explanation for this assumption is given. Nor is there any explanation as to why IU’s
Mandate is needed if the vast majority of students will already be vaccinated, allowing IU’s
community to achieve herd immunity.
40. Without evidence to the contrary, it appears the Restart Committee arbitrarily decided
that IU’s Mandate would be necessary due to an unsupported premise.
41. The Restart Committee did not explain why it was necessary to implement IU’s
Mandate, the provisions of which far exceed those imposed by the CDC, state and county
authorities on the general public, and other universities. See infra Parts I.B.2.–I.B.6. (detailing
the requirements for each).
42. No other details have been released by the Restart Committee. None of their meeting
minutes, records, or decision-making processes have been released to the IU community or
public at large.
43. Plaintiffs’ counsel filed a public records request, requesting copies of all public records
related to IU’s decision to implement IU’s Mandate. To date, no documents have been provided.
B.

Context Surrounding IU’s Mandate
1.

IU’s Mandate is Contrary to the FDA Emergency Use Authorization

44. Currently, all three publicly-available COVID vaccines have only “Emergency Use
Authorization” status. These COVID vaccines are not vaccines licensed by the Food and Drug

Verified Compl. for
Decl. and Inj. Relief

-8-

Appendix 118a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 9 of 55

Administration (“FDA”), as they have not received full FDA approval.
45. A drug classified under “Emergency Use Authorization” is a drug authorized by the
Secretary of Health and Human Services for the duration of an emergency under 21 U.S.C.A. §
360bbb-3.
46. As a matter of law, a drug given Emergency Use Authorization (EUA) status is one not
already approved or licensed under the Public Health Service Act. 21 U.S.C.A. § 360bbb-3.
47. A drug receives EUA status once the Secretary, in consultation with the Assistant
Secretary for Preparedness and Response, the Director of the National Institutes of Health, and
the Director of the Centers for Disease Control and Prevention, concludes that (1) “that an
agent . . . can cause a serious or life-threatening disease or condition;” (2) it is reasonable to
believe the drug may be effective in diagnosing, preventing, or treating, the agent, and the known
benefits of taking the drug outweigh the known risks; and (3) “that there is no adequate,
approved, and available alternative to the product for diagnosing, preventing, or treating such
disease or condition[.]” 21 U.S.C.A. § 360bbb-3©
48. A vaccine authorized under Emergency Use Authorization requires complete, informed,
and voluntary consent. Indeed, as a condition of authorization under the Emergency Use
Authorization provisions, the Secretary is required:
“to ensure that individuals to whom the product is administered are informed—
(I) that the Secretary has authorized the emergency use of the product;
(II) of the significant known and potential benefits and risks of such use, and of
the extent to which such benefits and risks are unknown; and
(III) of the option to accept or refuse administration of the product, of the
consequences, if any, of refusing administration of the product, and of the alternatives to
the product that are available and of their benefits and risks.

Verified Compl. for
Decl. and Inj. Relief

-9-

Appendix 119a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 10 of 55

21 U.S.C.A. § 360bbb-3(e)(1)(A)(ii)(I)-(III) (emphases added).
49. Consequently, all COVID vaccines currently available under EUA can only be
administered to individuals in accordance with 21 U.S.C.A. § 360bbb-3(e)(1)(A)(ii)(III), which
requires the informed consent of the consumer before they receive the vaccination and the option
to refuse or accept the drug.
50. The statute requires and, if followed, produces medical informed consent—consent
based on medical information from medical providers. The “consequences” of refusing the
product that are considered and for which consent is secured are medical consequences, not other
types of consequences, like loss of employment or virtual expulsion from school.
51. The threat of virtual expulsion from school for students who refuse to take the vaccine
and who do not qualify for an exemption is not an attempt to garner consent—it is coercion. In
other contexts, even subtle, implied threats cannot constitutionally support “consent.”
Schneckloth v. Bustamonte, 412 U.S. 218, 228 (1973) (coerced police searches unconstitutional);
see also, Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 681 (2010) (arbitration “is
a matter of consent, not coercion”).
52. While IU is not a provider and is not directly subject to the informed consent statute, the
principles supporting EUA itself, as well as the informed consent law, supports voluntary
informed consent from IU students—not coercion from IU’s administration.
53. Accordingly, the same processes should be used, and consents obtained, when suggesting that students get a vaccine that has only been approved for emergency use.
54. IU’s Mandate is contrary to these principles, processes, and consents. It does not inform

Verified Compl. for
Decl. and Inj. Relief

-10-

Appendix 120a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 11 of 55

students that (1) the vaccines are only authorized for emergency use, (2) that there are “significant known and potential benefits and risks of such use” (or “the extent to which such benefits
and risks are unknown”) or (3) that students have the “option to accept or refuse administration
of the product[.]”
55. Contrary to the requirements imposed the general public, no IU student is given the
option to accept or refuse the vaccine, it is mandated.
2.

IU’s Mandate is Contrary to Modern Medical Ethics

56. IU’s Mandate is contrary to the fundamental tenet of medical ethics which require
voluntary and informed consent for any procedure, or drug that imposes a medical risk to an
individual. “A person may freely choose to accept medical risks for the benefit of others . . . we
don’t harvest organs without consent, even if doing so would save many lives. Those who make
such sacrifices for others must truly be volunteers, not conscripts drafted by college administrators.” Aaron Kheriaty and Gerard V. Bradley, University Vaccine Mandates Violate Medical
Ethics, WALL STREET JOURNAL (June 14, 2021, 12:47 PM), https://www.wsj.com/articles/univer
sity-vaccine-mandates-violate-medical-ethics-11623689220 (last visited June 18, 2021).
57. In some circumstances, our society has resolved this medical ethics quandary in favor of
mandatory vaccines. But it is critical to look at the specific contexts in which this has occurred.
58. In elementary schools, pediatric vaccines are mandatory for illnesses that pose significant medical risks to those children, like polio or measles. See id. Likewise, colleges usually
require its students to have been vaccinated against these illnesses.
59. The risks of side effects and serious complications from these types of mandatory

Verified Compl. for
Decl. and Inj. Relief

-11-

Appendix 121a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 12 of 55

vaccines are generally known due to long-time use and years of research on the specific population in question. The risks of serious illness or death due to the diseases far outweighs the known
risks of the vaccines to those same diseases.
60. Here, the risk of serious morbidity and mortality from COVID for those under 30 are
close to zero. Id.; see also, Part I.C.2. The known and unknown risks associated with COVID
vaccines, particularly in those under 30, outweigh the risks to that population from the disease
itself, by any rational measure.
61. For instance, “a June 10 review by the FDA’s Vaccines and Related Biological Products
Advisory Committee indicated an excess risk for heart inflammation, especially in men 30 and
younger.” Kheriaty, supra.
62. Forced COVID vaccinations are also imposed on “populations that were deliberately
excluded from clinical trials,” such as patients who have recovered from COVID, as well as
pregnant and breast-feeding women. Id. Thus, any risks to them were completely unknown.
63. People with higher risks of serious COVID complications, such as individuals over 60
and people with underlying health conditions, are not required to be vaccinated and can choose to
take the vaccine to protect themselves, if they wish.
64. The much smaller subset of people who are at higher COVID risk and who cannot
safely receive the vaccine can mitigate their risks by practicing social distancing and wearing a
mask.
65. “Protection of others,” especially in the COVID context, does not relieve our society
from the central canon of medical ethics requiring voluntary and informed consent.

Verified Compl. for
Decl. and Inj. Relief

-12-

Appendix 122a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 13 of 55

66. The FDA requirement of voluntary and informed consent is based on the medical ethics.
However, history is replete with societies which violated this central tenet of medical ethics. In
1932, the United States did not receive voluntary and informed consent from African Americans
for a study in conjunction with the Tuskegee Institute on syphilis. The Tuskegee Study intentionally refused to reveal to the participants that they had syphilis, intentionally withheld widely
available treatments, like penicillin, from them and intentionally failed to get their informed
consent to participate in the study. The Centers for Disease Control and Prevention, U.S. Public
Health Service Syphilis Study at Tuskegee Timeline, https://www.cdc.gov/tuskegee/timeline.htm
(last visited June 18, 2021).
67. It took forty years for the U.S. government to put an end to the Tuskegee Study. Id. The
Tuskegee Study prompted then-President Bill Clinton to state, “with [scientific and technical
changes] we must work harder to see that as we advance we don’t leave behind our conscience.
No ground is gained and, indeed, much is lost if we lose our moral bearings in the name of
progress.” Pres. Bill Clinton, Apology For Study Done in Tuskegee (May 16, 1997),
https://clintonwhitehouse4.archives.gov/textonly/New/Remarks/Fri/19970516-898.html (last
visited June 18, 2021).
68. Of course, the historical example of the Tuskegee Study differs from IU’s Mandate
because IU has no intent to risk harm to its students and they are not conducting a “study.” And
Plaintiffs do not claim otherwise. However, However, IU’s Mandate does not provide for
voluntary and informed consent to the taking of the vaccine, a fundamental tenet of medical
ethics, which the Tuskegee Institute also failed. Thus, IU’s Mandate is contrary to modern

Verified Compl. for
Decl. and Inj. Relief

-13-

Appendix 123a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 14 of 55

medical ethics.
3.

IU’s Mandate is Contrary to CDC’s Recommendations

69. The CDC guidelines for unvaccinated people remain largely unchanged from when the
pandemic officially began on March 11, 2020. Currently, the CDC’s guidance for unvaccinated
people is to wear a mask, social-distance at least six feet apart from other individuals, avoid any
sort of crowd whether it be outside or inside, and sanitize often. See Center for Disease Control,
Guidance for Unvaccinated People: How to Protect Yourself and Others, Updated June 11,
2021, https://www.cdc.gov/coronavirus/2019-ncov/prevent-getting-sick/prevention.html (last
visited June 18, 2021).
70. Furthermore, the CDC suggests that people get vaccinated, but does not require it. Id.
71. IU’s Mandate is contrary to CDC recommendations, as the CDC simply suggests that
individuals get vaccinated and use other protective measures. The CDC does not recommend
requiring any individual to be vaccinated.
4.

IU’s Mandate is Contrary to Indiana State Requirements.

72. The current guidelines for Indiana were established in Governor Holcomb’s latest
executive orders. 2021 Ind. Exec. Order 21-14 (May 28, 2021), https://www.in.gov/gov/files
/Executive-Order-21-14-Fiftenth-Renewal-of-Emergency-Declaration.pdf (last visited June 18,
2021) and 2021 Ind. Exec. Order 21-15 (May 28, 2021) https://www.in.gov/gov/files/ExecutiveOrder-21-15-Continuation-of-Health-and-Welfare-Provsions.pdf (last visited June 18, 2021).
73. In Order 21-14, the Governor rescinded most statewide guidelines for COVID.
However, several statewide guidelines remain in place temporarily. See Amelia Pak-Harvey,

Verified Compl. for
Decl. and Inj. Relief

-14-

Appendix 124a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 15 of 55

Gov. Eric Holcomb extends health emergency, lifts some requirements starting in June,
Indianapolis Star, (May 28, 2021), https://www.indystar.com/story/news/politics/2021/05/28/
indiana-gov-holcomb- renews-health-emergency-lifts-some-requirements/5248601001/ (last
visited June 18, 2021).
74. General requirements for all Hoosiers are to follow CDC guidelines depending on
whether an individual is vaccinated or unvaccinated. Order 21-15 at 3.
75. The State encourages anyone who has not obtained a vaccine to do so. Id. at 3.
76. Furthermore, the State still encourages an individual to be tested for COVID if they
show its symptoms, regardless of vaccination status. Id. at 3.
77. Those who have not obtained a vaccination are still “encouraged” to socially distance
themselves, but there is no longer a requirement to do so. Id. at 4.
78. Lastly, face-masks are no longer required in state facilities, except for anyone in State
facilities ran by the Department of Corrections, State Hospitals, the Indiana Veterans Home, and
the Indiana Law Enforcement Academy. Id. Masks are also required at COVID testing or
vaccination sites and all K-12 educational facilities. Id.
79. However, Governor Holcomb has announced that “[a]ll directives in executive orders
which have continued throughout the public health emergency will be rescinded and cease on
June 30.” State of Indiana, Gov. Holcomb Signs COVID-19 Executive Orders (May 28, 2021),
https://events.in.gov/event/gov_holcomb_signs_covid-19_executive_orders_4054?utm_campaig
n=widget&utm_medium=widget&utm_source=State+of+Indiana (last visited June 20, 2021).
80. The State of Indiana has not issued a vaccination mandate.

Verified Compl. for
Decl. and Inj. Relief

-15-

Appendix 125a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 16 of 55

81. The State of Indiana has not even issued a vaccination mandate for its State employees.
82. Indiana does not require that anyone show proof of vaccination. Such proof would
violate State law. See infra Part I.B.7.
83. IU’s Mandate is contrary to Indiana recommendations, going significantly further than
any recommendations from the State and violating State law in the process, by requiring that
students prove their vaccination status.
5.

IU’s Mandate is contrary to Allen County, Marion County, and Monroe
County’s Recommendations

84. While IU has multiple campuses and contacts across the State, three of the bigger
locations are in Allen County, Marion County, and Monroe County. The recommendations for
these counties are discussed in turn.
85. Allen County has no COVID requirements for its residents. Allen County Department
of Health, Health Commissioner Recommends County Residents Continue COVID-19 Precautions (Apr. 1, 2021), https://www.allencountyhealth.com/health-commissioner-recommends-co
unty-residents-continue-covid-19-precautions/ (last visited June 18, 2021) (“the Department will
not implement any local restrictions at this time.”).
86. Allen County is recommending that residents continue to wear masks, social distance,
sanitize regularly, stay home when sick, get vaccinated, etc. Id.
87. Allen County is not requiring its residents or county employees to get vaccinated. And it
is not requiring any proof of vaccination status. Id.
88. Marion County has lifted the mask mandate for vaccinated persons. Marion County
Public Health Department, Public Health Order 12-2021 (June 8, 2021), https://www.wishtv.co
Verified Compl. for
Decl. and Inj. Relief

-16-

Appendix 126a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 17 of 55

m/wp-content/uploads/2021/06/Community-Updated-Final-PHO-12-2021-for-June-8-2021.pdf
(last visited June 18, 2021). It still requires masks for non-vaccinated persons. Id. Marion County
encourages social distancing, frequent sanitizing, vaccination, etc. Id. It limits large gatherings
and capacity for certain places, like bars, restaurants, and nightclubs. Id.
89. Marion County is not requiring its residents or county employees to get vaccinated. And
it is not requiring any proof of vaccination status. Id.
90. Monroe County has rescinded any mask requirements and the limitations on gatherings
of people. Dr. Thomas Sharp, Monroe County Health Department, COVID-19 Health Order/
Regulation will be Rescinded Starting Monday, May 17 (May 14, 2021), https://www.co.mon
roe.in.us/egov/documents/1621029168_52145.pdf (last visited June 18, 2021). No other
restrictions have been issued by the county government since.
91. Monroe County is not requiring its residents or county employees to get vaccinated.
And it is not requiring any proof of vaccination status.
92. No local governments in Indiana have issued a vaccination mandate for their residents.
93. No local governments in Indiana has even issued a vaccination mandate for local county
employees.
94. IU’s Mandate is contrary to applicable county requirements—going significantly further
than any of the relevant counties’ recommendations and requirements.
6.

IU’s Mandate is Contrary to other Public Universities

95. No other public university in the State of Indiana has issued a vaccination mandate.
Indiana University is the sole public education institution to require the Vaccine. As a result,

Verified Compl. for
Decl. and Inj. Relief

-17-

Appendix 127a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 18 of 55

students attending Indiana University are treated differently and unequally as a result of IU’s
Mandate.
96. Ball State University does not have a COVID vaccination mandate. Instead, Ball State
University simply “encourage[s] all to adhere to essential protective behaviors such as wearing
face coverings, physical distancing, maintaining proper hygiene, and receiving the COVID-19
vaccine as they become eligible[.]” Ball State University, Cardinals Care, https://bsu.edu/about/
administrativeoffices/emergency-preparedness/pandemicfluprep/coronavirus/cardinals-care (last
visited June 18, 2021).
97. Indiana State University does not have a COVID vaccination mandate. Indiana State
University is simply encouraging “students living in residence halls and apartments on campus
. . . to get vaccinated.” Indiana State University, Student FAQs, https://www.indstate.edu/sites/
default/files/media/student-covid-faq-21-22.pdf (last visited June 18, 2021). Indiana State also
stated that “every individual is expected to take responsibility for their own health and safety and
act in a manner that demonstrates respect and consideration for others around them.” Indiana
State University, Students and Families, https://www.indstate.edu/covid/students-families (last
visited June 18, 2021).
98. Purdue University does not have a vaccine mandate. Purdue’s current vaccine policy is
to strongly encourage students to get vaccinated and to document their status. Purdue University,
Vaccine Information, https://protect.purdue.edu/vaccine-information/ (last visited June 18, 2021).
99. Ivy Tech Community College does not have a vaccine mandate. Indiana’s largest
community college system is only encouraging students to get vaccinated. Ivy Tech Community

Verified Compl. for
Decl. and Inj. Relief

-18-

Appendix 128a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 19 of 55

College, Current COVID-19 Policies, https://www.ivytech.edu/coronavirus.html (last visited
June 18, 2021).
100.

The University of Southern Indiana does not have a vaccine mandate. It is only

encouraging, but not mandating, that students be vaccinated. University of Southern Indiana,
COVID-19 (coronavirus) Information, https://www.usi.edu/covid-19/ (last visited June 18,
2021).
101.

Vincennes University does not have a vaccine mandate. The university is simply

encouraging students to get vaccinated. Vincennes University, Frequently Asked Questions,
https://www.vinu.edu/covid-19-faq (last visited June 18, 2021).
102.

Indiana University stands alone as the sole public university in Indiana with a

vaccine mandate. See Shari Rudavsky and Isaiah Seibert, Here's which Indiana colleges and
universities will require COVID-19 vaccines this fall, Indianapolis Star (May 21, 2021),
https://www.indystar.com/story/news/education/2021/05/21/iu-requiring-covid-vaccine-ballstate-iupui-purdue-notre-dame/5207192001/ (last visited June 18, 2021).
7.
103.

IU’s Mandate Violates Indiana’s Ban on Vaccine Passports
Under Indiana law, state and local units are prohibited from requiring or issuing

vaccine “passports” that indicate an individual’s COVID immunization status. IC § 16-39-11-5.
104.

Legislative intent to prevent the state from requiring vaccine passports can be

inferred from Representative Jacob’s comments on the House floor, “The thought of a state
mandating that people take a vaccine that is still experimental according to the manufacturers of
the vaccine would be considered a gross violation of the individual freedom of Hoosiers.” Taylor

Verified Compl. for
Decl. and Inj. Relief

-19-

Appendix 129a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 20 of 55

Dixon, Indiana government will be prohibited from requiring ‘vaccine passports’ under new
amendment, TheStateHouseFile.com (Apr. 22, 2021), http://thestatehousefile.com/indiana-gove
rnment-will-be-prohibited-from-requiring-vaccine-passports-under-new-amendment/ (last visited
June 18, 2021).
105.

In a recent opinion, Indiana Attorney General Todd Rokita advised the Vaccine

Passport Law applies to public colleges and universities like IU because they are “arm[s] of the
state.” State of Indiana Office of the Attorney General, Official Opinion 2021-1 on University
Policies on COVID-19 Vaccination (May 26, 2021) (“Opinion Letter or “Op. Letter”) attached as
Exhibit 5.
106.

Attorney General Rokita made clear that the Vaccine Passport Law does not

prohibit an entity from requesting proof of COVID immunization status, provided no negative
consequence arises from not producing the record. Op. Letter, Exhibit 5, at 4 (emphasis added).
107.

As shown above, every IU student is required to be vaccinated for COVID, unless

they qualify for an exemption. But it is not enough for an IU student to merely receive the
COVID vaccine—he or she “will need to report their vaccine using IU’s COVID vaccine self
report form.” See Indiana University, Frequently Asked Questions, https://www.iu.edu/covid/
faq/index.html#vaccine-req (last visited June 18, 2021). Therefore, IU mandates not only the
vaccine, but also mandates the student prove his or her COVID immunization status.
108.

IU students who fail to provide proof of their COVID immunization status (or who

have not been granted an exemption) will suffer severe negative consequences in direct violation
of the Vaccine Passport Law. See supra Part I.A.1.

Verified Compl. for
Decl. and Inj. Relief

-20-

Appendix 130a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 21 of 55

109.

In short, if a student doesn’t provide IU with his or her COVID immunization

status, IU virtually expels that student. Virtual expulsion from school for refusing to provide
COVID immunization status is a “negative consequence” that directly violates Indiana law.
110.

IU’s Mandate “unquestionably violates the new law.” Op. Letter, 7.

C. Current Risk to IU Students of COVID Infection and Adverse Outcomes
1.
111.

Current State of the Pandemic
The pandemic is virtually over. The CDC recently reported the lowest number of

cases since March of 2020 (the beginning of the COVID pandemic). Sam Baker & Andrew
Witherspoon, COVID-19 cases hit lowest point in U.S. since pandemic began, AXIOS (June 3,
2021), https://www.axios.com/coronavirus-cases-infections-vaccines-success-fa7673a1-0582-4e
69-aefb-3b5170268048.html (last visited June 20, 2021).
112.

In Indiana, Governor Holcomb has already declared the end of the COVID

emergency on June 30, when nearly all State COVID restrictions will end. See ¶ 79.
113.

According to a report from Harvard doctors, a pandemic is over when herd

immunity is reached, which they define as at least 70% of the population either being vaccinated
or exposed to the virus. Alvin Powell, Vaccines can get us to herd immunity, despite the variants,
HARVARD GAZETTE (Feb. 25, 2021), https://news.harvard.edu/gazette/story/2021/02/vaccinesshould-end-the-pandemic-despite-the-variants-say-experts/#:~:text=A%20Harvard%20immunolo
gist%20said%20current,fight%20against%20the%20disease.
114.

Further, according to Dr. Peter McCullough who has extensively researched

COVID and its treatments, herd immunity is calculated by a specific formula.

Verified Compl. for
Decl. and Inj. Relief

-21-

Appendix 131a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 22 of 55

115.

Dr. McCullough’s formula is as follows: ((CC*6) + V + (.15*P)) ÷ P = HIN

CC= COVID cases in the state
6= the current CDC multiplier1
V= number of vaccinated in the state
15%= of the total people in the state, this represents the number of people in a given state that
will not get COVID
P=Population of a state (i.e. Indiana)
HIN=Herd Immunity Totals
116.

According to Dr. McCullough, you take the total cases of COVID in Indiana

(753,0002) times 6—this equals 4,518,000—then add the total number of vaccinated
(2,880,6353), and finally add 15% of the population (1,009,800), which equals 8,408,435, as
shown below:
(753,000*6) + 2,880,635 + (.15*6,732,000) = 8,408,435
4,518,000 + 2,880,635 + 1,009,800 = 8,408,435
117.

If you add all these numbers together you get 8,408,435, which you then divide by

the total population of Indiana (6,732,0004), which equals 125% of the population.
8,408,435 ÷ 6,732,000 = 125%
118.

This number is over 100% due to the overlap of people who were infected with

COVID and also received the vaccine, so they are counted twice. While the number of people in

1

Centers for Disease Control and Prevention, Estimated Disease Burden of COVID-19
(May 19, 2021), https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/burden.html
2

Indiana State Department of Health, Indiana COVID-19 Dashboard and Map (June 18,
2021), https://www.coronavirus.in.gov/2393.htm (last visited June 20, 2021).
3

Indiana State Department of Health, Vaccine Dashboard, (June 18, 2021),
https://www.coronavirus.in.gov/vaccine/2680.htm (last visited June 20, 2021).
4

United States Census, QuickFacts Indiana (July 1, 2019), https://www.census.gov/qu
ickfacts/IN (last visited June 20, 2021).
Verified Compl. for
Decl. and Inj. Relief

-22-

Appendix 132a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 23 of 55

this group is not known,5 the percentage of overlap would have to be over 50% to get below the
number for herd immunity to fall below 70%, which is very unlikely.
119.

Additionally, infection rates continue to decline. According to the official Indiana

COVID numbers, the infection rate was a mere 2.7% during the week of June 2, 2021, and it
continues to decline daily.
Table A.

Indiana State Department of Health, Indiana COVID-19 Dashboard and Map (June 18, 2021),
https://www.coronavirus.in.gov/2393.htm.
120.

The June 14, 2021, infection rate was only 2.4%. Id.

121.

As the numbers continue to decline, such draconian measures as requiring all

students to be vaccinated is not reasonable.
2.
122.

Risk to the College-Age Group from a COVID Infection
Moreover, as of May 30, 2021, the positivity test rate for new COVID cases at IU-

5

There is no specific data from the CDC or the Indiana Department of Health detailing
how many people have had both.
Verified Compl. for
Decl. and Inj. Relief

-23-

Appendix 133a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 24 of 55

Bloomington was 0%. Indiana University, IU Bloomington COVID-19 Testing Dashboard,
https://www.iu.edu/covid/dashboard/bloomington (last visited June 20, 2021). The highest IU
infection rate ever was 7.51% on August 30, 2020, and it has steadily declined since then with no
indication of a new wave. Id.
123.

The current risk of getting COVID is very low, and college and graduate students

do not generally spread it.
124.

The lack of so called “super spreader events” further shows that the pandemic is

over. This generally occurs where large masses of people gather in close quarters and the virus
spreads rapidly and easily.
125.

However, the Indianapolis 500 recently occurred and there were over 135,000 fans

in the stadium. Vocal opponents of the event said that there would be a huge uptick in COVID
cases.
126.

However, since the event on May 30, 2021, there has been a continued decline of

COVID in Indiana. See Table B COVID-19 Cases Continue to Decline after Indy 500, attached
as Exhibit 6.
127.

This is because large gatherings are not the problem. Epidemic spread of COVID,

like all other respiratory viruses, notably influenza,6 is driven by symptomatic persons; asymptomatic spread is trivial and inconsequential.
128.

A meta-analysis of contact tracing studies published in The Journal of the

American Medical Association showed asymptomatic COVID spread was 0.7%. Zachary J.
6

Eleni Patrozou & Leonard A. Mermel, Does Influenza Transmission Occur from
Asymptomatic Infection or Prior to Symptom Onset?, 124 Pub. Health Rep. 193 (2009).
Verified Compl. for
Decl. and Inj. Relief

-24-

Appendix 134a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 25 of 55

Madewell, PhD; Yang Yang, PhD; Ira M. Longini Jr, PhD; M. Elizabeth Halloran, MD, DSc;
Natalie E. Dean, PhD, Household Transmission of SARS-CoV-2: A Systematic Review and Metaanalysis, JAMA Network Open, available at https://jamanetwork.com/journals/jamanetworko
pen/fullarticle/2774102 (last visited June 20, 2021).
129.

Accordingly, a rational and ethical prevention measure to reduce the spread of

COVID is a simple requirement, as part of formal policies, that persons with active symptomatic,
febrile (feverish) respiratory illnesses, like COVID, should isolate themselves. Indeed during the
H1N1 influenza A pandemic, fully open, unmasked college campuses were advised by federal
health officials, “Flu-stricken college students should stay out of circulation” and “if they can’t
avoid contact they need to wear surgical masks.” Great Falls Tribune, Advice: Flu-stricken
college students should stay out of circulation, August 21, 2009, page 5, section A, available at
https://www.newspapers.com/image/243611045.
130.

Specifically in Monroe County, where one of IU’s campuses is located, only four

cases per 100,000 people have been reported for the past seven days, and statistically there has
been less than one death per 100,000 people. CNNhealth, Tracking Covid-19 cases in the US,
https://www.cnn.com/interactive/2020/health/coronavirus-us-maps-and-cases/ (last visited June
20, 2021).
131.

Despite a high frequency of COVID infections, as determined by standard testing,

serious COVID cases among college and graduate students is a rare event. Brown University
physician epidemiologist, Andrew Bostom, MD, MS, compiled data from 100 major university
and college COVID data dashboards, in conjunction with national and local news reports of

Verified Compl. for
Decl. and Inj. Relief

-25-

Appendix 135a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 26 of 55

campus-related hospitalizations, August 2020 through the November 2020, Thanksgiving holiday
break (11/22/20).
132.

The COVID positive tests and related hospitalizations from 100 universities/

colleges, from August 2020–November, 2020 are detailed in Table C, attached as Exhibit 7.
133.

As depicted in Table C, among students on campus during this period, even though

there were 139,000 positive COVID tests, there were a mere 17—typically short-term— reported
COVID hospitalizations. This was driven by a cluster of seven hospitalizations from Dayton
University, i.e., only 0.012% of total positive tests resulting in hospitalization.
134.

Within this large sample, there were zero medically-confirmed, albeit one possible,

COVID related death. This very reassuring data accrued in the absence of any COVID vaccination of the student population.
135.

Importantly, as shown by this data, no one has died from COVID at Indiana

University and only one person was hospitalized—even at the peak of the pandemic. The risks
for this age group to developing serious side effects from COVID is extremely low. Studies show
that there is only a .0002% chance of dying from COVID for people ages 20-49.
136.

Further, the CDC has released charts depicting the risks by age, as shown below.

Verified Compl. for
Decl. and Inj. Relief

-26-

Appendix 136a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 27 of 55

Table D.

Table E.

137.

These charts (Tables D and E) show the minimal risk 18-29 year olds face across the

United States. For example, for every one 18-29 year old that dies from COVID, 4.5 30-39 year
olds die, 13 40-49 year olds die, 44 50-64 year olds die, 130 65-74 year olds die 320 75-84 year
olds die, and 870 over 85 die.
Verified Compl. for
Decl. and Inj. Relief

-27-

Appendix 137a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 28 of 55

138.

These studies do not take into account pre-existing conditions and co-morbidities,

which greatly increase the likelihood of death in COVID patients. The people who are at the
highest risk and have the greatest need for the vaccine are those over the age of fifty. The risk for
young people is near minuscule with the achievement of herd immunity and highly effective
treatments.
139.

As shown, according to the CDC, no 18-29 year olds have died from COVID in

2021 in Indiana.
140.

The lower risks associated with catching and treating COVID make IU’s Mandate

unreasonable.
141.

Further, college students are not the spreaders of the virus to the community. There

was a recent study from Dr. Arnold and colleagues that reported the results of a longitudinal
serosurvey (blood sampling) of community residents in Centre County, Pennsylvania, home to
Pennsylvania State University, University Park campus. See Callum R K Arnold, Sreenidhi
Srinivasan, Catherine M Herzog, Abhinay Gontu, Nita Bharti, Meg Small, Connie J Rogers,
Margeaux M Schade, Suresh V Kuchipudi, Vivek Kapur, Andrew Read, Matthew J Ferrari,
SARS-CoV-2 Seroprevalence in a University Community: A Longitudinal Study of the Impact of
Student Return to Campus on Infection Risk Among Community Members, medRXiv (Feb. 19,
2021), available at https://pubmed.ncbi.nlm.nih.gov/33619497/ (last visited June 20, 2021).
142.

The return of approximately 35,000 students to the campus in August 2020

increased the county population size by nearly 20%. Id. Over 4,500 cases of COVID infections
were detected among the student population during the Fall 2020 term (before and just after

Verified Compl. for
Decl. and Inj. Relief

-28-

Appendix 138a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 29 of 55

student return). Id. Between August 7, 2020, and October 2, 2020, these investigators enrolled
community residents and tested their serum for the presence of anti-Spike Receptor Binding
Domain (S/RBD) IgG (a class of immunoglobulin “antibodies”), to confirm prior COVID
exposure. Id. This was repeated in the same community during December 2020 (after the
departure of students), and seroprevalence for both sampling waves was recorded and analyzed.
Moreover, returning students were enrolled in a longitudinal cohort, and IgG seroprevalence
results were reported from the first wave of sampling (between October and November 2020,
prior to the end of the term). Here is how Arnold and colleagues summarized their findings:
Of 345 community participants, 19 (5.5%) were positive for SARS-CoV-2 IgG
antibodies at their first visit between 7 August and 2 October. Of 625 returning
student participants, 195 (31.2%) were positive for SARS-CoV-2 antibodies
between 26 October and 23 November. 28 (8.1%) of the community participants
had returned a positive result by 9 December. Only contact with known
SARS-CoV-2-positive individuals and attendance at small gatherings (20-50
individuals) were significant predictors of IgG antibodies among returning students
(adjusted odds ratio, 95% Confidence Interval: 3.24, 2.14-4.91, p<0.001; and 1.62,
1.08-2.44, p<0.05; respectively).
They concluded:
Despite high seroprevalence observed within the student population,
seroprevalence in a longitudinal cohort of community residents was low and stable
from before student arrival for the Fall 2020 term to after student departure,
implying limited transmission between these cohorts…The demographic shift
associated with student return to campus was not associated with increased
SARS-CoV-2 seroprevalence in this cohort of community residents.
Id.
143.

College students face little chance of actually catching COVID and little chance of

spreading it to the greater community.

Verified Compl. for
Decl. and Inj. Relief

-29-

Appendix 139a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 30 of 55

144.

Even if students catch the virus, the treatment of the virus has improved tremen-

dously since the advent of COVID. Studies have shown several different treatment methods,
which have proven effective. A combination of medications for a minimum of five days and
acutely administered supplements used for the initial ambulatory patient with suspected and or
confirmed COVID-19 (moderate or greater probability) has proven effective. Brian C Procter,
Casey Ross, Vanessa Pickard, Erica Smith, Cortney Hanson, Peter A McCullough, Clinical
outcomes after early ambulatory multidrug therapy for high-risk SARS-CoV-2 (COVID-19)
infection, Reviews in Cardiovascular Medicine (December 30, 2021), available at
https://rcm.imrpress.com/EN/10.31083/j.rcm.2020.04.260 (last visited June 20, 2021).
Table F
Agent (drug)
Zinc
Hydroxychloroquine 200 mg po bid
Ivermectin (200 mcg/kg) usual dose
12 mg po qd x 3 days
Azithromycin 250 mg po bid

Rationale
Inhibits SARS-CoV-2 RNA synthesis
Inhibits endosomal transfer of virions, anti-inflammatory
Attenuates importin α/β-mediated nuclear
transport of SARS-CoV-2 into nucleus
Covers respiratory bacterial pathogens in secondary infection
Doxycycline 100 mg po bid
Covers respiratory bacterial pathogens in secondary infection
Inhaled budesonide, Dexamethasone 8 mg IM Treats cytokine storm
Folate, thiamine, vitamin 12
Reduce tissue oxidative stress
Intravenous fluid
Intravascular volume expansion
145.

This study, conducted by Dr. McCullough, evaluated patients between the ages of

12 and 89 years. The average age was 50.5 and 61.6% were women. The study found that primary
care physicians can treat COVID patients with low hospitalization and death. The study showed
that administration of the medicines and supplements shown in table produces a less than 2%
chance of facing hospitalization or death. As this study was done with mainly higher risk patients
Verified Compl. for
Decl. and Inj. Relief

-30-

Appendix 140a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 31 of 55

at the peak of the pandemic, this is a highly successful treatment plan and just one of the many
new treatments that have been used in the last year. Id.; see also National Institutes of Health,
Therapeutic Management of Adults With COVID-19 (Updated May 24, 2021), https://www.covi
d19treatmentguidelines.nih.gov/management/therapeutic-management/ (last visited June 21,
2021).
146.

Treatment has improved so drastically for COVID that according to the CDC, there

were 16 deaths in Indiana for young adults aged 18-29 in 2020, but zero in 2021. This is evidence
of better treatment and less risk for college aged students.
147.

Even the Restart Committee acknowledged that “The IU population to date has had

a very low rates of hospitalization and death due to COVID-19 infection.” Indiana University
Restart Committee Recommendations For Fall 2021, Exhibit 4, p. 8. This was true even in the
height of the pandemic.
148.

As shown, the pandemic is virtually over, herd immunity has been achieved, and

there is an extremely minimal risk of COVID to IU students, making IU’s Mandate irrational and
unreasonable.
3.
149.

Risks to the College-Age Groups for other Causes.
Table G shows the numbers of deaths for Indiana residents between the ages of 15 -

24 in 2019, for various non-COVID causes:

Verified Compl. for
Decl. and Inj. Relief

-31-

Appendix 141a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 32 of 55

Table G
Cause of Death
Homicide
Road Traffic Accidents
Suicide
Poisonings
Other Injuries
Inflammatory/Heart
Congenital Anomalies
Endocrine Disorders

Number of Indiana Residents, Ages 15 - 24
146
143
117
107
18
13
11
10

World Life Expectancy, Indiana Health Rankings, https://www.worldlifeexpectancy.com/indian
a-cause-of-death-by-age-and-gender (last visited June 19, 2021) (citing recent data from the CDC,
NIH, and individual state and county databases for verification and supplementation for USA
data).
150.

Plaintiffs’ counsel has submitted a public record’s request to the Indiana Department

of Health to supplement this data, but have not yet received a response. However, even using the
general data in the table above shows the risk of death for college-age students from any number
of causes unrelated to COVID far outnumber the risk of death from COVID.
D. Current Benefits and Risks to IU Students of COVID Vaccinations
1.
151.

Benefits of COVID Vaccination for IU Students
The vaccine has proven to be effective to prevent COVID—studies show that the

Vaccines are anywhere from 70-95% effective in preventing COVID.
2.
152.

Known Risks of COVID Vaccination for IU Students
Even if the pandemic was still occurring, it is unreasonable for students to get a

risky, relatively untested vaccine.
153.

There are emerging trends showing that the vaccine is especially risky for those 18-

Verified Compl. for
Decl. and Inj. Relief

-32-

Appendix 142a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 33 of 55

29.
154.

Increasingly the medical community is acknowledging the possible risks and side

effects including myocarditis, Bell’s Palsy, Pulmonary Embolus, Pulmonary Immunopathology,
and severe allergic reaction causing anaphylactic shock. See Chien-Te Tseng, Elena Sbrana,
Naoko Iwata-Yoshikawa, Patrick C Newman, Tania Garron, Robert L Atmar, Clarence J Peters,
Robert B Couch, Immunization with SARS coronavirus vaccines leads to pulmonary
immunopathology on challenge with the SARS virus, https://pubmed.ncbi.nlm.nih.gov/22536382/
(last visited June 21, 2021); Centers for Disease Control and Prevention, Allergic Reactions
Including Anaphylaxis After Receipt of the First Dose of Pfizer-BioNTech COVID-19 Vaccine —
United States, December 14–23, 2020 (Jan 15, 2021), https://www.cdc.gov/mmwr/volumes/70/
wr/mm7002e1.htm (last visited June 21, 2021).
155.

For example, 19-year-old Simone Scott at Northwestern University died from

complications of myocarditis after receiving her second dose of the Moderna COVID vaccine.
Megan Redshaw, 19-Year-Old College Freshman Dies From Heart Problem One Month After
Second Dose of Moderna Vaccine, Children’s Health Defense, (June 15, 2021) https://childrenshe
althdefense.org/defender/19-year-old-dies-heart-problem-moderna-vaccine/ (last visited June 21,
2021).
156.

Also, a 21-year-old in New Jersey who was required to get the vaccine to attend

college in the fall developed myocarditis after receiving the vaccine and had to be hospitalized.
Megan Redshaw, Exclusive: Dad Says Life ‘Not the Same’ for 21-Year-Old Student Who
Developed Myocarditis After Second Moderna Shot, Children’s Health Defense (June 15, 2021),

Verified Compl. for
Decl. and Inj. Relief

-33-

Appendix 143a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 34 of 55

https://childrenshealthdefense.org/defender/21-year-old-new-jersey-student-severe-heart-inflamm
ation-moderna-covid-vaccine/ (last visited June 21, 2021).
157.

Multiple recent studies and news reports detail people 18-29 dying from myocarditis

after receiving the COVID vaccine. According to the CDC, 475 cases of pericarditis and
myocarditis7 have been identified in vaccinated citizens aged 30 and younger. See FDA, Vaccines
and Related Biological Products Advisory Committee June 10, 2021 Meeting Presentation,
https://www.fda.gov/media/150054/download#page=17 (last visited June 21, 2021).
158.

The FDA found that people 12-24 account for 8.8% of the vaccines administrated,

but 52% of the cases of myocarditis and pericarditis reported. Id.
Table H

159.

The CDC even has a warning on their website now, stating that myocarditis is a

potential risk for young adults, but they believe the risks outweigh the benefits even though this is
a surging problem and a risk with both the Moderna and Pfizer vaccine. Centers for Disease
7

Myocarditis is inflammation of the heart muscle, whereas pericarditis is inflammation of
the sac-like tissue around the heart called the pericardium.
Verified Compl. for
Decl. and Inj. Relief

-34-

Appendix 144a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 35 of 55

Control and Prevention, COVID-19 Vaccines for Children and Teens (Updated May 27, 2021),
https://www.cdc.gov/coronavirus/2019-ncov/vaccines/recommendations/adolescents.html (last
visited June 21, 2021).
160.

Multiple medical studies are starting to come out detailing this problem.8

161.

Further, milder side effects from the vaccine include changes in hormone and

menstrual cycles in women, fever, swelling at the injection site, etc. Jill Seladi-Schulman, Ph.D,,
Can COVID-19 or the COVID-19 Vaccine Affect Your Period? (May 25, 2021), https://www.heal
thline.com/health/menstruation/can-covid-affect-your-period#covid-19-and-menstrual-cycles (last
visited June 21, 2021); Rachael K. Raw, Clive Kelly, Jon Rees, Caroline Wroe, David R.
Chadwick, Previous COVID-19 infection but not Long-COVID is associated with increased
adverse events following BNT162b2/Pfizer vaccination, (pre-print) https://www.medrxiv.org/con
tent/10.1101/2021.04.15.21252192v1 (last visited June 21, 2021).
162.

Additionally, there are a host of unknown side effects that may exist as the vaccine

has only gone through human testing for seven months.
3. Known Risk of Administering COVID Vaccinations to IU Student who have
already had a COVID Infection.
163.

There is also recent research on the fact that the COVID vaccine is dangerous for

8

See, e.g., Tommaso D’Angelo MD, Antonino Cattafi MD, Maria Ludovica Carerj MD,
Christian Booz MD, Giorgio Ascenti MD, Giuseppe Cicero MD, Alfredo Blandino MD,
Silvio Mazziotti MD, Myocarditis after SARS-CoV-2 Vaccination: A Vaccine-induced
Reaction?, Pre-proof, Canadian Journal of Cardiology, https://www.onlinecjc.ca/action/show
Pdf?pii=S0828-282X%2821%2900286-5 (last visited June 21, 2021); Jeffrey Heller, Israel sees
probable link between Pfizer vaccine and myocarditis cases (June 2, 2021), https://www.reuters.
com/world/middle-east/israel-sees-probable-link-between-pfizer-vaccine-small-number-myocard
itis-cases-2021-06-01/ (last visited June 21, 2021).
Verified Compl. for
Decl. and Inj. Relief

-35-

Appendix 145a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 36 of 55

those who have already had COVID.
164.

A medical study of United Kingdom healthcare workers who had already had

COVID and then received the vaccine found that they suffered higher rates of side effects than the
average population. Rachel K. Raw, et al., Previous COVID-19 infection but not Long-COVID is
associated with increased adverse events following BNT162b2/Pfizer vaccination, medRxiv (preprint), https://www.medrxiv.org/content/10.1101/2021.04.15.21252192v1 (last visited June 21,
2021).
165.

The test group experienced more moderate to severe symptoms than the study group

that did not previously have COVID. Id.
166.

The symptoms included fever, fatigue, myalgia-arthralgia and lymphadenopathy. Id.
4. Comparison of Immunity Conferred by a previous COVID Infection and by the
COVID Vaccination.

167.

Those who have previously had COVID do not even need the vaccine.

168.

In a CDC document entitled “Questions & Answers: Vaccine Against 2009 H1N1

Influenza Virus,” the CDC stated that: “If you have had 2009 H1N1 flu, as confirmed by an RTPCR test, you should have some immunity against 2009 H1N1 flu and CAN CHOOSE NOT
(emphasis added) to get the 2009 H1N1 vaccine.” Centers for Disease Control and Prevention,
Questions & Answers: Vaccine Against 2009 H1N1 Influenza Virus, https://www.cdc.gov/h1n1flu
/vaccination/public/vaccination_qa_pub.htm (last visited June 21, 2021).
169.

Fast forward just over a decade later, and after intensive investigation for the past

16-months, both laboratory and real world clinical data demonstrate convalescent, unvaccinated
COVID immunity is just as robust as vaccine-acquired COVID immunity.
Verified Compl. for
Decl. and Inj. Relief

-36-

Appendix 146a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 37 of 55

170.

Indeed multiple laboratory studies conducted by highly respected U.S. and European

academic research groups have reported that convalescent mildly or severely infected COVID
patients who are unvaccinated can have greater virus neutralizing immunity—especially more
versatile, long-enduring T- cell immunity—relative to vaccinated individuals who were never
infected. See Athina Kilpeläinen, et al., Highly functional Cellular Immunity in SARS-CoV-2
Non-Seroconvertors is associated with immune protection, bioRxiv (pre-print), https://www.bior
xiv.org/content/10.1101/2021.05.04.438781v1 (last visited June 21, 2021); Tongcui Ma, et al.,
Protracted yet coordinated differentiation of long-lived SARS-CoV-2-specific CD8+ T cells
during COVID-19 convalescence, bioRxiv (pre-print), https://www.biorxiv.org/content/10.110
1/2021.04.28.441880v1 (last visited June 21, 2021); Claudia Gonzalez, et al., Live virus neutralisation testing in convalescent patients and subjects vaccinated against 19A, 20B, 20I/501Y.V1
and 20H/501Y.V2 isolates of SARS-CoV-2, medRxiv (pre-print), https://www.medrxiv.org/
content/10.1101/2021.05.11.21256578v1 (last visited June 21, 2021); Carmen Camara, et al.
Differential effects of the second SARS-CoV-2 mRNA vaccine dose on T cell immunity in naïve
and COVID-19 recovered individuals, bioRxiv (pre-print), https://www.biorxiv.org/content/10.1
101/2021.03.22.436441v1 (last visited June 21, 2021); Ellie N. Ivanova, et al., Discrete immune
response signature to SARS-CoV-2 mRNA vaccination versus infection, medRxiv (pre-print),
https://www.medrxiv.org/content/10.1101/2021.04.20.21255677v1(last visited June 21, 2021);
Catherine J. Reynolds, et al, Prior SARS-CoV-2 infection rescues B and T cell responses to
variants after first vaccine dose, (pre-print), https://pubmed.ncbi.nlm.nih.gov/33931567/
(last visited June 21, 2021); Yair Goldberg, et al., Protection of previous SARS-CoV-2 infection is
similar to that of BNT162b2 vaccine protection: A three-month nationwide experience from
Verified Compl. for
Decl. and Inj. Relief

-37-

Appendix 147a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 38 of 55

Israel, medRxiv (pre-print), https://www.medrxiv.org/content/10.1101/2021.04.20.21255670v1
(last visited June 21, 2021).
171.

An enormous real world Israeli national follow-up study of ~6.4 million individuals,

demonstrated clearly that naturally-acquired COVID convalescence immunity was equivalent to
vaccine-acquired immunity in preventing COVID infection, morbidity, and mortality. Yair
Goldberg, et al., Protection of previous SARS-CoV-2 infection is similar to that of BNT162b2
vaccine protection: A three-month nationwide experience from Israel, medRxiv (pre-print),
https://www.medrxiv.org/content/10.1101/2021.04.20.21255670v1 (last visited June 21, 2021).
172.

Faring at least as well as those vaccinated, 187,549 unvaccinated COVID positive

persons who tested positive between June 1, 2020 to September 30, 2020, and were followed
through March 20, 2021, revealed 894 [0.48%] were reinfected; 38 [0.02%] were hospitalized, a
mere 16 [0.008%] hospitalized with severe disease, and only 1 [one]/187,549 died—an individual
over 80 years old. Id.
173.

The Israeli investigators concluded, “Our results question the need to vaccinate

previously infected individuals.” Id.
174.

Cleveland Clinic investigators have confirmed the Israeli findings in a study of their

own employees. Nabin K. Shrestha, Patrick C. Burke, Amy S. Nowacki, Paul Terpeluk, Steven
M. Gordon, Necessity of COVID-19 vaccination in previously infected individuals, medRxiv (preprint), https://www.medrxiv.org/content/10.1101/2021.06.01.21258176v2 (last visited June 21,
2021). They found zero SARS-CoV-2 reinfections during 5-month follow-up among n=1359
infected employees who remained unvaccinated and concluded such persons are “unlikely to

Verified Compl. for
Decl. and Inj. Relief

-38-

Appendix 148a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 39 of 55

benefit from covid-19 vaccination.” Id.
175.

The risks of the vaccine and the fact that people who have already had COVID have

at least equally strong protection from the virus makes IU’s Mandate irrational and unnecessary.
5. Comparison of Risks of COVID Vaccinations with Vaccinations for other
Infectious Diseases
176.

The vaccine is also far less safe than previous vaccines like the meningicoccal

meningitis vaccine that is typically required on college campuses.
177.

For example, the VERS (Vaccine Adverse Event Reporting System) data from the

CDC shows, for 18-29 year olds in Indiana, there have been no deaths from the meningitis
vaccine.
178.

The main side effects people reported are headache, injection site pain, nausea,

chills, and a fever, and even these were limited as no more than fifteen of each were reported .
Centers for Disease Control and Prevention, WONDER data, https://wonder.cdc.gov/controller/da
tarequest/D8;jsessionid=18AD7080CCFA8D95903AEDB6B601 (last visited June 21, 2021).
Table I

179.

However, in the brief time the COVID vaccines have been available, there have been

many more serious symptoms and even a death reported for 18-29 year olds in Indiana. See Table
Verified Compl. for
Decl. and Inj. Relief

-39-

Appendix 149a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 40 of 55

I.
E. Factual Allegations of Plaintiffs
180.

Plaintiff Ryan Klaassen is an incoming Sophomore at IU. He has a sincerely held

religious objection to receiving the COVID Vaccine. As a result, he sought and was granted a
religious exemption to the Vaccine.
181.

Mr. Klaassen also objects generally to the extra requirements of masks and testing

applied to him. He objects to these extra requirements given their unreasonableness and the
extremely minimal risk of COVID to those in his age group.
182.

Plaintiff Jaime Carini is currently pursuing two doctorates at IU— a Doctor of

Music (D.M.) in organ performance and literature, and a Ph.D. in musicology. She has a sincerely
held religious objection to receiving the COVID Vaccine. As a result, she sought and was granted
a religious exemption to the Vaccine.
183.

Miss Carini also objects generally to IU’s Mandate. She objects to taking the

Vaccine, given the known and unknown risks associated with it, and the extremely minimal risk
of COVID to her age group. Specifically, Miss Carini does not feel safe taking the Vaccine which
hasn’t been around long enough to know the long-term side effects.
184.

Miss Carini suffers from multiple chronic illnesses. As a result of these illnesses,

Miss Carini is treated by a world-renowned infectious disease doctor. Infectious disease doctors
treat illnesses caused by various pathogens, including bacteria, viruses, and parasites—so diseases
like HIV/AIDS, Lyme disease, malaria, West Nile virus, and COVID-19 fall under their purview.
185.

When Miss Carini saw her physician at her last appointment, the doctor’s parting

Verified Compl. for
Decl. and Inj. Relief

-40-

Appendix 150a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 41 of 55

words were, “No vaccine for you. Let me know if you need a letter for the university.”
186.

Miss Carini’s physician provided such a letter stating that “Due to the inflammatory

nature of [her] illness it’s our strong medical opinion that she not receive any immunization at this
time.” The physician further stated that the Vaccine could cause a relapse, impede progress, and
prolong recovery.
187.

Despite all this, Miss Carini was horrified to discover that IU’s Mandate prohibits

Miss Carini from receiving a medical exemption, given the Mandate’s extremely narrow criteria
for obtaining such exemption.
188.

What is most troubling to Miss Carini about IU’s Mandate is that it allows hardly

any exemptions at all. Most critically, the medical exemption form gives Miss Carini’s practitioner no room to express his expert medical opinion outside the confines of IU’s Mandate.
189.

IU is saying that it has the right to insert itself into the relationship between Miss

Carini and her physician. IU is saying that they know better than world-renowned infectious
disease physicians what Miss Carini’s vaccination status should be. IU is saying that it has the
right to change Miss Carini’s highly skilled physician’s medical treatment plan for her.
190.

Miss Carini wants to be free to follow her provider’s directives. IU’s Mandate

directly interferes with and contradicts the medical treatment prescribed for Miss Carini by her
physician.
191.

Miss Carini should not be required to put her health at risk in order to comply with

IU’s Mandate and objects to doing so.
192.

Miss Carini also objects to the extra requirements of masks and testing applied to

Verified Compl. for
Decl. and Inj. Relief

-41-

Appendix 151a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 42 of 55

him. She objects to these extra requirements given their unreasonableness and the extremely
minimal risk of severe complications or death from COVID for somebody in her age group.
193.

Miss Carini has been notified by her physician that given the medications she is on

(specifically, Ivermectin), she is protected against COVID. As a result, she sought an exemption
from the mandatory testing, which IU denied, despite her not being at risk for COVID.
194.

While Miss Carini did obtain a religious exemption, she would rather be exempt

from IU’s Mandate for medical reasons. Doing so ensures that she is not targeted, harassed, or
bullied for her religious views. Yet, Miss Carini has not had the option to obtain a medical
exemption.
195.

Miss Carini does not have to option to simply transfer universities, to one which

wouldn’t require the vaccine or the extra requirements, due to her significant time investment in
the IU doctoral programs and the fellowships she has been awarded at IU.
196.

Plaintiff D.J.B. is an incoming freshman at IU. As a minor, he is represented in this

case by his father and next friend, Daniel G. Baumgartner. Mr. D.J.B. has a religious objection to
receiving the COVID Vaccine. As a result, he sought and was granted a religious exemption to the
Vaccine.
197.

Mr. D.J.B. also has a sincerely held religious objection to the extra requirements

applied to him. He sought a religious exemption to these requirements but was refused. Mr. D.J.B.
received a response from the IU COVID Response Team, stating that:
Exemptions from IU’s vaccine mandate for religious reasons are only available to those
individuals who attest that their sincerely held religious beliefs prevent them from receiving
a vaccination. Anyone who is granted an exemption on this basis is required to wear a mask
at all times on IU property and is subject to routine mitigation testing. There are no
Verified Compl. for
Decl. and Inj. Relief

-42-

Appendix 152a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 43 of 55

exemptions from these masking and mitigation testing requirements. Failure to comply with
masking and mitigation testing requirements will result in disciplinary action up to and
including dismissal or termination from the university.
198.

Mr. D.J.B. recently had a COVID antibody test which revealed that he still has

antibodies. As a result, he sought a medical exemption to IU’s Mandate (and attached the relevant
lab results showing the antibodies). This request for medical exemption was refused.
199.

The IU COVID Response Team stated that “[n]atural antibodies are not a criteria for

medical exemption” and that:
there are no exemptions from masking and mitigation testing requirements at Indiana
University unless fully vaccinated. Failure to comply with masking and mitigation testing
requirements will result in disciplinary action up to and including dismissal or termination
from the university.
200.

Mr. D.J.B. also objects generally to the extra requirements of masks and testing

applied to him. He objects to these extra requirements as they are not necessary, since he already
has natural antibodies. He also objects given their unreasonableness and the extremely minimal
risk of COVID to those in his age group.
201.

Plaintiff Ashlee Morris is an incoming 1L at the McKinney School of Law. She has

a sincerely held religious objection to receiving the COVID Vaccine. As a result, Miss Morris
sought and was granted a religious exemption to the Vaccine.
202.

Miss Morris also has a sincerely held religious objection to the extra requirements

applied to her. She tried to apply for an exemption to the masking and testing requirements but the
IU COVID Response Team refused her request. Miss Morris received a substantially similar
response as detailed in ¶ 197 from the IU COVID Response Team.
203.

Miss Morris has worked for six years to be accepted into law school, taking the

Verified Compl. for
Decl. and Inj. Relief

-43-

Appendix 153a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 44 of 55

LSAT multiple times and applying four times. After years of hard work, she accomplished her
goal and was accepted into McKinney School of Law. However, if required to comply with these
unreasonable requirements, she will not attend. This will result in years of hard work and money
wasted.
204.

Miss Morris would still like to attend McKinney School of Law if her religious

objections are respected and she is not subjected to extra requirements, which make her a target
for discrimination, bullying, and unwanted attention.
205.

Plaintiff Seth Crowder is currently pursuing his Masters of Business Administration

through the Kelley School of Business. He has a sincerely held religious objection to receiving the
COVID Vaccine. As a result, Mr. Crowder sought and was granted a religious exemption to the
Vaccine.
206.

Mr. Crowder also has a sincerely held religious objection to the extra requirements

applied to him. He tried to apply for an exemption to the masking and testing requirements but the
IU COVID Response Team refused his request.
207.

Plaintiff Macey Policka is a senior at IU. She has a sincerely held religious objection

to receiving the COVID Vaccine. As a result, she sought and was granted a religious exemption to
the Vaccine.
208.

Miss Policka also objects generally to the extra requirements of masks and testing

applied to her. She objects to these extra requirements given their unreasonableness and the
extremely minimal risk of COVID to those in her age group.
209.

Plaintiff Margaret Roth is an incoming freshman at IU. Miss Roth objects generally

Verified Compl. for
Decl. and Inj. Relief

-44-

Appendix 154a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 45 of 55

to IU’s Mandate. She objects to taking the Vaccine, given the known and unknown risks
associated with it, and the extremely minimal risk of COVID to all age groups, especially her age
group.
210.

Miss Roth has a significant family history of cancer and other health conditions. Her

mother passed away from cancer at 35, her sister is in treatment for Hodgkin’s Lymphoma, two of
her aunts suffered from early-onset breast cancer, and her great-aunt passed away from breast
cancer. Her aunt suffered from Bell’s Palsy. Miss Roth also suffers skin reactions from cosmetics,
moisturizers, hygiene products, and often has hives/skin rashes that appear without known cause.
All of this makes it much more likely that Miss Roth will suffer adverse reactions from the
Vaccine. As a result, she is not willing to take the Vaccine for medical reasons. Despite this, Miss
Roth does not qualify for a medical exemption under IU’s extremely narrow set of exemptions.
211.

Additionally, asthma runs in Miss Roth’s family, so masks are also not an acceptable

alternative. Nor is repeated exposure to the carcinogenic chemicals on the nasal testing swabs,
especially with her family history of cancer.
212.

Miss Roth should not be required to put her health at risk in order to comply with

IU’s Mandate and objects to doing so.
213.

Miss Roth also has a sincerely held religious objection to IU’s Mandate. Miss Roth

has not filed for such exemption because she does not believe that it adequately protects her from
IU’s Mandate.
214.

Plaintiff Natalie Sperazza is an incoming sophomore at IU. Miss Sperazza objects

generally to IU’s Mandate. She objects to taking the Vaccine, given the known and unknown risks

Verified Compl. for
Decl. and Inj. Relief

-45-

Appendix 155a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 46 of 55

associated with it, and the extremely minimal risk of COVID to her age group.
215.

Miss Sperazza has spent significant time researching the Vaccine and does not feel

safe taking it when those in her age group are developing heart problems as a result of the
Vaccine, and when the long-term side effects of the Vaccine are unknown. She believes that
taking the Vaccine puts her health at risk.
216.

Miss Sperazza also objects to the extra requirements of masks and testing applied to

her. She objects to these extra requirements given their unreasonableness and the extremely
minimal risk of COVID to those in her age group.
217.

For all of the reasons shown above (see generally ¶¶ 17-216), all Plaintiffs object to

IU’s Mandate.
218.

All Plaintiffs also object to the Vaccine on the basis that it has only received

Emergency Authorization from the FDA. None are willing to take the Vaccine while it is only
approved under that Emergency Authorization.
219.

Plaintiffs should not be required to put their health at risk (given the known and

unknown risks of the Vaccine) in order to comply with IU’s Mandate and object to doing so.
220.

Plaintiffs are irreparably harmed by IU’s Mandate.

221.

Plaintiffs have no adequate remedy at law.

Count I
IU’s Mandate Violates Fourteenth Amendment Liberty.
222.

Plaintiffs re-allege and incorporate by reference all of the allegations contained in all

of the preceding paragraphs.
223.

IU’s Mandate violates the liberty protected by the Fourteenth Amendment to the

Verified Compl. for
Decl. and Inj. Relief

-46-

Appendix 156a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 47 of 55

U.S. Constitution, which includes rights of personal autonomy and bodily integrity, see, e.g.,
Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11 (1905), and the right to reject medical
treatment, Cruzan v. Director, Missouri Dep’t Health, 497 U.S. 261 (1990).
224.

Historically, many have understood Jacobson v. Commonwealth of Massachusetts.

197 U.S. 11 (1905), to authorize near carte blanche for government to mandate vaccinations in
response to pandemics on the basis that such individual liberty must yield to the common
good—all with great deference to legislatures and little or no evidence contrary to their choice
reviewed. So cases entitled to higher scrutiny have instead received the highly deferential
Jacobson analysis. But even Jacobson was not absolute carte blanche because it recognized an
exception where rights are violated or a mandate is unreasonable for not advancing health:
If there is any . . . power in the judiciary to review legislative action in respect of a matter
affecting the general welfare, it can only be when that which the legislature has done comes
within the rule that, if a statute purporting to have been enacted to protect the public health,
the public morals, or the public safety, [1] has no real or substantial relation to those objects,
or [2] is, beyond all question, a plain, palpable invasion of rights secured by the fundamental
law, it is the duty of the courts to so adjudge, and thereby give effect to the Constitution.
Id. at 31 (citations omitted).
225.

Jacobson’s analysis doesn’t resemble today’s jurisprudence, which has less or no

deference where rights are involved and requires evidence. Since Jacobson, Fourteenth Amendment liberty has been recognized as strongly protecting contraception, Griswold v. Connecticut,
381 U.S. 479 (1965), abortion, Roe v. Wade, 410 U.S. 113 (1973), same-sex marriage, Obergefell
v. Hodges, 576 U.S. 644 (2015), and refusing medical treatment, Cruzan, 497 U.S. 261. And
Jacobson was part of a Progressive Era emphasis on enhancing governmental power at the
expense of the individual that included a eugenics movement culminating in the infamous
Verified Compl. for
Decl. and Inj. Relief

-47-

Appendix 157a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 48 of 55

decision approving involuntary sterilization in Buck v. Bell, 274 U.S. 200 (1927), which cited
Jacobson as authority for its decision. Id. at 207. Those attitudes have since been widely repudiated along with their low valuation of individual liberty.
226.

Under today’s jurisprudence, even rational-basis review, applicable for example to

economic regulations, is “not toothless.” See, e.g., Mathews v. Lucas, 427 U.S. 495, 510 (1976)
(citing, e.g., Jimenez v. Weinberger, 417 U. S. 628 (1974); Frontiero v. Richardson, 411 U. S.
677, 691 (Stewart, J., concurring in judgment, Powell, J., concurring in judgment)); Reed v. Reed,
404 U.S. 71 (1971)). Even under rational-basis review there must be “a sufficient factual context
for [a court] to ascertain some relation between [what the restriction does] and the purpose it
served,” Romer v. Evans, 517 U.S. 620, 632-33 (1996), so the judiciary definitely has power to
weigh evidence considered by the legislature and hear expert testimony on competing views.9
Thus, there must be, demonstrably, “a rational relationship to an independent and legitimate
legislative end.” Id. at 633.
227.

In 2020, in light of these discrepancies between Jacobson and current jurisprudence,

the Supreme Court implicitly narrowed the perceived breadth of Jacobson in Roman Catholic
Diocese of Brooklyn v. Cuomo. 141 S. Ct. 63 (2020) (per curiam), not by mentioning Jacobson
and expressly abrogating it, but by holding that (i) normal strict scrutiny applied to a Free
Exercise Clause challenge to non-neutral pandemic restrictions on the number people in houses of
worship, (ii) challengers had likely merits success and other injunction factors weighed in their

9

And though Jacobson disallowed evidence as to the efficacy and safety of the vaccination itself, which would not be precluded under today’s jurisprudence, Jacobson’s own stated
exception to its deference would have required (and thus allowed) relevant evidence.
Verified Compl. for
Decl. and Inj. Relief

-48-

Appendix 158a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 49 of 55

favor, and (iii) this justified an injunction during appeal, id. at 66-69. Under Jacobson, a highly
deferential, limited-judicial-role, little-evidence-required analysis would have applied, not strict
scrutiny, so without any need to mention Jacobson the Court simply abandoned it by applying its
current jurisprudence. Strict scrutiny requires the government to prove its restriction to be the
least restrictive means to further a compelling interest, and to do so by evidence. The normally
applicable scrutiny level is applicable to challenges to restrictions under pandemic-fighting
authority, i.e., not Jacobson’s analysis.
228.

Roman Catholic Diocese was preceded by a similar case (church occupancy limits in

the pandemic) in Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2630 (2020) (Mem. Op.).
There Justice Alito dissented, joined by Justices Thomas and Kavanaugh, noting that “at the
outset of an emergency, it may be appropriate for courts to tolerate very blunt rules,” “[b]ut a
public health emergency does not give . . . public officials carte blanche to disregard the Constitution as long as the medical problem exists.” Id. at 2605. Rather, “[a]s more medical and scientific
evidence becomes available, and as States have time to craft policies in light of that evidence,
courts should expect policies that more carefully account for constitutional rights.” Id. That
dissenting view was essentially adopted by Roman Catholic Diocese, meaning that “blunt rules”
may be permitted initially, but fine-tuning to actual scientific evidence is then required—requiring
an evidence-focused inquiry in judicial review. Applying the normally required, current jurisprudence in that case required the government to justify itself under strict scrutiny, which eschews
blunt rules and mandates narrow tailoring to the least restrictive means to further a compelling
interest.
229.

The Seventh Circuit noted the sea-change wrought by Roman Catholic Diocese in

Verified Compl. for
Decl. and Inj. Relief

-49-

Appendix 159a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 50 of 55

Cassell v. Snyders, 990 F.3d 539, 543, 545 (7th Cir. 2021).
230.

So Jacobson’s analysis does not control here. States no longer have near carte

blanche to impose restrictions in the name of preventing pandemics, Instead, the applicable
scrutiny under today’s jurisprudence applies, with evidence clearly admissible and needed to
determine whether government action meets the relevant level of scrutiny. And even were
Jacobson deemed yet viable and applicable here, it recognized an exception where restrictions
violate rights or are unreasonable, e.g., by not actually promoting public health, and Roman
Catholic Diocese eliminated Jacobson’s extreme deference.
231.

In modern jurisprudence, fundamental-liberty burdens require strict scrutiny.

Washington v. Glucksberg, 521 U.S. 702 (1997) (“narrowly tailored to serve a compelling state
interest”).
232.

Refusing medical treatment is a fundamental right. The test is whether it was

deemed fundamental in “our nation’s history, legal traditions, and practices,” Glucksberg, 521
U.S. at 710. The Cruzan majority assumed such refusal is fundamental and five Justices said it
was. 497 U.S. at 287, 301, 330.
233.

As mandated vaccinations are a substantial burden, IU must prove narrow tailoring

to a compelling interest that justifies mandatory vaccinations, not any more general interest. But
while government may have a general interest in mitigating COVID, the following problems
reveal no narrow tailoring to any compelling interest exists. Indiana imposes no student vaccination requirement, Ind. Dept. Health, Back to School Guidance (Fall 2021),10 and Indiana Univer10

https://www.coronavirus.in.gov/files/Fall%202021%20COVID-19%20One%20Page
%20Guidance%20(6.8.21).pdf (last visited June 21, 2021).
Verified Compl. for
Decl. and Inj. Relief

-50-

Appendix 160a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 51 of 55

sity lacks any uniqueness to justify doing so. University students have very low risk for serious
COVID illness, Part I.C.2, so IU lacks an interest in forcing vaccinations for such risks. University
students pose little risk of COVID transmission to the surrounding community. Id. University
students’ higher adverse-reaction risk from COVID vaccinations versus those for influenza, Part
I.D., undercuts an interest in compelling COVID vaccinations. Naturally acquired immunity from
COVID is as robust as vaccine-acquired immunity, Part I.D.4., so there is no compelling interest
in vaccinating those who’ve had COVID. Given natural and vaccine immunity, Indiana has de
facto COVID herd immunity. See generally Parts I.C. and I.D. So IU has no compelling interest in
mandating student COVID vaccination.
234.

The same evidence establishes that, even if there were a compelling interest in

mandating vaccinations, IU’s Mandate is not narrowly tailored to such an interest. For example, a
blanket mandate ignores individual factors increasing (older age, co-morbidities) or decreasing
(having had COVID) students’ risks to themselves or to others. Mandating vaccines for all is the
sort of blunt rule perhaps appropriate at the beginning of a pandemic but not when the pandemic
has faded and much more is known about the risks in light of available treatments and studies.
235.

Furthermore, IU’s Mandate fails modern rational basis scrutiny and under Jacob-

son’s exemption, since IU’s Mandate is “unreasonable” and “has no real or substantial relation”
“to protect[ing] the public health.” 197 U.S. at 31, i.e., it goes “beyond what [i]s reasonably
required for the safety of the public,” id. at 28. The same evidence that shows there is no
compelling interest or narrow tailoring with IU’s Mandate shows that it fails even under Jacobson.
236.

Furthermore, note the internal illogic of IU’s position. In some situations it mandates

Verified Compl. for
Decl. and Inj. Relief

-51-

Appendix 161a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 52 of 55

masks and distancing. For that to be rational, it must be presumed that those work for preventing
virus spread. But if those work, there is no need for vaccination. IU blurs three groups: (1) those
who had COVID, who need no vaccination for their sake or others’; (2) those who have COVID,
who can and should be quarantined to protect others, after which these will have natural immunity; and (3) those who haven’t had and don’t have COVID and are unvaccinated. No protection is
needed against the first two groups, other than quarantining those now affected, and no vaccine is
warranted. Others can protect themselves against the third group obtaining a vaccination, if they
wish, by masking and distancing. Mandating vaccination in the present state of knowledge has no
real, substantial relation to protecting public health.
237.

In sum, IU’s Mandate is unconstitutional under both current strict-scrutiny jurispru-

dence and Jacobson’s exception.

Count II
IU’s Mandate Violates Indiana’s Vaccine Passport Law.
238.

Plaintiffs re-allege and incorporate by reference all of the allegations contained in all

of the preceding paragraphs.
239.

Under Indiana law, state and local units are prohibited from requiring or issuing

vaccine “passports” that indicate an individual’s COVID immunization status. IC § 16-39-11.
240.

IU’s Mandate not only requires IU students to take the COVID vaccine, but it also

requires them to prove they have taken it by filling out a form which requires them to: (1) certify
they took the COVID vaccine, and (2) report the dates they received COVID vaccine doses—this
violates the Vaccine Passport Law.
241.

Indiana Attorney General Todd Rokita asserted the Vaccine Passport Law applies to

Verified Compl. for
Decl. and Inj. Relief

-52-

Appendix 162a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 53 of 55

public colleges and universities like IU because they are “arm[s] of the state.” Op. Letter Ex. 5, p.
1; see also Severson v. Bd. of Trustees of Purdue Univ., 777 N.E.2d 1181, 1191-92 (Ind. Ct. App.
2002).
242.

Attorney General Rokita made clear that the Vaccine Passport Law does not prohibit

an entity from requesting proof of COVID immunization status, provided no negative consequence arises from not producing the record. Op. Letter, Exhibit 5, p. 4 (emphasis added).
243.

Every IU student is required to be vaccinated for COVID, unless they qualify for an

exemption. But it is not enough for an IU student to merely receive the COVID vaccine—he or
she “will need to report their vaccine using IU’s COVID vaccine self report form.” See Indiana
University, COVID-19 Frequently Asked Questions, https://www.iu.edu/covid/faq/index.html#
vaccine-req (last visited June 17, 2021).
244.

Therefore, IU’s Mandate does not only require the vaccine, but also requires the

student prove his or her COVID immunization status.
245.

IU students who fail to provide proof of their COVID immunization status (or who

have not been granted an exemption) will suffer severe negative consequences in direct violation
of the Vaccine Passport Law.
246.

“Students who fail to comply [with the vaccination mandate or an exemption and the

required reporting of same ] ‘will have their class registration cancelled, CrimsonCard access
terminated, access to IU systems (Canvas, email, etc.) terminated, and will not be allowed to
participate in any on campus activity.’” See ¶ 21.
247.

In short, if a student doesn’t provide IU with his or her COVID immunization status,

Verified Compl. for
Decl. and Inj. Relief

-53-

Appendix 163a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 54 of 55

IU virtually expels that student. Virtual expulsion from school for refusing to provide COVID
immunization status is a “negative consequence” that directly violates Indiana law.
248.

Plaintiffs Roth and Sperazza are students at IU who have not been vaccinated for

COVID and who not qualify for an exemption. Therefore, they cannot provide IU’s requested
proof of COVID vaccination and will be subject to virtual expulsion by IU, in violation of Indiana
law.
249.

In sum, IU’s Mandate violates Indiana’s Vaccine Passport Law.

Prayer for Relief
Wherefore, Plaintiffs request the following relief:
250.

Declare IU’s Vaccine Mandate unconstitutional on its face;

251.

Declare IU’s Mandate unconstitutional as applied to each Plaintiff;

252.

Enjoin IU from enforcing IU’s Mandate on its face or as applied;

253.

Grant Plaintiffs their costs and attorneys fees under 42 U.S.C. Section 1988 and any

other applicable authority; and
254.

Grant any and all other such relief as this Court deems just and equitable.

Verified Compl. for
Decl. and Inj. Relief

-54-

Appendix 164a

USDC IN/ND case 1:21-cv-00238 document 1 filed 06/21/21 page 55 of 55

Dated: June 21, 2021

Respectfully Submitted,
/s/ James Bopp, Jr.
James Bopp, Jr., Ind. Bar No. 2838-84
Richard E. Coleson, Ind. Bar No. 11527-70
Courtney Milbank, Ind. Bar No. 32178-29
Melena S. Siebert, Ind. Bar No. 35061-15
THE BOPP LAW FIRM
1 South 6th Street
Terre Haute, Indiana 47807
Telephone: (812) 232-2434
Facsimile: (812) 235-3685
jboppjr@aol.com
rcoleson@bopplaw.com
cmilbank@bopplaw.com
msiebert@bopplaw.com
Counsel for Plaintiffs

Verified Compl. for
Decl. and Inj. Relief

-55-

Appendix 165a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

No. 21-2326
In the United States Court of Appeals for the Seventh Circuit
_______________
Ryan Klaassen, Jaime Carini, Daniel J. Baumgartner, Ashlee Morris,
Seth Crowder, Macey Policka, Margaret Roth, and Natalie Sperazza,
Plaintiffs-Appellants
v.
The Trustees of Indiana University,
Defendant-Appellee
_______________
On Appeal from the U.S. District Court for the Northern District of Indiana,
Case No. 1:21-cv-00238-DRL-SLC, Honorable Damon R. Leichty, District Judge
_______________

Emergency Motion of Appellants Klaassen et al. for an
Injunction Pending Appeal Relief Requested by July 30, 2021
_______________
James Bopp, Jr.,
Lead Counsel and
Director of Litigation
America’s Frontline Doctors
jboppjr@aol.com
Richard E. Coleson
rcoleson@bopplaw.com
Courtney Turner Milbank
cmilbank@bopplaw.com
Melena S. Siebert
msiebert@bopplaw.com
THE BOPP LAW FIRM, PC
1 South Sixth St.
Terre Haute, IN 47807−3510
Telephone: (812) 232−2434
Counsel for Plaintiffs-Appellants

Appendix 166a

(1 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(2 of 227)

Table of Contents
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
A.
IU’s Mandate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
B.
The Context surrounding IU’s Mandate . . . . . . . . . . . . . . . . . . . . . . .
C.
Plaintiffs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2
2
3
4

Legal Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Standing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. The Court Below Erred in Holding That Heightened Scrutiny
Was Not Required in the Context of a Mandated Vaccine.. . . . . . . . . . . . . . . . . . . 6
A.

The Right to Bodily Integrity and Autonomy and to Choose
Medical Treatment in the Context of a Vaccine Mandate
Requires Heightened Scrutiny. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

B.

The Court below Erred in Applying Jacobson’s Rational Basis Test
Rather than Heightened Scrutiny. . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

C.

1.

Jacobson’s Holding Did Not Negate the Government’s
Obligation to Exercise its Powers Within the Boundaries of the
U.S. Constitution.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

2.

Jacobson Preceded the Development of Modern Recognition of
Heightened Scrutiny for Infringements on Bodily Integrity and
Autonomy in Certain Important Contexts. . . . . . . . . . . . . . . . 13

IU's Mandate Violates Students’ Rights to Bodily Integrity and
Autonomy and to Medical Choice by Placing an Unconstitutional
Condition on Attending IU. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

i
Appendix 167a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

II. Under Heightened Scrutiny, the Students Are Likely to Prevail on Their Due
Process Claim That, Under the Current Circumstances and as Applied to
this Age Group, IU Has Failed to Prove That Their Mandate Is Justified.. 17
A.

IU’s Interest in Public Health and Safety is no longer Compelling
Enough to Justify the IU Mandate at this Stage of the COVID
Pandemic. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

B.

The IU Mandate Is Not Narrowly Tailored. . . . . . . . . . . . . . . . . . . . 20

C.

1.

College-aged persons are at a very low risk of adverse effects
of a COVID infection. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

2.

Older people, who are not subject to a mandate, are at a much
greater risk of adverse effects of a COVID infection than young
people, who are subject to a mandate.. . . . . . . . . . . . . . . . . . . 21

IU’s Mandate Is Not the Least Restrictive Means to Protect Health
and Safety. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

III. Students have suffered irreparable harm.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
IV. The Balance of Equities Weighs in Students’ Favor. . . . . . . . . . . . . . . . . . . . 23
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

ii
Appendix 168a

(3 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(4 of 227)

Table of Authorities
Cases
Abbott Labs. v. Mead Johnson & Co., 971 F.2d 6 (7th Cir. 1992) . . . . . . . . . . . . . 5
Addington v. Texas, 441 U.S. 418 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Agudath Israel of Am. v. Cuomo, 983 F.3d 620 (2d Cir. 2020). . . . . . . . . . . . . . . 15
Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603 (2020). . . . . . . . . . . . 18
Cassell v. Snyders, 990 F.3d 539 (7th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . . . 4, 15
Cavel Int’l, Inc. v. Madigan, 500 F.3d 544 (7th Cir. 2007). . . . . . . . . . . . . . . . . . . 5
Cruzan by Cruzan v. Dir., Missouri Dep’t of Health, 497 U.S. 261 (1990) . . 7, 8, 9
Griswold v. Connecticut, 381 U.S. 479 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Humphrey v. Cody, 405 U.S. 504 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

11

Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11 (1905) . . . . . . 6, 12, 13
Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595 (2013) . . . . . . . . . . . 16
Obergefell v. Hodges, 576 U.S. 644 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Planned Parenthood of Se. Pennsylvania v. Casey, 505 U.S. 833 (1992) . . . 7, 14
Platt v. Brown, 872 F.3d 848 (7th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Regan v. Taxation With Representation, 461 U.S. 540 (1983) . . . . . . . . . . . . . . . 16
Riggins v. Nevada, 504 U.S. 127 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 10
Rochin v. California, 342 U.S. 165 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iii
Appendix 169a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

Roe v. Wade, 410 U.S. 113 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020) . . . . . . . . 14
Sell v. United States, 539 U.S. 166 (2003). . . . . . . . . . . . . . . . . . . . . 7, 8, 10, 11, 18
Union Pac. R. Co. v. Botsford, 141 U.S. 250 (1891) . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Breedlove, 756 F.3d 1036 (7th Cir. 2014). . . . . . . . . . . . . . . . . . 11
Valencia v. City of Springfield, 883 F.3d 959 (7th Cir. 2018) . . . . . . . . . . . . . . . . 5
Vitek v. Jones, 445 U.S. 480 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Washington v. Glucksberg, 521 U.S. 702 (1997) . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
Washington v. Harper, 494 U.S. 210 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 10
Zucht v. King, 260 U.S. 174 (1922) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Other Authorities
Mariner, Annas, Glantz, Jacobson v. Massachusetts: It’s Not Your Great-GreatGrandfather’s Public Health Law, 95 Am. J. Public Health 581 (2005) . . . . . . . 13
Weiler, Bodily Integrity: A Substantive Due Process Right to Be Free from Rape
by Public Officials, 34 Calif. West. L. Rev. 591, 596-604 (1998) . . . . . . . . . . . . 7

iv
Appendix 170a

(5 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

Introduction
Students challenged IU’s Mandate requiring students to take COVID
vaccinations, despite their objection. Students’ refusal is based on legitimate
concerns including underlying medical conditions, having natural antibodies, and
the risks associated with the vaccine. All students are adults, are entitled to make
their own medical treatment decisions, and have a constitutional right to bodily
integrity and autonomy in the context of a vaccination mandate. IU, however, is
treating its students as children who cannot be trusted to make mature choices and
has substituted itself for both the student and her attending physician, mandating a
choice which is the student’s to make, based on her physician’s advice.
The only way such rights can be infringed is for IU to justify its override of
the student’s choice within the boundaries of the U.S. Constitution. The court
below, however, did not require this, because it erroneously applied rational basis
scrutiny instead of the heightened scrutiny appropriate to infringements of the
rights at stake here. Under proper heightened scrutiny, IU’s Mandate cannot be
justified and should be enjoined pending appeal.

1
Appendix 171a

(6 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

Facts
A.

IU’s Mandate
On May 21, 2021, Indiana University (“IU”) announced that faculty, staff,

and students would be required to receive a COVID vaccine (“IU’s Mandate”).
Compl., ¶¶17-20, Ex. 1; Opinion, 11-12, Ex. 2. If a student refuses to receive the
vaccine, IU has promised the student will suffer “strong consequences,” including
canceled class registration, terminated IU identification cards, and restrictions
from participation in any on campus activity. Compl., ¶21; see also Op., 12.
IU students can apply for an exemption to IU’s Mandate under an
“extremely limited” criteria, which only include a religious exemption, a
documented allergy to the vaccine, medical deferrals, and an online-only student
exemption.1 Compl., ¶¶22-24; see also Op., 12. It does not include an exemption
for those with natural immunity, including those who have previously been
infected and fully recovered or for many medical contra-indications. Compl., ¶24.
Those who qualify for and are granted an exemption are still subject to
additional requirements, including inter alia participating in twice a week testing
and mandatory face masks in public spaces. Compl., ¶¶28-30; Op., 13. IU does not
allow for any exemptions from these extra requirements. Compl., ¶¶31-32, 197,
1

On or about July 20, 2021, IU added an “ethical exemption” to their website but has given no other
information about this new exemption or stated who would qualify.

2
Appendix 172a

(7 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

199.
B.

The Context surrounding IU’s Mandate
Currently, all three publicly-available COVID vaccines have only

“Emergency Use Authorization” (“EUA”) status and have not received full FDA
approval. Compl., ¶¶44-47; Op., 15-21. A vaccine authorized under EUA requires
complete, informed, and voluntary consent. Compl. ¶¶48-51; Op., 52-54. This
requirement is based on a fundamental tenet of medical ethics which requires
voluntary and informed consent for any procedure or drug that imposes a medical
risk to an individual.
Here, the risk of serious morbidity and mortality from COVID for those
under 30 are close to virtually zero. See infra Part II.B.1. To Students, the known
and unknown risks associated with COVID vaccines, particularly in their age
group, outweigh the risks to that population from the disease itself, so they do not
consent to the vaccine.2 Despite this, IU’s Mandates the vaccine for them.3
While IU is not a provider and not directly subject to this informed consent
requirement, Students believe the required consent is undermined by IU’s Mandate
and rendered a nullity for them. This is contrary to the FDA’s EUA and modern
2

The district court elaborates on the vaccines risks, including those to Students’ age group. Op., 22-

24.
3

None of the relevant authorities, including the CDC, State of Indiana, relevant counties, or other
public university in Indiana mandate vaccinations.

3
Appendix 173a

(8 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

medical ethics.
C.

Plaintiffs
Plaintiffs include eight IU students, ranging from undergraduate studies to

masters and doctorate studies. See Op., 3-5. Six students (Klaassen, Carini,
Baumgartner, Morris, Crowder, and Policka) have received a religious exemption
from IU’s Mandate, but all have objections to the Extra Requirements (some for
religious reasons and some for general reasons). Two students (Roth and
Sperazza) have not received any exemptions. Roth has a religious objection to
IU’s Mandate, but has not sought a religious exemption because it does not
provide her with the relief she seeks. Sperazza does not qualify for any of the
exemptions, based upon IU’s written criteria for the same. Three of the students
(Baumgartner, Carini, and Roth) have specific medical conditions or histories that
make it unreasonable and unsafe for them to get the vaccine and, in one case,
against their attending physician’s advice. Nevertheless, they do not qualify for
IU’s medical exemption as written.

Legal Standard
The Seventh Circuit reviews a district court’s decision to grant or deny a
preliminary injunction for an abuse of discretion. Cassell v. Snyders, 990 F.3d
539, 545 (7th Cir. 2021). The district court “abuses its discretion when it commits

4
Appendix 174a

(9 of 227)

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(10 of 227)

a clear error of fact or an error of law. Absent such errors, we accord a district
court’s decisions during the balancing phase of the analysis great deference.” Id.
Granting an injunction pending appeal turns on the same analysis as a
preliminary injunction motion. Cavel Int’l, Inc. v. Madigan, 500 F.3d 544, 547-48
(7th Cir. 2007). A party seeking a preliminary injunction must demonstrate (1)
some likelihood of succeeding on the merits, (2) that it has no adequate remedy at
law and will suffer irreparable harm if preliminary relief is denied, (3) the
irreparable harm the non-moving party will suffer if preliminary relief is granted,
balancing that harm against the irreparable harm to the moving party if relief is
denied; and (4) the public interest, meaning the consequences of granting or
denying the injunction to non-parties. Abbott Labs. v. Mead Johnson & Co., 971
F.2d 6, 11 - 12 (7th Cir. 1992) (internal citations omitted). The more likely the
plaintiff is to win, the less heavily the balance of harms to the other parties and the
public policy arguments for non-parties need to weigh in the plaintiff’s favor; the
less likely a plaintiff is to win, these factors must weigh more heavily in the
plaintiff’s favor. See Valencia v. City of Springfield, 883 F.3d 959, 966 (7th Cir.
2018).

Standing
The district court properly found that Plaintiffs have standing to bring this

5
Appendix 175a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(11 of 227)

suit. Op., 29-30.

Argument
I. The Court Below Erred in Holding That Heightened Scrutiny Was Not
Required in the Context of a Mandated Vaccine.
Students’ rights to bodily integrity and autonomy and to choose medical
treatment, as applied to a vaccination mandate, requires heightened scrutiny and
government justification. The district court defined the constitutional right at stake
in reviewing IU’s Mandate as a liberty interest that “has remained confined by . . .
the state’s legitimate interests that it had rationally pursued in regulation,” Op., 49
(citing Washington v. Harper, 494 U.S. 210, 221-22 (1990)), to which the district
court applied rational basis review. Id. at 51 (citing inter alia Jacobson v.
Commonwealth of Massachusetts, 197 U.S. 11, 30-31 (1905)).
Over the past 100 years, the Supreme Court has developed a constitutional
jurisprudence that gives robust protection to an individual’s right to control his or
her own body in certain important circumstances, including to refuse medications.
In those important circumstances, heightened scrutiny is required where the
government must demonstrate that it has sufficient justification to violate that
right. The court below made a clear error in law by applying rational basis review
to Students’ claims and therefore abused its discretion.

6
Appendix 176a

Case: 21-2326

A.

Document: 6-1

Filed: 07/23/2021

Pages: 31

(12 of 227)

The Right to Bodily Integrity and Autonomy and to Choose Medical
Treatment in the Context of a Vaccine Mandate Requires Heightened
Scrutiny.
The Court’s recent constitutional jurisprudence gives greater weight to the

protection of bodily integrity and autonomy and to choose medical treatment than
it did a century ago.4 During modern times, the Court has applied heightened
scrutiny in two lines of cases regarding the right to bodily integrity and autonomy:
(1) When an important personal choice has been prohibited by the
government. See, e.g., Griswold v. Connecticut, 381 U.S. 479 (1965)
(contraception); Roe v. Wade, 410 U.S. 113 (1973), modified by Planned
Parenthood of Se. Pennsylvania v. Casey, 505 U.S. 833 (1992) (abortion), and
Obergefell v. Hodges, 576 U.S. 644 (2015) (same-sex marriage).
(2)When an important personal choice has been mandated by the
government, contrary to the decision of the person. See, e.g., Cruzan by Cruzan v.
Dir., Missouri Dep’t of Health, 497 U.S. 261, 278 (1990) (right to consent to or
refuse medical treatment for incompetent person); Riggins v. Nevada, 504 U.S.
127, 135 (1992); Sell v. United States, 539 U.S. 166, 186 (2003) (pre-trial forced
administration of antipsychotic drugs).
The district court failed to recognize this since it limited its analysis in two
4

See Weiler, Bodily Integrity: A Substantive Due Process Right to Be Free from Rape by Public
Officials, 34 Calif. West. L. Rev. 591, 596-604 (1998) (compilation and analysis of modern bodily integrity and autonomy cases).

7
Appendix 177a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(13 of 227)

ways: (1) by ignoring all of the prohibition cases, except Glucksberg, Op., 49-52,
which established fundamental rights to bodily integrity and autonomy in certain
important circumstances of personal choice; and (2) by limiting its review of the
mandate cases to searching in vain for the magic words “fundamental right.” See
id. at 32. The Court, however, signals that heightened scrutiny is applied by:
(1) either the description of the right involved (i.e., “fundamental,”
“significant liberty interest”);
(2) the weight of the government interest that is needed to overcome the
right (i.e. “essential” or “overriding”); or
(3) the procedural burdens placed on the government when acting to
advance its interest (i.e., “clear and convincing evidence” or robust procedural
requirements).
See e.g.,Washington v. Glucksberg, 521 U.S. 702 (1997); Cruzan, 497 U.S. 261;
Sell, 539 U.S. 166. In these instances of heightened scrutiny, the key difference is
the shift in the burden of proof to the government, from the Plaintiff, to justify its
mandate.
The district court relied on two mandate cases, Cruzan and Harper, for its
erroneous conclusion that mandating vaccines implicates only a liberty interest,
triggering only rational basis review. Op., 49-52. Cruzan is particularly important
since it addresses the right to make medical treatment decisions, under which IU’s
8
Appendix 178a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(14 of 227)

Mandate falls, and clearly views that right to require heightened scrutiny. First,
Cruzan held that “a competent person has a constitutionally protected liberty
interest in refusing unwanted medical treatment may be inferred from our prior
decisions.” Cruzan, 497 U.S. at 278. It then upheld the requirement of “clear and
convincing evidence” in proceedings to terminate life-sustaining medical care for
an incompetent patient, under a due process analysis, because the “individual
interests at stake . . . are both ‘particularly important’” and “substantial, both on an
individual and societal level, than those involved in a run-of-the-mine civil
dispute.” Id. at 282-283. Obviously, the Court was describing a right that
demanded heightened scrutiny. See also Glucksberg, 521 U.S. at 721 n. 17 (In
Cruzan, the Court “concluded that the right to refuse unwanted medical treatment
was so rooted in our history, tradition, and practice as to require special protection
under the Fourteenth Amendment.”); Union Pac. R. Co. v. Botsford, 141 U.S. 250
(1891) (holding “the inviolability of the person is as much invaded by a
compulsory stripping and exposure as by a blow.”); Rochin v. California, 342 U.S.
165 (1952) (holding forced “stomach pumping” in hospital to obtain evidence of
narcotics violated Due Process Clause).
The district court’s reliance on Harper is also misplaced because, properly
interpreted, Harper supports heightened scrutiny here, which Harper’s progeny
makes clear, which the district court ignored. As the district court acknowledged,
9
Appendix 179a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(15 of 227)

Op., 49, Harper recognized a “significant liberty interest” in refusing unwanted
administration of antipsychotic drugs under the Due Process Clause. 494 U.S. at
221-22. The district court, however, interpreted Harper’s failure to call that right
“fundamental” meant that it was just a run-of-the-mill liberty interest. PI Order 4952. However, Harper was actually referring favorably to the Washington Supreme
Court’s characterization of the right, which required strict scrutiny to protect, 494
U.S. at 220-221, and held that “the forcible injection of medication into a
nonconsenting person’s body . . . represents a substantial interference with that
person’s liberty,” id. at 229, which is “impermissible absent a finding of
overriding justification and a determination of medical appropriateness.” Riggins,
504 U.S. at 135. The Harper Court applied rational basis review exclusively based
on Harper’s penal confinement, which furthers the state’s important interest in
prison safety and security. Id. at 134-135 (citing Harper, 494 U.S. at 227).
Finally, the Court in Sell looked to Harper and Riggins to establish the
standard of review of a government mandate of medical treatment contrary to an
individual’s choice for those outside of penal confinement, such as those awaiting
trial. Sell, 539 U.S. at 177-178. First, the Court found that an individual has a
constitutionally protected liberty “interest in avoiding involuntary administration
of antipsychotic drugs”—an interest that only an “essential” or “overriding” state
interest might overcome, id. at 178-79 (citing Riggins, 504 U.S. at 134, 135), and
10
Appendix 180a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(16 of 227)

only if the “involuntary medication will significantly further the concomitant state
interests.” Id. at 181. Furthermore, the government must show “the efficacy, the
side effects, the possible alternatives, and the medical appropriateness” of the
course of treatment, “sufficient to overcome the individual’s protected interest in
refusing it.” Id. at 183. And finally, the government had the burden to prove that
the “current circumstances” justifies overriding a person’s right to refuse
medication. Id. at 186, see generally United States v. Breedlove, 756 F.3d 1036,
1040 (7th Cir. 2014) (citing Sell, 539 U.S. at 180-82). This surely describes strict
scrutiny which should be applied here.
However, if rational basis review applies, as the district court applied here,
“the challenging party (the Students here) bears the burden of negating every
conceivable basis which might support a regulation.” Platt v. Brown, 872 F.3d
848, 852 (7th Cir. 2017). But Griswold, Roe, Casey, Cruzan, Glucksberg, Harper,
Riggins, Sell, and Obergefell5 all required the government, not the challenger, to
prove it meets the heightened standard of review for interference with the
individual’s right to bodily integrity and autonomy at issue, which the district
court fail to require.
Students are all competent adults who are capable of making their own
5

The substantive due process requirements for involuntary commitment to a mental hospital for
treatment follows the same path. See Humphrey v. Cody, 405 U.S. 504 (1972); Addington v. Texas, 441
U.S. 418 (1979); Vitek v. Jones, 445 U.S. 480 (1980).

11
Appendix 181a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(17 of 227)

decisions about their bodily integrity and autonomy and medical choices, but IU is
treating them like children, who need IU administrators to make medical treatment
decisions for them, even when contrary to the Student’s own attending physician’s
advice. Of course, there will be times that the government can make the requisite
showings, such as when the person is a prisoner or when in the midst of a raging
pandemic. But the Students are not children, prisoners, or mentally ill patients, and
the COVID pandemic has largely waned, see infra Part II.A. The government
needs to justify its mandate, which it failed to do and which the district court
failed to require.
B.

The Court below Erred in Applying Jacobson’s Rational Basis Test
Rather than Heightened Scrutiny.
As noted, the district court relied heavily on his view that Jacobson

established that “(a) vaccine is implemented as a matter of public health, and
historically hasn’t been constitutionally deterred from state mandate.” Op., 51
(citing Zucht v. King, 260 U.S. 174, 176-77 (1922);6 Jacobson, 197 U.S. at 30-31).
However, Jacobson gave no such plenary authority and in fact recognized that the
exercise of the police power to protect public health was subject to judicial review.
6

Other than confirming the limited holding of Jacobson, Zucht adds nothing to the analysis. Zucht
correctly explained Jacobson’s narrow holding that “it is within the police power of a state to provide
compulsory vaccination,” and that power may be delegated to public health authorities. Zucht, 260 U.S.
at 176 (citing Jacobson, 179 U.S. 11). Zucht, therefore, relied on Jacobson that this ordinance “confer(s)
not arbitrary power, but only that broad discretion required for the protection of the public health,” Zucht,
260 U.S. at 177, and adds nothing new.

12
Appendix 182a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(18 of 227)

Thus, the district court erred in conferring such plenary authority on IU.
1.

Jacobson’s Holding Did Not Negate the Government’s Obligation
to Exercise its Powers Within the Boundaries of the U.S.
Constitution.

In the past 100 years, much has been made of Jacobson, 197 U.S. 11.7 The
Jacobson Court upheld giving certain state police powers in public health
authorities regarding the smallpox vaccine. Id. at 24-27. Even the Progressive era
Jacobson Court recognized that such police powers could be exercised in a way to
violate the federal constitutional or statutory law, “exercised . . . in . . . an
arbitrary, unreasonable manner,” or exercised in a way to go “beyond what [i]s
reasonably required for the safety of the public,” Id. at 28. This left judicial review
of the exercise of those police powers to subsequent courts.
Thus, if violations of constitutional rights occur in exercise of those powers
as here, then, under Jacobson, the government needs to show that the exercise
passes constitutional muster. It cannot do so here when the proper heightened
constitutional scrutiny level is applied.
2.

Jacobson Preceded the Development of Modern Recognition of
Heightened Scrutiny for Infringements on Bodily Integrity and
Autonomy in Certain Important Contexts.

In the 117 years since the Jacobson Court approved delegation of the police

7

See generally, Mariner, Annas, Glantz, Jacobson v. Massachusetts: It’s Not Your Great-GreatGrandfather’s Public Health Law, 95 Am. J. Public Health 581 (2005).

13
Appendix 183a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(19 of 227)

power to protect public health and safety to public health officials, the doctrine of
substantive due process developed and individual liberties have been recognized,
in many cases requiring heightened scrutiny to protect against government
prohibitions and mandates that limit personal choice. See supra, Part I.A. The
Court itself recognized this development when it said that “our cases since Roe
accord with Roe’s view that a state’s interest in the protection of life falls short of
justifying any plenary override of individual liberty claims.” Casey, 505 U.S. at
857.
In 2020, as a result, the Court in Roman Catholic Diocese of Brooklyn v.
Cuomo, 141 S. Ct. 63 (2020), applied modern strict scrutiny to a violation of
fundamental rights which the government sought to justify as a result of the
COVID pandemic. As Justice Gorsuch reasoned, “Jacobson hardly supports
cutting the Constitution loose during a pandemic.” Roman Catholic Diocese, 141
S. Ct. at 70 (J. Gorsuch, concurring). Justice Gorsuch explained that Jacobson
never gave states a carte blanche for intrusions into settled constitutional rights
nor any contradictions with the Constitution, and “(t)ellingly no Justice now
disputes any of these points.” Id. Consequently, even when there is a public health
crisis, governments do not have the power to infringe on fundamental rights
without proving a compelling justification.
This Circuit agrees. “The pandemic is not a permissible excuse for invidious
14
Appendix 184a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(20 of 227)

discrimination.” Cassell, 990 F.3d at 549 (recognizing Roman Catholic’s modern
application of Jacobson in seeking to choose the best course of action with the
least mistakes in an evolving modern pandemic).While Cassell dealt with a First
Amendment claim against an Illinois executive order, this Court recognized that,
when evidence of infringement upon fundamental rights is present, the judiciary
may act to halt it. Id.
The Seventh Circuit is not alone in its reasoning—the Second Circuit noted
that Jacobson’s holding predated the modern tests of constitutionality, and “we
grant no special deference to the executive when the exercise of emergency
powers infringes on constitutional rights. That is precisely what the three-tiered
framework for analyzing constitutional violations is for, and courts may not defer
to the Governor simply because he is addressing a matter involving science or
public health.” Agudath Israel of Am. v. Cuomo, 983 F.3d 620, 635 (2d Cir. 2020).
Thus, over the past 100 years, the Supreme Court has developed a
constitutional jurisprudence that gives robust protection to an individual’s right to
bodily integrity and autonomy and the right to consent to medical treatment. And
as even Jacobson has made clear, the government does not have plenary power to
violate that right, even in contexts where the government’s interests are considered
important. The court below erred in applying Jacobson’s rational basis test rather
than the heightened scrutiny required in this context by modern developments of
15
Appendix 185a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(21 of 227)

constitutional law.
C.

IU's Mandate Violates Students’ Rights to Bodily Integrity and
Autonomy and to Medical Choice by Placing an Unconstitutional
Condition on Attending IU.
Students assert that IU’s Mandate violates Students’ fundamental rights of

bodily integrity and autonomy and to medical treatment choice by threatening a
“loss of an education,” if the student does not comply with the Mandate. See Op.,
48. While IU argued that Students were arguing for a right to attend college rather
than a right to consent to COVID vaccines, Judge Leichty correctly found that the
“‘unconstitutional conditions doctrine’ forbids the university from pulling the rug
out from under the students in a roundabout way.” Id.
It is well established that “the government may not deny a benefit to a
person because he exercises a constitutional right. Regan v. Taxation With
Representation, 461 U.S. 540, 545 (1983). Here, IU is coercing students to give up
their right to bodily integrity and autonomy and to medical treatment choice in
exchange for the discretionary benefit of matriculating at IU. Even if “someone
refuses to cede a constitutional right in the face of coercive pressure, the
impermissible denial of a governmental benefit is a constitutionally cognizable
injury,” Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595, 607 (2013),
where the U.S. Supreme Court has “often concluded that denials of government

16
Appendix 186a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(22 of 227)

benefits were impermissible under the unconstitutional conditions doctrine.” id. at
606, even where there is “no entitlement to that benefit.” Id. at 608.
This is the situation here, so the Students’ rights are violated.
II. Under Heightened Scrutiny, the Students Are Likely to Prevail on Their
Due Process Claim That, Under the Current Circumstances and as Applied to
this Age Group, IU Has Failed to Prove That Their Mandate Is Justified.
The court below held that on the preliminary record Students haven’t shown
a likelihood of success that IU lacked a rational basis for its Mandate. See Op., 55.
If the court would have applied heightened scrutiny, which requires the
government to justify restrictions, Students would have been likely to succeed.
Additionally, emerging facts continue to undermine IU’s rationale for the
Mandate.
Since heightened scrutiny applies, the court should consider both the
strength of the government’s interest and the tailoring of its regulations to the
current stage of the pandemic.
A.

IU’s Interest in Public Health and Safety is no longer Compelling
Enough to Justify the IU Mandate at this Stage of the COVID
Pandemic.
The COVID pandemic is in the final stage of “recovery” or “preparation”.

According to the CDC, the preparation phase “is characterized by low pandemic
[ ] activity, although outbreaks might continue to occur[.]” CDC, Updated

17
Appendix 187a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(23 of 227)

Preparedness and Response Framework for Influenza Pandemics, 2, Ex. 3. During
this phase, the primary focus should be to discontinue community mitigation
measures. Id.
Even if it could be argued that we are only in the deceleration phase, IU
should still be planning to discontinue mitigation measures. Id. The district court
agrees that “the overall trend line may well support a seeming deceleration,” but
applied rational basis to the implications of that conclusion. Op., 57. Evidence
supports that we are in the CDC’s preparation phase. Cases and deaths have
significantly decreased since March 2020.8 U.S. and Indiana Case and Death Bell
Curves, Exs. 4-7. The decelerating pandemic data supports The Supreme Court’s
view on policy analysis within this context.
“As more medical and scientific evidence becomes available, and as States
have time to craft policies in light of that evidence, courts should expect policies
that more carefully account for constitutional rights.” Calvary Chapel Dayton
Valley v. Sisolak, 140 S. Ct. 2603, 2605 (2020) (J. Alito, dissenting). Just as the
Court recognized that Sell’s condition must be evaluated given his current
circumstances, Sell, 539 U.S. at 186, as the science around the pandemic evolves

8

Note that while day to day rises and falls will occur, and variants will emerge (which CDC model
acknowledges), the overall trend line and current average rates relative to that overall trend line is what is
relevant. Temporary spikes do not show a trend and are not relevant to determining whether the pandemic is declining as a whole.

18
Appendix 188a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(24 of 227)

and the pandemic runs its course, so does the legal landscape surrounding it
evolve too.
The district court asserted that “[s]temming the spread of COVID-19 is
unquestionably a compelling interest.” Op., 56 (citing Cuomo, 141 S. Ct. at 67).
However, evidence suggests that stemming the spread may no longer be an
achievable goal, no matter the vaccination status of Students. Emerging data from
around the world suggests that vaccination may not prevent the spread of COVID,
particularly against COVID variants, but may simply lessen the severity of
symptoms among those who do contract it.9 IU’s President Whitten, who is fully
vaccinated, recently contracted COVID. She acknowledged, “the vaccine is not
100% effective,” but was “protected from more serious symptoms.” Email from
President Whitten, Ex. 8. For college-aged students, the risk of severe COVID
consequences, such as hospitalizations and death, were already near zero without
vaccination (see Op., 61), so lessening the risk of death is not a compelling
interest.
Under the proper standard of review, IU cannot prove that it has a
compelling interest at this stage in the pandemic or for this age group. IU cannot
prove that IU's Mandate would prohibit the spread of COVID, and lessening the
9

https://www.deseret.com/coronavirus/2021/7/20/22584134/whats-going-on-in-israels-outbreak-among-va
ccinated-people

19
Appendix 189a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(25 of 227)

risks of COVID for this age group is not a compelling interest when severity was
already minimal and deaths almost nonexistent.
B.

The IU Mandate Is Not Narrowly Tailored.
1.

College-aged persons are at a very low risk of adverse effects of a
COVID infection.

There is little risk of adverse effects of a COVID infection for college and
graduate students. As of July 11, 2021, IU had one COVID death case for students
over the 18 months of the COVID pandemic. Op., 61.
A study of 100 major universities and colleges indicated that even in the
height of the pandemic, there were a mere 17—typically short-term—reported
COVID hospitalizations and only one possible COVID death. Compl., ¶¶131-135.
Furthermore, the overall risk for this age group of developing serious side
effects from COVID is extremely low. The district court agreed that “young adults
are less likely to experience serious illness or death from infection.” Op., 5. In
fact, studies show that there is only a .02% chance of dying from COVID for
people ages 20-49. Nickie Louise, CDC data shows that COVID-19 survival rate
for adults is 99.98%; chances of surviving coronavirus is over 99.9% for most age
groups, Nov. 21, 2021, Ex. 9.
Accordingly, the risks of COVID to college-age students is extremely low
and the risk of death is almost non-existent. Mandating college-aged persons to
20
Appendix 190a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(26 of 227)

get vaccinated is not narrowly tailored to protecting public health and safety.
2.

Older people, who are not subject to a mandate, are at a
much greater risk of adverse effects of a COVID infection
than young people, who are subject to a mandate.

IU’s Mandate requires the younger population to receive the vaccine, but
the older population is at the greatest risk for a COVID infection. Older people can
be up to 870 times more likely to die from COVID than the student population.
Compl., 27 (Tables D and E); see also Beeler Deposition, 49:6-12, Ex. 10
(indicating that it is reasonable to state that the older population is 600 times at
greater risk than the younger population).10
Mandating the vaccine for the younger, student age population, rather than
those much older, is not narrowly tailored to protect public health and safety.
C.

IU’s Mandate Is Not the Least Restrictive Means to Protect Health and
Safety.
Existing measures (including voluntary vaccination, masking, social

distancing, sanitizing, and testing) have already gotten IU and Indiana to the
CDC’s preparation phase, so continuing such measures, rather than a mandate,
would be the least restrictive means of accomplishing IU’s goal.11

10

The district court did not determine how much greater risk the older population had versus the
younger population.
11

The district court agrees that new COVID infections are waning and that the bell curves show the
trend moving “sharply down[.]” Op, 6-7.

21
Appendix 191a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(27 of 227)

Additionally, IU has failed to prove that the vaccines are sufficiently safe
and effective to justify mandating their use for this age group. There are emerging
risks of the COVID vaccines, including some that primarily effect students. See
e.g., Op., 22-24. And there are emerging questions about the COVID vaccines
effectiveness, particularly against COVID variants. Because IU has mandated the
vaccines, substituting themselves for students and their attending physicians, it is
IU’s burden to prove that the vaccines are safe and effective for this age group,
which they have failed to do.12
The IU Mandate is thus not the least restrictive means to accomplish its
interest in public health and safety.
III. Students have suffered irreparable harm.
Students have shown irreparable harm and that there is no adequate remedy
at law.
The district court correctly held that “[t]o the extent that the students
establish a constitutional harm, the law presumes irreparable harm,” Op., 91, and
likewise, there would be “no adequate remedy at law.” Id. at 93. Students have
shown a constitutional injury, so it must follow that there is irreparable harm and

12

The district court only evaluated whether IU had a rational basis to conclude that the COVID vaccine is safe and efficacious for its students, not whether the same conclusion could be reached under
heightened scrutiny. Op., 80.

22
Appendix 192a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(28 of 227)

no adequate remedy at law. See Part II.
IV. The Balance of Equities Weighs in Students’ Favor.
Given the significant constitutional injury here, the balance of harms and
public interest favor Students.
Since Students are likely to succeed on the merits of their claim, the balance
of harms does not need to favor them as strongly. Op., 94. Nevertheless, Students
have shown that the balance of harm tips in their favor, where their constitutional
rights are being violated. In contrast, IU cannot show that it will be harmed, as the
risk of COVID has significantly declined and a significant portion of IU’s
population is already vaccinated. Moreover, anyone that wants to be vaccinated
can do so, free of charge, so Students decision to not vaccinate does not harm
others.
This district court correctly held that “[i]f the students had shown a
likelihood that the university was unreasonably infringing on their constitutional
rights, enjoining that violation would be in the public interest.” Op., 96. Students
have shown that IU is unreasonably infringing on their constitutional rights when
the correct constitutional standard is employed, so enjoining that violation is in the
public interest.

23
Appendix 193a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(29 of 227)

Conclusion
The Court should grant this Motion.
July 23, 2021

Respectfully submitted,
/s/ James Bopp, Jr.
James Bopp, Jr.,
Lead Counsel and
Director of Litigation
America’s Frontline Doctors
jboppjr@aol.com
Richard E. Coleson
rcoleson@bopplaw.com
Courtney Turner Milbank
cmilbank@bopplaw.com
Melena S. Siebert
msiebert@bopplaw.com
THE BOPP LAW FIRM, PC
1 South Sixth St.
Terre Haute, IN 47807−3510
Telephone: (812) 232−2434
Counsel for Plaintiffs-Appellants

24
Appendix 194a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(30 of 227)

Certificate of Compliance with Type-Volume Limit
This document complies with the word limit of Fed. R. App. P. 27(d)(2)(A)
because, this document contains 5,197 words.
This document complies with the typeface requirements of Fed. R. App. P.
32(a)(5) and the type-style requirements of Fed. R. App. P. 32(a)(6) and Cir. Rule
32 because this document has been prepared in a proportionally spaced typeface
using WordPerfect 2020 in Times New Roman 14-point font.
July 23, 2021

/s/ James Bopp, Jr.
James Bopp, Jr.
Lead Counsel for Plaintiffs-Appellants
and
Director of Litigation
America’s Frontline Doctors

25
Appendix 195a

Case: 21-2326

Document: 6-1

Filed: 07/23/2021

Pages: 31

(31 of 227)

Certificate of Service
I certify that counsel of record have been served by this Court’s ECF service
and by email.
/s/ James Bopp, Jr.
James Bopp, Jr.
Lead Counsel for Plaintiffs-Appellants
and
Director of Litigation
America’s Frontline Doctors

26
Appendix 196a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

No. 21-2326
In the United States Court of Appeals for the Seventh Circuit
_______________
Ryan Klaassen, Jaime Carini, Daniel J. Baumgartner, Ashlee Morris,
Seth Crowder, Macey Policka, Margaret Roth, and Natalie Sperazza,
Plaintiffs-Appellants
v.
The Trustees of Indiana University,
Defendant-Appellee
_______________
On Appeal from the U.S. District Court for the Northern District of Indiana,
Case No. 1:21-cv-00238-DRL-SLC, Honorable Damon R. Leichty, District Judge
_______________

Reply in Support of Emergency Motion of Appellants Klaassen
et al. for an Injunction Pending Appeal Relief
_______________
James Bopp, Jr.,
Lead Counsel and
Director of Litigation
America’s Frontline Doctors
jboppjr@aol.com
Richard E. Coleson
rcoleson@bopplaw.com
Courtney Turner Milbank
cmilbank@bopplaw.com
Melena S. Siebert
msiebert@bopplaw.com
THE BOPP LAW FIRM, PC
1 South Sixth St.
Terre Haute, IN 47807−3510
Telephone: (812) 232−2434
Counsel for Plaintiffs-Appellants

Appendix 197a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

Argument
I. Students are Likely to Prevail on the Merits.
Students are likely to prevail on their claim that IU’s Mandate violates
Students’ 14th Amendment due process rights of bodily integrity and autonomy
and of medical treatment choice, since IU cannot prove that the Mandate survives
intermediate or strict scrutiny.
A.

IU Claims Plenary Power to Require Whatever IU Determines is the
Most Effective Means for Student’s Health and Safety.
IU audaciously relies on an extreme reading of Jacobson v. Commonwealth

of Massachusetts, 197 U.S. 11 (1905) to claim plenary power over IU students, to
protect the public against disease (Resp., 2, ECF 11), by having nearly cart
blanche to impose whatever is “currently the most effective way” to prevent a
disease (id. at 3). This plenary power never ends, as IU contends both that “its
application does not depend on the existence of a pandemic” (PI Resp., 19), and,
in any event, “[s]temming the tide of COVID-19 ‘is unquestionably a compelling
[governmental] interest,’” (Resp., 2 (citation omitted)), regardless of “the current
circumstances of the COVID pandemic[]” (id. at 16).
Some language in Jacobson, taken out of context, might support such an
extreme interpretation. The Jacobson Court upheld a state-authorized vaccine
requirement imposed on Cambridge residents in response to a smallpox outbreak,
1
Appendix 198a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

unless they fit an exemption, or pay a $5 fine. Jacobson challenged that the
authorizing statute “was in derogation of the rights secured by the 14th
Amendment . . . .” 197 U.S. at 12, 14. Jacobson held, however, that any individual
liberty interest involved may be overridden in such circumstances by “laws for the
common good.” Id. at 26-27. The Court found no error in the trial court’s refusal
to hear evidence which cast doubt on the efficacy and safety of the vaccine,
because “the legislature must be assumed to have known the opposing theories,”
and “[i]t is no part of the function of a court or a jury to determine which one of
two modes was likely to be the most effective for the protection of the public
against disease.” Id. at 30 (emphasis added).
This extreme deference to decision-makers and no-evidence/“no . . .
function” role of the courts is the plenary authority that IU seeks and what it
claims that Jacobson requires. This extreme view of Jacobson led directly to the
infamous decision in Buck v. Bell, 274 U.S. 200 (1927), upholding the involuntary
sterilization of those with mental retardation. The Buck Court cited Jacobson:
“The principle that sustains compulsory vaccination is broad enough to cover
cutting the Fallopian tubes. Jacobson, 197 U. S. 11. Three generations of
imbeciles are enough.” 274 U.S. at 207. Not satisfied with their extreme
interpretation of Jacobson, IU also maintains that Buck v. Bell remains good law
(PI Resp., 17), demonstrating the scope of the plenary power they claim.
2
Appendix 199a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

IU claims, and the district court conferred, the same plenary power over
their student’s medical treatment decisions that is excised by a prison over its
inmates. See Op. 49; Washington v. Harper, 494 U.S. 210 (1990). In Harper,
while the Court recognized a prisoner “possesses a significant liberty interest in
avoiding the unwanted administration of antipsychotic drugs under the Due
Process Clause,” “the extent of the prisoner’s right . . . must be defined in the
context of the inmate’s confinement,” “where the proper standard is . . . whether
the regulation is ‘reasonably related to legitimate penological interests.’ This is
true even when the constitutional right . . . is fundamental, and the State under
other circumstances would have been required to satisfy a more rigorous standard
of review.” Id. at 222 (citations omitted). This is the rational basis review the
district court employed and results in the plenary power that IU seeks.
This interpretation is not the reasonable one. While unremarkably holding
that “it is within a state’s police power to establish regulations implementing
mandatory vaccine laws and vest local officials with enforcement authority[,]”
Resp., 14 (citation omitted), Jacobson recognized that such police powers could
be exercised to violate the federal constitutional or statutory law, “in . . . an
arbitrary, unreasonable manner,” or in a way to go “beyond what [i]s reasonably
required for the safety of the public.” Id. at 28. This left judicial review of the
exercise of those police powers to subsequent courts.
3
Appendix 200a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

If violations of constitutional rights occur in exercise of those powers, as
here, then, under Jacobson, the government needs to show the exercise passes
constitutional muster. IU cannot do so here when the proper heightened
constitutional scrutiny is applied.
B.

IU’s Mandate Infringes on Substantial Constitutional Rights, Requiring
Heightened Scrutiny.
IU opens its Response with an erroneous statement: “Over a century ago, in

Jacobson, the Supreme Court upheld a law that required the smallpox vaccine
against a substantive due process challenge.” Resp., 2 (emphasis added).
“Substantive due process” was not recognized in legal text books until the 1930s
and did not appear in U.S. Supreme Court cases until the 1950’s, see generally, G.
Edward White, The Constitution and the New Deal 259 (2000); Republic National
Gas v. Oklahoma, 334 U.S. 62, 90 (1948) (J. Rutledge, dissenting); Beauharnais
v. Illinois, 343 U.S. 250, 277 (1952) (J. Reed, concurring). Incorporation of the
Bill of Rights, upon which substantive due process against the States is based, did
not begin until 1925. See Gitlow v. New York, 268 U.S. 652 (1925). So Jacobson
did not employ substantive due process analysis, which modern constitutional
jurisprudence requires. See generally Cnty. of Butler v. Wolf, 486 F. Supp. 3d 883,
897 (W.D. Pa. 2020).
Significant, even compelling, rights of bodily integrity and autonomy and
4
Appendix 201a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

medical treatment choice that are infringed here, requiring heightened, even strict
scrutiny, that have been recognized since Jacobson. See Mot. 7-11. Most
important are the government mandate cases where a medical treatment decision is
overridden by the government. These cases involve: forced “stomach pumping” to
obtain evidence of narcotics, Rochin v. California, 342 U.S. 165 (1952);
involuntary commitment to a mental hospital for treatment, Humphrey v. Cody,
405 U.S. 504 (1972); Addington v. Texas, 441 U.S. 418 (1979); Vitek v. Jones, 445
U.S. 480 (1980); medical treatment decisions by incompetent patients, Cruzan by
Cruzan v. Dir., Missouri Dep’t of Health, 497 U.S. 261, 278 (1990); forced pretrial administration of antipsychotic drugs, Riggins v. Nevada, 504 U.S. 127, 135
(1992); Sell v. United States, 539 U.S. 166, 186 (2003). Each of these cases
involve the significant right to refuse medical treatment and the Court required
heightened scrutiny to overcome. The district court recognized IU’s Mandate
could infringe on Students’ rights, under the unconstitutional condition doctrine,
Op., 48, but incorrectly applied rational basis review.
C.

Under Heightened Scrutiny, the Burden Shifts to IU to Justify its
Mandate Under Strict Scrutiny.
Two levels of heightened scrutiny exist—intermediate scrutiny and strict

scrutiny. Under intermediate scrutiny, the Court applies a “rigorous standard of
review” that requires “the State [to] demonstrate[] a sufficiently important interest
5
Appendix 202a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

and employ[] means closely drawn to avoid unnecessary abridgments of” the right.
McCutcheon v. Federal Election Commission, 572 U.S. 185, 197 (2014). Under
strict scrutiny, the government has the burden of proof to establish the law is
necessary to advance a compelling governmental interest by narrowly tailored and
least restrictive means. Sherbert v. Verner, 374 U.S. 398 (1963). Both levels
impose on IU the burden of proof which, critically, the district court did not
require.
Sell is the latest and most comprehensive case establishing a strict scrutiny
framework for government medical treatment mandates. Mot., 10-11. IU wrongly
dismisses Sell in a footnote. Resp., 12 n.2.
Describing the Sell test as a strict scrutiny test is fair since it contains all of
the essential elements of strict scrutiny, i.e. a protected constitutional right, a
sufficiently important state interest to overcome the right, narrow tailoring and
less restrictive means, and the requirement that the government must prove it all.
Mot., 10-11. The Sell test is not used within “the penal framework”—Sell was in a
mental hospital awaiting trial, not a convicted felon in prison, like Harper. That is
why Sell applied heightened scrutiny, not Harper’s rational basis. Surely a medical
treatment choice by law-abiding adults, like Students, is entitled to at least the
same respect as a medical treatment decision by a person with severe mental
illness awaiting trial.
6
Appendix 203a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

Sell’s strict scrutiny test for medical treatment decisions has been applied
beyond the narrow confines of involuntary administration of drugs to a mentally ill
defendant facing criminal charges in order to render that defendant competent to
stand trial. Contra Resp., 12, n.2. But that’s where IU wants to cabin it. This
Circuit has suggested as much in Russell v. Richards, where in the context of
involuntary administration of delousing shampoo to inmates, this Court assumed
that delousing shampoo was “a medication,” but found that it was a less intrusive
externally applied medication that posed little risk of harm. 384 F.3d 444, 450 (7th
Cir. 2004). As a result, this Court held that context didn’t require Sell’s
protections. Id. Other Circuits have applied the Sell test in other contexts.1
Thus Sell provides the framework for the strict scrutiny analysis of IU’s
Mandate and requires IU prove that its Mandate meets strict scrutiny. The district
court did not employ Sell—this is clear legal error.
D.

IU Failed to Prove that its Mandate Satisfies Strict Scrutiny.
1.

The District Court Employed the Wrong Legal Standard in
Finding Facts.

IU argues that IU’s Mandate passes strict scrutiny, citing to the district
1

See, e.g., United States v. Baldovinos, 434 F.3d 233, 239-241 (4th Cir. 2006)
(applying Sell’s analysis to forced administration of antipsychotic drugs to render
defendant competent to be sentenced); Witt v. Department of the Air Force, 527
F.3d 806, 817-821 (9th Cir. 2008) (applying Sell’s heightened scrutiny analysis to
discharge of Air Force nurse for homosexual relationship).
7
Appendix 204a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

court’s findings. Resp., 16-17. But the district court never considered whether IU’s
Mandate passed strict scrutiny. Instead, the district court evaluated all facts under
the umbrella of whether IU’s Mandate is rationally related to their goal. Op. 57.
From the district court’s discussion of the state of the pandemic, to CDC
and State recommendations, to IU’s Mandate, etc., all facts were considered
through the lens of whether IU’s Mandate satisfied rational basis. The district
court did not consider any fact under the correct legal standard nor did it consider
any facts relevant to determine whether IU could satisfy its burden of proof.
Accordingly, the basis for the district court’s fact finding was clear error
and cannot support strict scrutiny.
2.

Currently, IU’s Interest in Public Health and Safety Is Not
Compelling Enough to Justify IU’s Mandate.
a.

For IU’s Interest in Public Health and Safety to be
Compelling It Must Prevent Hospitalizations and Death
from a Disease, not Just Infections.

It’s been assumed that stopping the spread of COVID was a compelling
interest that justified draconian government restrictions. S. Bay United Pentecostal
Church v. Newsom, 141 S. Ct. 716, 718 (2021) (J. Gorsuch, concurring). But that
assumption has been based in another critical assumption—that the spread of
COVID will lead to increased hospitalizations and death. After all, we don’t allow
the government to mandate extraordinary measures to prevent the common cold or
8
Appendix 205a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

flu, but only serious diseases that result in significant injury and death.
As the mortality rate of a disease increases, so does the government
justification for restrictive measures. For instance, Jacobson’s smallpox had a case
fatality rate (CFR) approaching 30%, across all age groups.2 We now have data
showing COVID’s CFR is relatively low 1.8%.3
IU states the vaccine is necessary to “stem[] the spread of COVID-19” and
gives IU “the best protection” in the fight against it. Resp., 15, 17. IU’s approach
is to reach virtually zero COVID cases—this is irrational and would mean its
plenary power lasts forever.
b.

IU’s Interest in Public Health and Safety is no longer
Compelling Enough to Justify IU’s Mandate at this Stage of
the Pandemic As Applied to this Age Group.

When stratified for the college-age group, COVID’s CFR plummets to
0.01%.4 Even with the Delta variant causing current increases in cases, even
among vaccinated individuals, CFR remains extraordinarily low. The latest data
from Israel (which has a high vaccination rate) and the UK shows that COVID

2

PD Ellner, PubMed, Smallpox: gone but not forgotten,
https://pubmed.ncbi.nlm.nih.gov/9795781/.
3

See Johns Hopkins, MORTALITY ANALYSES
https://coronavirus.jhu.edu/data/mortality.
4

See, CDC, COVID-19 Weekly Cases and Deaths per 100,000 Population by
Age, Race/Ethnicity, and Sex
https://covid.cdc.gov/covid-data-tracker/#demographicsovertime.
9
Appendix 206a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

vaccine effectiveness against Delta coronavirus infection and symptomatic
(“mild”) disease has decreased from about 95% to 40%, whereas effectiveness
against hospitalization and severe disease remains at 80% to 90%.5
Given the lack of serious danger COVID poses to college-age students, the
relatively low hospitalization and death rates, even with the Delta variant, IU’s
Mandate is not justified at this stage as applied to this age group.
c.

IU’s Mandate is underinclusive and doesn’t legitimately
advance its claimed interest.

“A law cannot be regarded as protecting an interest of the highest order
when it leaves appreciable damage to that supposedly vital interest unprohibited.”
Church of Lukumi Babalu Aye v. City of Hialeah, 508 U.S. 520, 547 (1993)
(internal quotation and alteration marks omitted). In other words,
“underinclusiveness diminish[es] the credibility of the government’s rationale for
restricting speech.” City of Ladue v. Gilleo, 512 U.S. 43, 52–53 (1994). IU’s new
exemptions make IU’s Mandate woefully underinclusive, defeating IU’s stated
objective.
IU has recently expanded its exemptions. First, IU’s medical exemption “in
practice,” applies to “those who have a medical condition that their doctor believes
5

See Swiss Policy Research, Covid Vaccines: The Good, The Bad, The Ugly
https://swprs.org/covid-vaccines-the-good-the-bad-the-ugly/.
10
Appendix 207a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

nonetheless contraindicates the vaccine[]” (Resp., 3), substantially increasing who
can avoid the Mandate. Second, IU added an ethical exemption. Resp., 4. While
IU does not define this exemption, it appears to mirror the religious exemption,
which IU “automatically grants upon request.” Resp., 3.
IU’s radically expanded exemptions have virtually guaranteed anyone can
get an exemption—its Mandate is now woefully underinclusive and belies its
claimed interest in the Mandate. Accordingly, IU no longer has a compelling
interest sufficient to justify its Mandate and the exemptions render it
underinclusive. IU’s Mandate, therefore, fails strict scrutiny.
II. Students Have Suffered Irreparable Harm.
Defendant claims that “[t]he district court twice determined that plaintiffs
failed to establish . . . irreparable harm[.]” Resp., 23. However, this was because
the district court erroneously held that there was no constitutional harm. Students,
however, have established a constitutional harm and, in that event, the district
court correctly held that “[t]o the extent that the students establish a constitutional
harm, the law presumes irreparable harm[ ]” (Op., 91 (citations omitted)), and with
a constitutional injury, “the court could see that there is no adequate remedy at
law[,]” (Op., 93).
As a result, Students have shown irreparable harm.

11
Appendix 208a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

III. The Balance of Equities and the Public Interest Weigh in Students’ Favor.
IU argues that the balance of harms tips in their favor. Resp., 20. But IU
ignores Students’ significant constitutional injury, which the Students have
established, and that others are free to get vaccinated, or wear masks and social
distance, if they so choose, to protect themselves, even without IU’s Mandate.
Further, the district court correctly held that “if the students had shown a
likelihood that the university was unreasonably infringing on their constitutional
rights, enjoining that violation would be in the public interest.” Op. 96.
Considering all factors under the correct legal standard, the balance of
harms and the public interest tip in Students’ favor.

Conclusion
The Court should grant Students’ Motion.

12
Appendix 209a

Case: 21-2326

July 30, 2021

Document: 12

Filed: 07/30/2021

Pages: 16

Respectfully submitted,
James Bopp, Jr.,
Lead Counsel and
Director of Litigation
America’s Frontline Doctors
jboppjr@aol.com
Richard E. Coleson
rcoleson@bopplaw.com
Courtney Turner Milbank
cmilbank@bopplaw.com
/s/ Melena S. Siebert
Melena S. Siebert
msiebert@bopplaw.com
THE BOPP LAW FIRM, PC
1 South Sixth St.
Terre Haute, IN 47807−3510
Telephone: (812) 232−2434
Counsel for Plaintiffs-Appellants

13
Appendix 210a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

Certificate of Compliance with Type-Volume Limit
This document complies with the word limit of Fed. R. App. P. 27(d)(2)(A)
because, this document contains 2,596 words.
This document complies with the typeface requirements of Fed. R. App. P.
32(a)(5) and the type-style requirements of Fed. R. App. P. 32(a)(6) and Cir. Rule
32 because this document has been prepared in a proportionally spaced typeface
using WordPerfect 2020 in Times New Roman 14-point font.
July 30, 2021

/s/ Melena S. Siebert
Melena S. Siebert
Counsel for Plaintiffs-Appellants

14

Appendix 211a

Case: 21-2326

Document: 12

Filed: 07/30/2021

Pages: 16

Certificate of Service
I certify that counsel of record have been served by this Court’s ECF
service.
/s/ Melena S. Siebert
Melena S. Siebert
Counsel for Plaintiffs-Appellants

15

Appendix 212a

